cas^m^6^§5-E§^c\fsmM^t lcRpgpii^d

NOTE: This disposition is nonprecedential.

®iuteb States* Court of Appeals;
for tfje Jfeberal Circuit
AHMED HALIM,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2019-1478
Appeal from the United States Court of Federal Claims
in No. l:12-cv-00005-EDK, Judge Elaine Kaplan.
Decided: May 12, 2020

CARL Coan, III, Coan & Lyons, Washington, DC, for
plaintiff-appellant.
Tanya Koenig, Commercial Litigation Branch, Civil
Division, United States Department of Justice, Washing­
ton, DC, for defendant-appellee. Also represented by
Joseph H. Hunt, Kenneth Dintzer, Robert Edward
Kirschman, Jr.

la

22

Cas<Pf^4fajd$te-E[§tec#^QM7it ldfcgpil&J 0^fe*2§5^^^QDf 22
2

HALIM V. UNITED STATES

Before O’MALLEY, BRYSON, and CHEN, Circuit Judges.
BRYSON, Circuit Judge.
In 2006 and 2007, plaintiff Ahmed Halim purchased
several apartment complexes from the Department of
Housing and Urban Affairs (“HUD”) at foreclosure sales in
various cities. Mr. Halim entered into a series of contracts
with HUD relating to his purchase and operation of the
properties. Disputes arose with regard to Mr. Halim’s pro­
posal to self-manage one of the properties and his failure to
complete repairs at the other three properties and to main­
tain the housing units at those properties in habitable con­
dition. Based on its determination that Mr. Halim had
breached his contractual obligations regarding the repair
and maintenance of three of the properties and his failure
to make satisfactory arrangements for the management of
the fourth property, HUD retained funds that Mr. Halim
had deposited pursuant to the contracts. Mr. Halim filed
this action in the United States Court of Federal Claims
(“the Claims Court”) challenging HUD’s retention of those
funds. The Claims Court granted summary judgment to
the government with respect to Mr. Halim’s claims relating
to all four properties. We affirm.
I
The first of the four properties addressed by the Claims
Court was a 24-unit apartment complex in Flushing, Ohio,
called the Nichols Townehomes Apartments. HUD held a
foreclosure sale for the property in 2006. HUD advertised
the foreclosure sale through a “bid kit.”
The bid documents provided that the successful bidder
would be required to submit a $50,000 earnest money de­
posit immediately after the foreclosure sale. The bid docu­
ments also provided that the successful bidder would be
required to submit certain forms relating to the bidder’s
ability to manage the property appropriately. If HUD

2a

cas£f.^-3$-i1dtf85-E[§tec^QtT47it lcRpgpii^d oSfefe@5/|*agP3Q)f 22

HALIM v. UNITED STATES

3

determined that the bidder/owner was unqualified to selfmanage the property, HUD could require the bidder/owner
to obtain the services of a qualified property management
firm. If the bidder/owner failed to retain those services,
HUD was entitled to reject the bid and retain the bidder’s
earnest money deposit. The successful bidder was required
to sign a copy of an agreement entitled “Terms and Re­
quirements of Foreclosure Sale—Acknowledgement by
Bidder” that mirrored those requirements described in the
bid documents.
Mr. Halim was the high bidder on the property. He
signed the “Terms and Requirements of Foreclosure Sale—
Acknowledgement by Bidder” agreement and submitted
the $50,000 earnest money deposit.
Mr. Halim advised HUD that he intended to self-manage the property, and he submitted various forms in sup­
port of his request to be permitted to manage the property
without an independent management firm. After receiving
the forms, HUD advised Mr. Halim that he had failed to
demonstrate that he or his management company had the
experience required to manage the property. Among other
problems, HUD advised Mr. Halim that several of the
forms were “incomplete or ... in need of correction/clarifi­
cation.” In addition, HUD noted that Mr. Halim’s state­
ment in support of his intention to self-manage the
property “does not indicate any previous experience in Pro­
ject Based Section 8 [federally subsidized] housing, nor did
you include any experience of company staff.” HUD there­
fore advised Mr. Halim that he needed to retain a property
management firm and that if he did not, HUD would reject
his bid and retain his earnest money deposit.
Mr. Halim did not retain a property management firm
as directed. Instead, he submitted revised forms to HUD
in support of his request to self-manage the property. HUD
concluded that the submitted documents, even as revised,
failed to demonstrate that he was qualified to manage the

3a

cas^fas-^dd^fc-ES^ciiwfeQh^Tit lcRpgpii^d oStetefs^^^ODf 22

4

HALIM V. UNITED STATES

property. HUD therefore rejected his bid and retained his
earnest money deposit.
The parties filed cross-motions for summary judgment.
Mr. Halim argued that HUD acted in bad faith when it re­
fused to permit him to self-manage the Nichols
Townehomes property and canceled the sale. For that rea­
son, he argued, HUD breached the contract’s implied cove­
nant of good faith and fair dealing.
The Claims Court rejected that argument. It noted
that in order to demonstrate bad faith, Mr. Halim was re­
quired to show by clear and convincing evidence that HUD
had the specific intent to injure Mr. Halim. The court held
that Mr. Halim had not pointed to any evidence of bad faith
on HUD’s part. In addition, the court noted that Mr. Halim
offered no evidence in support of his “bald assertion” that
the forms he submitted in support of his request to selfmanage the Nichols Townehomes property were “essen­
tially the same” as the forms he had submitted in connec­
tion with other properties that he had been permitted to
self-manage. The court added that Mr. Halim had offered
no evidence that the contexts in which the forms were sub­
mitted in connection with the other properties were com­
parable to the Nichols Townehomes. The court therefore
denied Mr. Halim’s summary judgment motion and
granted summary judgment to the government with re­
spect to that property.
Before this court, Mr. Halim has not pressed his “bad
faith” claim. Instead, he argues that HUD’s rejection of his
request to self-manage the property was arbitrary and ca­
pricious because HUD had allowed him to self-manage
other properties. Before the Claims Court, however, Mr.
Halim did not advance his current argument that HUD’s
actions were arbitrary and capricious. To be sure, at one
point in his opposition Mr. Halim stated that HUD’s ac­
tions were “arbitrary and made in bad faith.” But the “ar­
bitrary and capricious” argument was wholly undeveloped.

4a

Cas^9S-^=ddGffe-EI§^ci(50(eo^7it l(Rpgpil#d 0§i1^2§5/^^gQ)f 22

HALIM v. UNITED STATES

5

And Mr. Halim has not addressed the government’s con­
tention that in the trial court he argued that HUD had
acted in “bad faith,” while on appeal he argues that HUD
acted “arbitrarily and capriciously.” As such, we deem that
argument waived. See Fresenius USA, Inc. v Baxter Int’l,
Inc., 582 F.3d 1288, 1296 (Fed. Cir. 2009) (“If a party fails
to raise an argument before the trial court, or presents only
a skeletal or undeveloped argument to the trial court, we
may deem that argument waived on appeal.”).
We also reject the “arbitrary and capricious” argument
on the merits. Mr. Halim’s entire argument is based on a
short declaration created in connection with the litigation.
In that declaration, Mr. Halim stated that HUD had ap­
proved him to self-manage five other properties, and that
he was managing two of those properties at the time he
submitted his bid on the Nichols Townehomes Apartments.
He also stated that at least two of the forms he submitted
to HUD to demonstrate his qualifications to self-manage
the other properties were “essentially the same” as the ver­
sion of those forms he submitted for the Nichols
Townehomes Apartments.
Mr. Halim contends that because HUD allowed him to
self-manage other HUD properties, it was required to per­
mit him to self-manage this one. We disagree. The picture
Mr. Halim paints, even viewed in the light most favorable
to him, is not one of unfair conduct of the sort necessary to
make out his claim of breach of an implied covenant. Mr.
Halim does not address the merits of HUD’s decision not to
permit him to self-manage the Nichols Townehomes, ex­
cept to argue that HUD’s action in the case of the Nichols
property was inconsistent with its actions in the case of
other properties that he was allowed to self-manage. Yet
the contract made clear that the decision whether to allow
an owner to self-manage a property was within HUD’s dis­
cretion. Rather than proving improperly restrictive con­
duct on HUD’s part, Mr. Halim’s declaration may simply

5a

Cas£3$24$-ljdtf§5-E[§teci!!^Qft47it l(Rpgpil#d O^iiSfc^&^PlQjf 22

6

HALIM V. UNITED STATES

show that HUD treated him more leniently than it was re­
quired to with respect to those other properties.
Contrary to Mr. Halim’s argument, HUD’s decisions
with respect to each property must be assessed based on
the circumstances relating to that particular property. Mr.
Halim has not provided any evidence that the circum­
stances relating to the Nichols property are comparable to
the circumstances relating to any of the other properties.
Moreover, the fact that HUD may have permitted an
owner to self-manage in one case cannot, in effect, estop the
agency from concluding in another case that the owner
should not be permitted to self-manage the property, where
there is no evidence of affirmative misconduct on the part
of the agency. See, e.g., United States v. Ford Motor Co.,
463 F.3d 1267, 1278—79 (Fed. Cir. 2006); Dantran, Inc. v.
U.S. Dep’t of Labor, 171 F.3d 58, 66—67 (1st Cir. 1999).
In short, Mr. Halim failed to demonstrate that HUD’s
decision with respect to this particular property was an im­
permissible exercise of its discretion. The Claims Court
correctly ruled that the government was entitled to sum­
mary judgment that the government did not breach its
agreement with Mr. Halim when it exercised its right to
insist that he designate a management firm to manage the
property rather than allowing him to manage the property
himself.1
i

In passing, Mr. Halim says that because he did not
submit one of his forms on time, his bid should have been
rejected and his earnest money deposit refunded. Accord­
ing to Mr. Halim, that is another example of how HUD
acted arbitrarily and breached its contract with him. It is
not clear to us that Mr. Halim preserved that argument be­
cause it directly contradicts his allegations in the com­
plaint. See Fourth Amended Complaint at 5, Halim v.
United States, Case No.l:12-cv-00005 (Fed. Cl. Jan. 9,
2015) (“Plaintiff timely submitted all of the documents he

6a

Cas£f.^-6$-l1dtf<§5-E[!^c^Qfr47it l(Rpgpil<?d

22

7

HALIM v. UNITED STATES

II

The second property addressed by the Claims Court
was a 40-unit apartment complex in Schenectady, New
York, known as the Schenectady 40 Apartments. HUD
held a foreclosure sale for the property on May 31, 2006.
The bid documents explained that the successful bidder
would have to make certain specified repairs to the prop­
erty to HUD’s satisfaction within 24 months after closing.
The attachment detailing the required repairs explained
that the repairs would be considered completed only after
(1) the purchaser provided written certification that the re­
pairs were complete; (2) the purchaser requested a final in­
spection by HUD; and (3) HUD verified in writing that
completion and compliance had been achieved. HUD esti­
mated that the repairs would cost $1,614,336 and required
the purchaser to deposit $403,584 in escrow as security for
the repairs. In addition to requiring that certain enumer­
ated repairs be completed, the bid documents separately
said the purchaser would be responsible for making any
other repairs necessary to meet applicable state and local
codes.
Mr. Halim was the high bidder on the property at the
HUD foreclosure sale. After the award, Mr. Halim entered
into a Foreclosure Sale Use Agreement with HUD in July
2006. He agreed to complete the required repairs by July
2008 and secured a letter of credit for $403,584 to cover the
repair escrow deposit. The agreement stated that “HUD
may cash the [letter of credit] and apply the funds to cor­
rect latent defects in the completed repairs if the purchaser
is unable or unwilling to make such repairs” within the re­
quired timeframe.

was required to submit to HUD . . . .”). In any event, Mr.
Halim has not identified any authority requiring HUD to
refund his deposit under those conditions.

7a

Cas^?9S-^--dd^§5-E[§^ci|5^gQH4?it ldfogpil&j 0&iiffi!2@5/|*a®P8Q>f 22
8

HALIM V. UNITED STATES

In addition, Mr. Halim entered into a Housing Assis­
tance Payment (“HAP”) contract with HUD. As part of that
arrangement, Mr. Halim agreed to bring all the units into
compliance with HUD’s Uniform Physical Condition
Standards (“UPCS”). Unlike the other repairs Mr. Halim
agreed to make, any UPCS repairs needed to be completed
within 180 days. The parties’ agreement, however, re­
quired that after the initial 180-day grace period all the
units had to be maintained “in good and tenantable condi­
tion, and in accordance with the UPCS” at all times during
the HAP contract. Once the UPCS repairs were completed,
Mr. Halim could begin billing HUD for HAP payments,
which are subsidies that cover a portion of the tenants’
rent. HUD could inspect the units whenever it deemed it
necessary to assure itself that the units were being main­
tained in compliance with the UPCS. If HUD determined
that a single unit was not in compliance with the require­
ments of the UPCS, HUD could exercise any of its remedies
under the parties’ agreement for “all or any” units subject
to the HAP agreement. Those remedies included termina­
tion of the HAP agreement and recovery of any overpay­
ments.
An inspector designated by HUD conducted several in­
spections of the property to determine whether the post­
closing repairs had been completed and whether the units
complied with the UPCS.2 By March 2008, only 32 percent
of the required post-closing repairs had been done.

2 HUD’s inspector created two types of reports. In
his “post-closing inspection” reports, he detailed how many
of the repairs specified in the Foreclosure Sale Use Agree­
ment had been completed. In his “UPCS inspection” re­
ports, he detailed the extent of compliance with the UPCS,
as required by the HAP agreement. We will likewise refer
to “post-closing” repairs and UPCS inspection results sep­
arately.

8a

Cas£2f&-M^§5-E^WKMT\t ldfcgpil&i oM®*2@5/^^§(bf 22

HALIM v. UNITED STATES

9

In November 2008, HUD issued a formal notice that
Mr. Halim was in breach of the Foreclosure Sale Use
Agreement. HUD gave him an additional 12 months to
perform the necessary repairs, but it added a condition to
obtaining that extension. HUD required Mr. Halim to sub­
mit within 10 days of the letter a schedule for the satisfac­
tory completion of all required repairs. HUD said that if it
did not receive a response and/or schedule that was ac­
ceptable to the department within 10 days, HUD would
take legal action, including retention of the cash held in the
repair escrow.
In response to the notice, Mr. Halim offered to schedule
a follow-up inspection, but he apparently did not offer a
proposed schedule of repairs. HUD’s inspector completed
a two-day follow-up inspection on April 1, 2009. Only one
of the 40 apartments passed the UPCS inspection. With
respect to the post-closing repairs, the inspector noted that
there had not been any substantial improvements since the
previous inspection that had occurred more than a year
earlier.
On June 22, 2009, HUD sent Mr. Halim a notice of de­
fault on the HAP agreement that directed him to correct all
deficiencies within 30 days. A follow-up inspection in Au­
gust 2009 determined that none of the 40 apartments
passed the UPCS inspection. Only 38 percent of the post­
closing repairs had been completed by that time.
HUD subsequently terminated the HAP contract with
Mr. Halim. HUD also retained $248,856 from the repair
escrow, based on HUD’s estimate that Mr. Halim had com­
pleted only 38 percent of the required post-closing repairs.
In his complaint before the Claims Court, Mr. Halim al­
leged that HUD’s retention of those funds breached the
Foreclosure Sale Use Agreement. The complaint also al­
leged that Mr. Halim had maintained the Schenectady 40
property in accordance with UPCS, and that HUD had
therefore improperly terminated the HAP agreement.

9a

cas£9m-$46^E®&w®M7it KffrgpiilS 05£ites!Q05*&lg$8Q)f 22

10

HALIM v. UNITED STATES

The government moved for summary judgment based
on Mr. Halim’s failure to complete the contractually re­
quired repairs by the specified deadline and his failure to
maintain the units in compliance with the UPCS. Mr.
Halim’s opposition again rested almost entirely on the
short declaration that he filed in connection with this liti­
gation. In that declaration, Mr. Halim asserted, without
any corroborating evidence, that he “completed all of the
required repairs [at the Schenectady 40 property] by Octo­
ber 2009.” He also stated that all the Schenectady 40 units
had passed a UPCS inspection and that HUD was sending
him subsidy payments for all 40 units. Mr. Halim also
pointed to an October 2009 letter from the City of Schenec­
tady’s Bureau of Code Enforcement that stated that the
units comprising the Schenectady 40 property had passed
the city’s inspection and had no outstanding code viola­
tions.
The Claims Court granted the government’s motion,
ruling that Mr. Halim’s declaration was insufficient to
avoid summary judgment as to the Foreclosure Sale Use
Agreement, because his declaration was “conclusory and
uncorroborated by any supporting documentation.” Even
if the declaration were credited, the court added, it would
not be enough to avoid summary judgment. Mr. Halim
stated in the declaration that he completed the repairs by
October 2009. The Claims Court found that assertion to be
immaterial because the deadline for completing post-clos­
ing repairs was in July 2008.
The court also granted the government’s motion for
summary judgment as to Mr. Halim’s claim under the HAP
contract, which required that each of the units be main­
tained in accordance with the UPCS at all times. Because
the facts were not in dispute that the property was not in
compliance with the UPCS as of the final deadline set by
HUD in July 2009, the court held that HUD was entitled
to terminate the HAP contract at that time.

10a

cas<P®^fo3d$fe-E[§tec^GH47it ldfcgpiild osfiiteA)0^3^8iQ)f 22
HALIM V. UNITED STATES

11

1
We first address Mr. Halim’s argument regarding the
post-closing repairs. He contends that the Claims Court
erred in granting summary judgment for the government,
because his declaration that he had completed all the re­
pairs by October 2009 created a genuine issue of material
fact. In addition, he relies on the letter from the city Bu­
reau of Code Enforcement, which stated that as of October
9, 2009, the Schenectady 40 properties had “no outstanding
violations” and that “every property has passed inspec­
tions.”
Neither of those documents creates a disputed issue of
material fact as to whether Mr. Halim timely completed
the post-closing repairs. First, we agree with the trial court
that Mr. Halim’s conclusory assertion in his declaration
that he completed the work by October 2009 is not suffi­
cient to create a genuine issue of material fact, in light of
the substantial evidentiary showing to the contrary made
by the government. See Barmag Barmer Maschinenfabrik
AG v. Murata Machinery, Ltd., 731 F.2d 831, 836 (Fed. Cir.
1984). Second, Mr. Halim was required to complete certain
enumerated post-closure repairs to HUD’s satisfaction, and
he was separately required to make any repairs necessary
to meet applicable state and local codes. The fact that the
property may have complied with particular unspecified lo­
cal code requirements does not speak to whether Mr. Halim
had completed the repairs enumerated in the Foreclosure
Sale Use Agreement to HUD’s satisfaction.
Even if Mr. Halim had completed the post-closing re­
pairs by October 2009, that fact was not material. The
Foreclosure Sale Use Agreement required Mr. Halim to
complete the post-closing repairs by July 2008. Mr.
Halim’s assertions in his declaration provide no basis for
denying summary judgment to the government, because it
contains no representation that the post-closing repairs
were completed before October 2009, long after the July

11a

Cas^f9S-^--dd^§5-EI§^cit5^Q^7it i(Rpgpiil3o5®s!oo^i£$2Q)f 22

12

HALIM v. UNITED STATES

2008 contractual deadline for those repairs to be com­
pleted.
We agree with the trial court that the July 2008 dead­
line was not extended. Although HUD’s November 2008
notice of default on the Foreclosure Sale Use Agreement
provided Mr. Halim with the opportunity to obtain a 12month extension, that extension was conditioned on the re­
ceipt of a satisfactory plan for the schedule of the remain­
ing repairs. Mr. Halim did not present any evidence that
he ever submitted a proposed schedule of repairs.3
Mr. Halim argues that the fact that HUD conducted
inspections after July 2008 “raised an inference that the
deadline was extended.” That argument is a non sequitur.
HUD set a deadline to correct certain deficiencies. The fact
that HUD inspected the property after the deadline to see
if Mr. Halim had complied with the contractual require­
ments does not raise an inference that the' deadline was
extended.
In sum, HUD was within its rights to retain funds from
the repair escrow because Mr. Halim did not timely com­
plete the required post-closing repairs. The government
was therefore entitled to summary judgment that Mr.
Halim breached the Schenectady 40 Foreclosure Sale Use
Agreement.
2
We also agree with the Claims Court that there was no
disputed issue of material fact regarding Mr. Halim’s as­
serted failure to maintain the Schenectady 40 property in
accordance with HUD’s Uniform Physical Condition
3

Even if the deadline were assumed to run from the
notice of default on the HAP contract, Mr. Halim’s alleged
post-closing repairs would still be untimely. The letter de­
claring a default on the HAP contract set a deadline of July
2009.

12a

Cas^f9S-^--dd^fc-E®?ci|!Je(|Qft47it l(Rpgpill3 05;fiMoO^§£$iQ)f 22

HALIM v. UNITED STATES

13

Standards. The government points to numerous inspec­
tions that revealed a failure to comply with those standards
throughout the entire period from the closing in 2006 until
late 2009, in violation of the HAP agreement. In response,
Mr. Halim relies on the letter from the City of Schenec­
tady’s Bureau of Code Enforcement regarding the absence
of city code violations as of October 2009.
That document does not address the question whether
the property was in compliance with HUD’s Uniform Phys­
ical Condition Standards during the three-year period
leading up to that date. As the trial court explained, HUD’s
Uniform Physical Condition Standards differ from local
housing codes; even if the property comp bed with some un­
specified city housing code requirements as of October
2009, that does not establish that the property was in com­
pliance with the UPCS as of that date or throughout the
period between 2006 and 2009. Furthermore, the date of
the letter is October 9, 2009, well after the thirty-day dead­
line set by the June 22, 2009 notice of default on the HAP
agreement.4
Moreover, Mr. Halim’s allegation that all units had
passed “an inspection” and that HUD was making HAP
subsidy payments on all 40 units before HUD terminated
the HAP agreement does not give rise to a genuine issue of
material fact. HUD’s remedies under the HAP agreement
included the “recovery of overpayments.” Thus, even if
HAP did pay a subsidy for a unit, that does not lead to the
conclusion that the unit was in compliance with the UPCS.
We also agree with the government that Mr. Halim’s conclusory assertions in his declaration that all units had
4 Mr. Halim also contends that HUD breached the
implied covenant of good faith and fair dealing by not con­
ducting another investigation after the city’s letter in Oc­
tober 2009. We disagree. HUD had no obligation to
reinspect the premises after it determined that Mr. Halim
had failed to comply by the relevant deadline.

13a

Cas^§^-6^--dd^@5-EI§^ci|i5®goH^?lt ltffcgpilld 05/lfe5!o0^^iaQ)f 22
14

HALIM V. UNITED STATES

passed “an inspection” and that he was receiving subsidy
payments are not sufficient to create a genuine issue of ma­
terial fact, in light of the substantial evidentiary showing
to the contrary made by the government. Barmag, 731
F.2d at 836.
Mr. Halim asserts in passing that HUD was not enti­
tled to terminate the HAP agreement “until HUD provided
the tenants at Schenectady 40 an opportunity to comment
on the proposed termination of the HAP contract,” which
HUD allegedly has not done. Mr. Halim waived that ar­
gument by not raising it below, Fresenius, 582 F.3d at 1296,
and in any event, any violation of the tenants’ rights does
not somehow negate the effect of his breach.
We therefore uphold the trial court’s ruling that the
government was entitled to summary judgment that
HUD’s termination of the HAP contract on the Schenec­
tady 40 property was not a breach of Mr. Halim’s rights
under that contract.
Ill
The third property addressed by the trial court was the
Meadowbrook Apartments, a 51-unit apartment complex
in Meridian, Mississippi. Mr. Halim was the successful
bidder on that property at a HUD foreclosure sale. The
parties closed on the property in January 2007. The Fore­
closure Sale Use Agreement that the parties executed re­
quired Mr. Halim to complete certain repairs to HUD’s
satisfaction within 24 months of closing. HUD estimated
the cost of repairs to be $2,003,276. Mr. Halim obtained a
letter of credit in the amount of $513,967 as security for his
performance of the repair requirements. In addition, the
parties entered into a HAP contract that required Mr.
Halim to keep all units for which he would be receiving
housing assistance payments in “good and tenantable con­
dition” and in compliance with the UPCS requirements at
all times. The HAP contract also provided that if HUD de­
termined that any unit was not in accordance with the

14a

Cas^f«8-^--dd^#5-El5^ci(50(eoMt lfRpgpilllOSfife&O^iigigfkf 22

HALIM v. UNITED STATES

15

UPCS, HUD could exercise its remedies under the contract
for all or any of the units, including terminating the con­
tract and the HAP payments.
The HUD-designated inspector conducted more than
two dozen inspections of the property over the course of
several years following Mr. Halim’s purchase of the prop­
erty in January 2007. The inspections included post-clos­
ing repair inspections and UPCS inspections. No more
than 24 of the 51 units ever passed the UPCS inspections,
and none of the inspection reports reflected that Mr. Halim
completed all the required post-closing repairs.
In early 2009, HUD served Mr. Halim with a notice of
violation of the Foreclosure Sale Use Agreement for failing
to meet the 24-month repair deadline. In the notice, HUD
stated that it was aware that the City of Meridian had de­
clared Meadowbrook unfit for habitation and that the city
intended to demolish the apartment complex if Mr. Halim
did not show an “earnest intent to correct the property” to
meet the minimum requirements of the city’s housing code.
On May 4, 2009, HUD issued a notice of default and stated
that it was prepared to cash Mr. Halim’s letter of credit.
In response, Mr. Halim requested a one-year extension,
stating that he had retained a new contractor and promis­
ing to complete the work within that period. The Chief Ad­
ministrative Officer of the City of Meridian contacted HUD
to support the one-year extension request. Based on that
endorsement and Mr. Halim’s response, HUD agreed to
grant an extension until January 31, 2010. HUD con­
ducted regular inspections of the property during that oneyear period. It determined that while some progress was
made, much remained undone. Based on a final inspection
six days before the expiration of the one-year extension,
HUD determined that only 38 percent of the required post­
closing repairs had been completed. At no point did all the
units pass a UPCS inspection.

15a

Cas^f9S-^--dd^fe-El§feci|se)gQ^7it l(RpgPil^05®&0^1£$£Q)f 22
16

HALIM V. UNITED STATES

In March 2010, Mr. Halim requested, and HUD
granted, a second one-year extension, until January 15,
2011, to complete the repairs. HUD granted that second
extension in part based on the fact that the City of Merid­
ian had granted Mr. Halim until that date to bring the
property into compliance with the city’s housing codes.
Both the city and HUD told Mr. Halim that no further ex­
tensions would be granted.
During that year, Mr. Halim made some progress on
the repairs, and HUD released a substantial portion of the
funds it held in the repair escrow on account of that pro­
gress. An inspection on December 20, 2010, however,
showed that while some progress had been made, a sub­
stantial amount of the required post-closing repairs re­
mained undone. And only 24 of the 52 units passed the
UPCS inspection at that time. A city official and Mr. Halim
were present at that inspection, and the city official re­
minded Mr. Halim that he had to complete work by Janu­
ary 15, 2011, because the city would not grant Mr. Halim
any further extensions.
Following the expiration of the second one-year exten­
sion, the City of Meridian issued a stop-work order on the
property. HUD subsequently notified Mr. Halim that he
violated the Foreclosure Sale Use Agreement and the HAP
contract. Shortly thereafter, HUD terminated the HAP
contract and retained the remaining portion of the es­
crowed funds.
In his complaint, Mr. Halim alleged that he had com­
pleted the post-closing repairs and that he had maintained
the property in full compliance with HUD’s Uniform Phys­
ical Condition Standards. In response to the government’s
motion for summary judgment, Mr. Halim abandoned his
contention that he had completed the required repairs and
argued, instead, that the stop-work order by the City of Me­
ridian had rendered his performance impossible.

16a

Cas^§9S-^--dd^@5-EI§^ci(5^QH47it Hfogpilltf 05£i&!0<¥&§ga?Q)f 22
HALIM V. UNITED STATES

17

The parties filed cross-motions for summary judgment.
The Claims Court granted the government’s motion and
denied Mr. Halim’s motion. The court rejected Mr. Halim’s
impossibility argument on the ground that he had failed to
show that it was objectively impossible to complete the re­
pairs during the four-year period that he was given by
HUD, including the two one-year extensions. In addition,
the court explained that the defense of impossibility re­
quires a demonstration of lack of fault on the part of the
party asserting it. The court concluded that the unrebut­
ted evidence showed that the stop-work order that Mr.
Halim claims made it impossible for him to complete the
repairs “was issued as a consequence of his own failure to
meet the contractually imposed deadlines even after they
were twice extended by a year.”
On appeal, Mr. Halim continues to press his impossi­
bility theory. He contends that because HUD did not issue
its final notice of violation until December 2, 2011, he had
until January 2, 2012, to complete the repair work. Be­
cause the stop-work order was in effect throughout much
of the year leading up to that date, Mr. Halim argues that
he was prevented, by causes beyond his control, from com­
plying with his contractual obligations and therefore can­
not be found to have been in breach of those obligations.
We disagree. The trial court was correct to conclude
that Mr. Halim was directly responsible for the event that
he claims rendered his performance impossible. That is,
Mr. Halim’s failure to complete the repairs at the property
in a timely manner was what precipitated the city’s stopwork order. His plea of impossibility is therefore not a vi­
able defense to liability on the contracts. See Seaboard
Lumber Co. v. United States, 308 F.3d 1283,1294 (Fed. Cir.
2002).
Mr. Halim makes a further argument that there was a
disputed issue of material fact as to whether he maintained
the Meadowbrook property in accordance with HUD’s

17a

Cas£f!^-3$-ljdtf§5-E^c^QMt l(fagpill<?05®£!o0^1£$gQ}f 22

18

HALIM V. UNITED STATES

Uniform Physical Condition Standards. Mr. Halim’s only
evidence in support of that contention is that the Meadowbrook buildings received a certificate of occupancy from the
city in early 2012. Whatever significance that fact may
have had as to the property’s compliance with city housing
codes, it did not create a disputed issue of material fact as
to whether all the units on the property complied with the
separate requirements of the UPCS by the January dead­
line.
The trial court therefore properly granted summary
judgment with regard to the Meadowbrook property.

IV
The fourth of the properties as to which Mr. Halim has
appealed was the Beacon Light—Goodwill Baxter Apart­
ments (“Beacon Light”), a 108-unit apartment complex lo­
cated in Henderson, North Carolina,
HUD held a
foreclosure sale for that property in June 2007. At the time
of the sale, the property was vacant and in distressed con­
dition. The bid documents warned bidders of the poor
physical condition of the property, noting that it had been
damaged by fire and vandalism. Although the bid docu­
ments identified numerous issues with the physical condi­
tion of the property, the documents warned that bidders
were expected to arrive at their own conclusions as to the
physical condition of the property as well as “any other fac­
tors bearing upon valuation of the property.” HUD advised
prospective bidders that the condition of the property and
the need to repair it should be factored into the bid price.
Mr. Halim was the high bidder on the Beacon Light
property and completed the purchase in August 2007. He
entered into a Foreclosure Sale Use Agreement with HUD
at that time. The agreement required Mr. Halim to make
certain repairs on the property within 24 months of closing,
to convert the property from rental units into home owner­
ship, and to sell the repaired homes to income-eligible pur­
chasers.

18a

Cas^?9S-^--dd^@5-E[^cit5©gQH47it i<Rpgpii!0 osfltesloO^&lgSiQjf 22

19

HALIM V. UNITED STATES

Following the sale, city officials in Henderson com­
plained to HUD that Mr. Halim had not done any signifi­
cant work on the property and that there had been several
fires at the site. HUD subsequently contacted Mr. Halim
in March 2009 and threatened to declare him in default of
the Foreclosure Sale Use Agreement if the required repairs
were not completed by the August 2009 deadline. Mr.
Halim requested an extension to complete the required re­
pairs. HUD informed Mr. Halim that it would consider a
request for an extension only if he submitted a work plan
indicating the date by which the repairs would be com­
pleted. The record does not reflect that Mr. Halim submit­
ted such a plan.
Immediately before the expiration of the 24-month pe­
riod for making the required repairs, the city’s mayor con­
tacted HUD again to complain that the property had been
allowed to deteriorate significantly during the previous two
years. The mayor explained that no plans had been sub­
mitted to bring the property into compliance with the city’s
housing code and that no work had begun on repairing the
property. The city notified HUD that it had adopted an
ordinance to condemn the property and would begin demo­
lition unless the property could be brought into compliance
with the housing code requirements.
After the 24-month deadline for repairs had passed,
Mr. Halim applied to the city for a special use permit and
a zoning variance. The Beacon Light buildings were set
back 18 feet from the street, in violation of the applicable
local code requiring that they be set back at least 35 feet.
The city denied his requests. In so doing, the city zoning
board noted that the setback requirement was “reasonably
discernible at the time that the applicant purchased the
property” and that “the Applicant has done nothing to re­
move the burned out buildings or attempted to remedy or
repair the buildings since the fires . . . thus making the
conditions worse.”

19a

i(^gpii^05yMoo^§£§3Q)f 22

20

HALIM v. UNITED STATES

Shortly before the city denied Mr. Halim’s zoning re­
quests, Mr. Halim sought to return the property to HUD
and requested that his escrow deposit be returned to him.
HUD, however, declined his request and instead notified
him that he was in default of the Foreclosure Sale Use
Agreement. HUD advised him that it intended to exercise
its rights under the contract and to retain the deposited
HUD subsequently released approximately
funds.
$400,000 from the escrowed funds to the city for the pur­
pose of demolishing the property.
In his complaint, Mr. Halim alleged he was entitled to
a refund of the purchase price of the property and the re­
turn of the repair escrow. He asserted that in light of the
city’s zoning ordinance regarding the setback require­
ments, he should be relieved of his contractual obligations
under the doctrine of mutual mistake of fact.
The parties filed cross-motions for summary judgment.
The Claims Court granted the government’s motion and
denied Mr. Halim’s motion, rejecting Mr. Halim’s mutual
mistake argument. First, the court ruled that Mr. Halim’s
lack of due diligence made the doctrine of mutual mistake
unavailable to him. Due diligence, the court concluded,
would have led Mr. Halim to discover the setback ordi­
nance and adjust his expectations, or decline to enter into
the contract, particularly in light of Mr. Halim’s experience
in purchasing apartment complexes from HUD in foreclo­
sure sales. Second, the court ruled that in connection with
the Beacon Light purchase, the risk of encountering imped­
iments such as zoning restrictions was placed on the pur­
chaser. In particular, the court pointed out, the bid
documents provided that prospective purchasers were “ex­
pected to acquaint themselves with the property, and to ar­
rive at their own conclusions as to; physical conditions . . .
and any other factors bearing upon the valuation of the
property.”

20a

Cas^f9S-^=dd^fife-E®9Ci|50||QH471t HRpgpilSd OS/HfeStoOPijjg&Qjf 22

21

HALIM V. UNITED STATES

In his opposition to the government’s summary judg­
ment motion, Mr. Halim also argued that he was excused
from the requirement of performance of his contractual ob­
ligations by the doctrine of impossibility. His performance
under the contract was impossible, he contended, because
the city’s denial of a variance precluded him from perform­
ing. The Claims Court rejected that contention on two
grounds. First, the court noted that Mr. Halim had not
even applied for a variance until after the deadline for his
performance had expired. Second, the court ruled that un­
der his contractual arrangement with HUD, Mr. Halim
“bore the risk that Beacon Light might not be in compliance
with local zoning ordinances.”
On appeal, Mr. Halim reprises his mutual mistake and
impossibility arguments. As to mutual mistake, we agree
with the trial court that with the exercise of due diligence
Mr. Halim would have become aware of the zoning regula­
tions. See ConocoPhillips u. United States, 501 F.3d 1374,
1380 (Fed. Cir. 2007) (citing Restatement (Second) of Con­
tracts § 154 (1981)) (“a party bears the risk of a mistake
when the party is aware, at the time the contract is made,
that the party has only limited knowledge with respect to
the facts to which the mistake relates but treats that lim­
ited knowledge as sufficient”); Griffin & Griffin Explora­
tion, LLC v. United States, 116 Fed. Cl. 163, 175 (2014)
(“[A] party cannot rely upon a mutual mistake of fact to
avoid enforcement of a contract where, as here, the ‘mis­
take’ is a result of that party’s failure to exercise due dili­
gence.”); see also Collins v. United States, 532 F.2d 1344,
1348 (Ct. Cl. 1976) (“Ignorance is never sufficient to consti­
tute a ground of relief if it appears that the requisite
knowledge might have been obtained by reasonable dili­
gence.”).
Moreover, the risk of unknown factors such as zoning
regulations was expressly allocated to the purchaser. Zon­
ing restrictions such as Henderson’s fall within the cate­
gory of “any other factors bearing upon the valuation of the

21a

Cas£f^4$-ljdtf<fe-E[§tecqn^GM7it l(Rpgpilgg.05fillW!o0^ii@§SQ)f 22

22

HALIM V. UNITED STATES

property.” Where the parties have allocated the risk of mis­
take to one of the parties, that party may not invoke the
doctrine of mutual mistake to avoid its contractual obliga­
tions. See Dairyland Power Co-op v. United States, 16 F.3d
1197, 1202 (Fed. Cir. 1994). Mr. Halim’s impossibility ar­
gument fails on the same ground. Seaboard, 308 F.3d at
1295 (citations omitted) (“[N]o impossibility defense will lie
where the ‘language or the circumstances’ indicate alloca­
tion of the risk to the party seeking discharge.”).
The Claims Court therefore properly granted summary
judgment to the government with regard to the Beacon
Light property.
AFFIRMED

22a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 1 of 32

3n tfjc SJuiteii States. Court of Jfe&eral Claims
No. 12-05C
(Filed: November 19, 2018)
)
)
)
)
)
)
)

AHMED HALIM,
Plaintiff,
v.
THE UNITED STATES OF AMERICA,
Defendant.

Keywords: Breach of Contract;
Department of Housing and Urban
Development; Foreclosure Sale; Section 8
Housing; Statute of Limitations; Summary
Judgment; Mutual Mistake of Fact;
Impossibility

)
)
)

CarlA.S. Coan, III, Coan & Lyons, Washington, D.C., for Plaintiff.
Tanya B. Koenig, Trial Attorney, Commercial Litigation Branch, Civil Division, U.S.
Department of Justice, for Defendant, with whom were Kenneth M. Dintzer, Deputy Director,
Robert E. Kirschman, Jr., Director, and Chad A. Readier, Acting Assistant Attorney General.
Stacey E. Singleton, Trial Attorney, U.S. Department of Housing and Urban Development, Of
Counsel.
OPINION AND ORDER
KAPLAN, Judge.
Plaintiff Ahmed Halim purchased four apartment complexes from the Department of
Housing and Urban Development (“HUD”) at four separate foreclosure sales. Under the
foreclosure sales contracts, he was obligated to make specified repairs to the properties within
two years of closing. He was also required to ensure that the properties were continuously kept in
compliance with HUD’s Uniform Physical Condition Standards (“UPCS”). Compliance with the
UPCS was also a condition of Mr. Halim’s receipt of Section 8 housing assistance payments
pursuant to the Housing Assistance Payment (“HAP”) contracts he entered.
The claims in this case arose out of HUD determinations that Mr. Halim failed to meet
these obligations. As a result of those determinations, HUD retained moneys that Mr. Halim had
left in escrow to guarantee that the repairs would be done. It also terminated his entitlement to
continued receipt of housing assistance payments.
In addition to his purchase of the four properties that are the primary subject of this
action, Mr. Halim was the high bidder with respect to the sale of a fifth property but, for reasons
set forth in detail below, HUD cancelled the sale. Mr. Halim claims that HUD acted in bad faith
and in breach of contract when it retained the earnest money deposit it had collected from him as
the successful bidder.

23a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 2 of 32

There are eleven counts in Mr. Halim’s complaint. He seeks damages based on HUD’s
retention of the escrow money and its termination of rental assistance payments at two of the
complexes he purchased. He requests rescission of the sales agreements for two other properties
he purchased based on the doctrines of impossibility and mutual mistake of fact. And finally, he
seeks damages to compensate him for HUD’s retention of his earnest money deposit for the
property sale that never closed.
The government has moved for summary judgment as to all eleven counts in Mr. Halim’s
complaint. Mr. Halim opposes the government’s motion and has cross-moved for summary
judgment as to eight of the eleven counts.
For the reasons set forth below, the government’s motion for summary judgment as to
Counts I through VIII in the complaint is GRANTED. Counts IX through XI are DISMISSED
for lack of subject matter jurisdiction. Mr. Halim’s motion for summary judgment is DENIED.

BACKGROUND
I.

Procedural Background

As noted above, Mr. Halim’s claims in this case relate to his interests in five apartment
complexes that HUD offered for purchase at foreclosure sales. Mr. Halim purchased four of the
properties. These are the Schenectady 40 complex in New York, the Meadowbrook apartment
complex in Mississippi, the Beacon Light Apartments in North Carolina, and the Highland
Village Apartments in Alabama. Each of these properties was in a significant state of disrepair at
the time of purchase, and required substantial repairs to meet the obligations imposed by the
foreclosure sales and HAP contracts Mr. Halim entered with HUD. As noted above, the legal
disputes in this action concern the extent to which Mr. Halim met those obligations and, with
respect to two of the properties, whether he was excused from meeting them by the doctrines of
impossibility or mutual mistake of fact.
The fifth property is the Nichols Townhomes project in Ohio. Mr. Halim was the high
bidder for the Nichols Townhomes, but HUD determined that Mr. Halim did not establish his
qualifications to self-manage that property. When Mr. Halim failed to retain an independent
property management firm as HUD had directed, the agency cancelled the sale and retained his
earnest money.
Mr. Halim initiated this lawsuit on November 8, 2010, by filing a complaint against HUD
in the United States District Court for the District of Columbia. In that complaint, he alleged
breaches of the foreclosure sales and/or HAP contracts that covered the Schenectady 40
apartments, the Nichols Townhomes, and the Beacon Light Apartments. Compl. for Breach of
Contract 4-21, ECF No. 1-1. Because he requested over $1.5 million dollars in damages for
those alleged breaches, the district court transferred the case to this court on October 11, 2011.
Order, ECF No. 1-1 (citing 28 U.S.C. § 1346(a) (Tucker Act provision giving the Court of
Federal Claims exclusive jurisdiction over contract claims against the United States that seek
more than $10,000 in damages)).
Mr. Halim filed a transfer complaint in this Court on February 8, 2012. Am. Compl. for
Breach of Contract, ECF No. 5. In that complaint, he again alleged breaches of contract related
2
24a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 3 of 32

to the Schenectady 40 apartments, Nichols Townhomes, and the Beacon Light property. Id. 421. A few months later, on May 30, 2012, Mr. Halim filed an amended complaint, which added
allegations of breach of contract related to the Meadowbrook apartment complex. 3d Am.
Compl. for Breach of Contract 28-33, ECF No. 9; see also Order, ECF No. 10.
In the meantime, two months earlier, on March 9, 2012, Mr. Halim had filed a related pro
se complaint in the United States District Court for the District of Columbia. See Halim v.
United States. 106 Fed. Cl. 677, 680 (2012) (citing Compl., Halim v. Donovan, No. 12-384
(D.D.C. Mar. 9, 2012V); see also Halim v. Donovan. No. 12-384, 2013 WL 595891, at *1
(D.D.C. Feb. 15, 2013). In that action, he alleged that the Secretary of HUD as well as the city
council, city manager, and mayor of Henderson, North Carolina had discriminated against him
based on national origin and in violation of the Civil Rights Act of 1964, in connection with
certain transactions related to the Nichols Townhomes, Beacon Light, and Schenectady 40.
Halim. 106 Fed. Cl. at 683; see also Mot. to Dismiss, App. at A11-15, ECF No. 13-1.
On September 24, 2012, Chief Judge Emily Hewitt (who was then presiding over the
present case) denied the government’s motion to dismiss for lack of subject matter jurisdiction
but entered a stay of proceedings pending a decision in the discrimination case. Halim, 106 Fed.
Cl. at 688-89. The district court dismissed Mr. Halim’s suit on July 1, 2013. See Halim v.
Donovan, 951 F. Supp. 2d 201 (D.D.C. 2013). Judge Thomas C. Wheeler, who was presiding
over the case after reassignment on June 26, 2013 (ECF Nos. 19, 20), lifted the stay on
September 5, 2013. Order Lifting Stay, Docket Entry on September 5, 2013.
Thereafter, on November 25, 2013, the case was transferred to the undersigned. ECF No.
28. On March 24, 2014, Mr. Halim moved to substitute new counsel, and the Court granted that
motion. ECF Nos. 30, 31. On January 9, 2015, Mr. Halim filed another amended complaint,
which is the current operative pleading and which added claims related to a fifth property, the
Highland Village Apartments. 4th Am. Compl., ECF No. 38.
II.

The Claims Before the Court

In Count I of the current operative pleading, Mr. Halim alleges that HUD breached the
Schenectady 40 Foreclosure Sale Use Agreement by failing to return his repair escrow. Id. Tf 64.
In Count II he alleges that HUD breached the Schenectady 40 HAP Contract by terminating it
“on the erroneous basis that Plaintiff failed to maintain the [] Project in accordance with HUD’s
UPCS.” Id. 168. Mr. Halim makes similar allegations with respect to the Meadowbrook
Foreclosure Sale Use Agreement and HAP Contract in Counts III and IV. Id. 70-78. In Count
V, Mr. Halim alleges that HUD breached the Nichols Townhomes sales agreement by cancelling
the sale “on the erroneous basis that Plaintiff was not qualified to manage the [] Project.” Id. ^
82.
Counts VI, VII, and VIII all relate to Mr. Halim’s purchase of the Beacon Light
Apartments in North Carolina. Id
84-101. In Count VI, Mr. Halim seeks rescission of the
Foreclosure Sale Use Agreement based on what he alleges was a mutual mistake of fact
regarding whether the repairs required under the contract could be performed. Id ][ 84-88. Count
VII alleges breach of an oral contract for the transfer of the Beacon Light property back to HUD.
Id. f 89-94. And in Count VIII, Mr. Halim alleges that HUD breached the Foreclosure Sale Use

3
25a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 4 of 32

Agreement when it gave his escrow funds to the City of Henderson to fund the demolition of the
apartment complex. Id. 84-101.
Finally, Counts IX, X, and XI concern the Highland Village complex. Id fflf 102-118. In
these Counts, Mr. Halim seeks rescission of the Foreclosure Sale Use Agreement on alternative
grounds which include misrepresentation of fact by HUD, a unilateral mistake of fact by Mr.
Halim, and mutual mistake of fact by the parties. Id
III.

The Cross-Motions Before the Court

On February 17, 2017, the government moved for summary judgment as to all eleven
counts in the fourth amended complaint. Def.’s Mot. for Summ. J. (“Def.’s Mot.”) at 1, ECF No.
60. As to Counts I through VIII, the government contends that the material facts are not in
dispute and that it is entitled to judgment as a matter of law. Id at 7-8. With respect to Counts
IX, X, and XI, the government contends that Mr. Halim’s claims are barred by the Tucker Act’s
six-year statute of limitations, and should accordingly be dismissed. Id at 9.
Mr. Halim opposes the government’s motion for summary judgment as to Counts I, II,
and IV on the grounds that there is a genuine dispute of material fact regarding the condition and
repair status of the Schenectady 40 and Meadowbrook properties. See Pl.’s Opp’n to Def.’s Mot.
for Summ. J. & Cross-Mot. for Summ. J. (“Pl.’s Mot.”) at 5-6, ECF No. 73. He has cross-moved
for summary judgment as to Count III, relating to the Foreclosure Sale Use Agreement at the
Meadowbrook apartments. Id at 26-28. He claims that he was relieved from his contractual
obligations by the doctrine of impossibility and seeks return of his escrow money on that basis.
He has also moved for summary judgment as to Counts V-VIII. Id at 7-24.
Finally, because Mr. Halim and his attorney were not in agreement regarding the pursuit
of Counts IX, X, and XI (see Pl.’s Unopposed Mot. for an Extension of Time, ECF No. 74), the
Court gave Mr. Halim permission to file a response and cross-motion for summary judgment on
those counts pro se. See Order, ECF No. 75; Pl.’s Opp’n to Def.’s Mot. for Summ. J. & CrossMot. for Summ. J. on Counts IX, X and XI of the Compl. (“Pl.’s Mot. EX-XI”), ECF No. 80.
The Court held oral argument on the cross-motions on October 16, 2018.
DISCUSSION
I.

Summary Judgment Standards

In accordance with Rule 56(a) of the Rules of the Court of Federal Claims (“RCFC”), the
court may grant summary judgment to a party “if the movant shows that there is no genuine
dispute as to any material fact and [that] the movant is entitled to judgment as a matter of law.”
See Celotex Corp. v. Catrett 477 U.S. 317, 322 (1986). In ruling on a motion for summary
judgment, all evidence must be viewed in the light most favorable to the nonmoving party, and
all reasonable factual inferences should be drawn in favor of the nonmoving party. Anderson v.
Liberty Lobby. Inc.. 477 U.S. 242, 255 (1986); Adickes v. S.H. Kress & Co.. 398 U.S. 144, 15859 (1970).

4
26a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 5 of 32

“Once the moving party has satisfied its initial burden, the opposing party must establish
a genuine issue of material fact and cannot rest on mere allegations, but must present actual
evidence.” Crown Operations Inf L Ltd, v. Solutia Inc., 289 F.3d 1367, 1375 (Fed. Cir. 2002)
(citing Anderson. 477 U.S. at 248); see also Dairvland Power Co-op. v. United States. 16 F.3d
1197, 1202 (Fed. Cir. 1994) (citing Celotex. 477 U.S. at 325) (observing that the moving party
“may discharge its burden by showing the court that there is an absence of evidence to support
the nonmoving party’s case”). A fact is material if it “might affect the outcome of the suit under
the governing law.” Anderson. 477 U.S. at 248 (1986). An issue of material fact is in genuine
dispute if it “may reasonably be resolved in favor of either party.” Id at 250.
II.

Motion for Summary Judgment as to Count V: Nichols Townhomes
A. Material Facts Not In Dispute

The Nichols Townhomes is a twenty-four-unit apartment complex in Flushing, Ohio.
Def.’s Mot., App. at A1. HUD held a foreclosure sale for the property on May 12, 2006. Id.
Pursuant to Section 1 of the bid kit provided to prospective purchasers at the foreclosure
sale, HUD reserved the right to reject the bid of any prospective purchaser whom HUD
determined “lacks the experience, ability or financial responsibility needed to own and manage
the project.” Id at A3. To facilitate HUD’s consideration of the purchaser’s qualifications, the
successful bidder was required to complete and submit certain forms within ten days of the
foreclosure sale. See id. at A4-5. The forms included, among others, the Bidder’s Property
Management Statement; HUD Forms 9832 and 9839 (Management Entity Profile and
Management Certification); and HUD Form 935.2 (the Affirmative Fair Marketing Plan). Id
As pertinent to Mr. Halim’s claims regarding the Nichols Townhomes, the bid documents
stated that “[i]f HUD determines that the Bidder/Owner entity is unqualified to self-manage the
Project, HUD may require the Bidder/Owner entity to obtain the services of a qualified property
management firm.” Id at A13. In those circumstances, “[t]he Bidder/Owner entity must then
provide HUD with evidence that a qualified property management firm has been retained prior to
Closing.” Id. The bid documents warned that “[i]f [the] Bidder/Owner entity does not meet this
obligation, HUD may reject the bid and retain the Bidder’s earnest money deposit.” Id; see also
id at A123 (Attachment B - “Terms and Requirements of Foreclosure Sale”).
At the foreclosure sale for the Nichols Townhomes, Mr. Halim was the high bidder with
an offer of $266,000. Id. at A113, A128. HUD accepted his bid and deposited the $50,000
earnest money check Mr. Halim had supplied. Id. at A114.
Pursuant to the terms of Rider 1 of the Foreclosure Sale Use Agreement for the Nichols
Townhomes, Mr. Halim was required to complete and submit HUD forms to “demonstrate [his]
ability to meet HUD requirements for purchase of the Project” by May 26, 2006. Id at A123,
A129. Further, consistent with the warnings in the bid documents, the Rider provided that “[i]f
HUD determines that the Bidder/Owner entity is unqualified to self-manage the Project, HUD
may require the Bidder/Owner entity to obtain the services of a qualified property management
firm.” Id at A123. If Mr. Halim failed to retain those services, the Rider provided, “HUD may
reject the bid and retain the Bidder’s earnest money deposit.” Id

5
27a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 6 of 32

On June 9, 2006, Ruth Pompa, Chief of the Sales Team at HUD’s Fort Worth
Multifamily Property Disposition Center, informed Mr. Halim that his Form 935.2 (the
Affirmative Fair Marketing Plan), his Form 9832 (the Management Entity Profile), his Form
9839-A (the Project Owner’s Certification for Owner-Managed Multifamily Housing Projects),
and his Bidder’s Property Management Statement were “incomplete or ... in need of
correction/clarification.” Id at A148. Specifically, she noted that on Mr. Halim’s “Management
Entity Profile” form, he had failed to “identify any professional memberships, licenses,
certificates or accreditations which are related to property management activities.” Id at A148;
see also id. at A136 (“Management Entity Profile”). Ms. Pompa advised that “[tjhis indicates
that there are no Certified Property Managers within [his] management company.” Id. at A148.
She also pointed out that Mr. Halim did not identify “any manuals or guides for staff’ on the part
of the form designed to inform HUD what “management procedures or operating manuals are
used by on-site or supervisory staff.” Id In addition, Ms. Pompa advised Mr. Halim that his
“Bidder’s Property Management Statement [id. at AMO] indicate[d] that [he was] proposing to
self-manage the property” but that it did “not indicate any previous experience in Project Based
Section 8 housing.” Id at A149.
Ms. Pompa notified Mr. Halim that “[b]ased upon [his] submission” HUD had
determined that he had not proven that either he or his management company had “the
experience required to manage the property.” Id In accordance with the terms of the bid
documents and Rider 1 of the Foreclosure Sale Use Agreement, Ms. Pompa advised Mr. Halim,
he “should immediately retain a property management firm and have them complete the required
forms ... no later than June 19, 2006.” Id She warned Mr. Halim that if he did not do so, “HUD
may reject [his] bid and retain the Earnest Money Deposit.” Id.
Notwithstanding this admonition, Mr. Halim did not retain a property management firm.
Therefore, instead of having an independent firm complete the required forms, Mr. Halim
submitted revised forms on his own behalf in late June 2006. See id. at A151-73; id at A174.
Ms. Pompa found Mr. Halim’s submission inadequate for three reasons. First, she
observed that “[e]ven though our letter of June 9, 2006, specifically instructed you to obtain
professional management, you still propose to self-manage.” Id at A174. Second, she concluded
that the management documents Mr. Halim had submitted were still flawed. Id. In particular, she
determined that “[t]he Statement of the services, maintenance and utilities does not comply with
the services identified in the bid kit, specifically, Exhibit B of the HAP Contract.” Id In addition,
she advised Mr. Halim, “pages 3 and 4 of the Management Certification form are missing.” Id
Finally, Ms. Pompa stated that “[t]he revised Affirmative Fair Housing Marketing Plan is still
not completed properly” as “[the] responses are too general and must contain full and complete
responses as required by the form.” Id
Ms. Pompa concluded that Mr. Halim did “not have the experience necessary to selfmanage a Project-based Section 8 property based on [his] inability to complete the required HUD
management forms according to printed instructions.” Id Because Mr. Halim had failed to
“provide^ evidence that a qualified property management firm ha[d] been retained,” HUD
rejected his bid and retained his earnest money. Id

6
28a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 7 of 32

B. Merits of Motions for Summary Judgment as to Nichols Townhomes
In Count V of his complaint, Mr. Halim seeks the return of his $50,000 earnest money
deposit. 4th Am. Compl. | 83. He claims that HUD breached the foreclosure sale contract when
it cancelled the sale based on what he claims was an “erroneous conclusion” that he lacked the
qualifications to manage the Nichols Townhomes project. Id. If 82.
The government has moved for summary judgment as to Count V. It contends that the
undisputed facts demonstrate that Mr. Halim failed to hire an independent firm to manage the
property, as HUD had directed. Def.’s Mot. at 13-14. Therefore, according to the government,
HUD’s cancellation of the sale and its decision to retain Mr. Halim’s earnest money deposit were
consistent with the terms of the sales agreement and the bid documents. Id
Mr. Halim, in response, does not dispute that HUD had the discretion to determine
whether or not he was qualified to self-manage the Nichols Townhomes project. Pl.’s Mot. at
22-23. He also does not deny that HUD had the discretion to retain his earnest money deposit if
he declined to hire an independent management firm after being directed to do so. See id. He
argues, however, that there exists a genuine issue of material fact as to whether HUD acted in
bad faith in making those determinations. Id Specifically, he contends: 1) that HUD had
approved him to self-manage eight other projects, five before and three after he submitted his bid
on Nichols Townhomes; and 2) that the “Management Entity Profile” and “Management
Certification” he submitted as to those properties were “essentially the same” as the forms he
submitted for the Nichols Townhomes project. Id. at 23 (citing Deck of Ahmed Halim 19-20,
ECF 73-2).
Mr. Halim has failed to introduce evidence sufficient to create a triable issue as to
whether or not HUD acted in good faith when it cancelled the sale and retained his earnest
money. The Federal Circuit and its predecessor court “have long upheld the principle that
government officials are presumed to discharge their duties in good faith.” Rd. & Highway
Builders. LLC v. United States. 702 F.3d 1365,1368 (Fed. Cir. 2012) (citing Am-Pro Protective
Agency v. United States. 281 F.3d 1234, 1239 (Fed. Cir. 2002); T & M Distribs., Inc, v. United
States. 185 F.3d 1279, 1285 (Fed. Cir. 1999); Tomcello v. United States. 681 F.2d 756, 770-71
(Ct. Cl. 1982); Schaefer v. United States. 633 F.2d 945, 948^19 (Ct. Cl. 1980); Kalvar Corp. v.
United States. 543 F.2d 1298 (Ct. Cl. 1976); Librach v. United States. 147 Ct. Cl. 605, 614
(1959); Knotts v. United States. 121 F. Supp. 630, 631 (Ct. Cl. 1954)). Further, the court of
appeals has held that “‘a high burden must be carried to overcome this presumption,’ amounting
to clear and convincing evidence to the contrary.” Id. (quoting Am-Pro. 281 F.3d at 1239-40).
As noted above, “[a] nonmoving party’s failure of proof concerning the existence of an
element essential to its case on which the nonmoving party will bear the burden of proof at trial
necessarily renders all other facts immaterial and entitles the moving party to summary judgment
as a matter of law.” Dairvland Power Co-op. 16 F.3d at 1202. In this case, Mr. Halim has fallen
far short of providing proof that would enable a reasonable factfinder to conclude, based on
preponderant—much less clear and convincing—evidence that HUD acted in bad faith when it
found him unqualified to self-manage the Nichols Townhomes.

7
29a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 8 of 32

First, Mr. Halim’s assertion that HUD approved his qualifications for other projects
where he submitted “Management Entity Profile” and “Management Certification” forms that
were “essentially the same” as those he submitted in connection with Nichols Townhomes is
merely a bald assertion. Mr. Halim did not submit the forms into evidence so that the Court
might determine whether or not they were, in fact, “essentially the same.” Without the forms to
review as a point of comparison, Mr. Halim’s assertions that they were “essentially the same”
are, at best, an expression of his opinion, not a fact.
Further, even assuming that the forms submitted in the other transactions were
“essentially the same” as those submitted here, Mr. Halim has provided no evidence that would
show that the contexts in which those forms were considered were comparable. The other
foreclosure sales involved different properties and determinations made by other individuals and
regional offices. For all the Court can tell, those decision-makers might have had before them
other information which compensated for the deficiencies in the two forms which Mr. Halim
alleges were “essentially the same” as those submitted in connection with the Nichols
Townhomes project.
In any event, and perhaps most importantly, “[a] challenger seeking to prove that a
government official acted in bad faith in the discharge of his or her duties must show a ‘specific
intent to injure the plaintiff by clear and convincing evidence.” Id (quoting Am-Pro. 281 F.3d at
1240). In this case, Mr. Halim appears to be suggesting that HUD officials fabricated excuses to
cancel the sale notwithstanding that he was the high bidder on the Nichols Townhomes. But he
has not provided any evidence that the HUD officials considering his qualifications to purchase
the Nichols Townhomes harbored any animus at all toward him, much less that they acted on
such animus. See Am-Pro. 281 F.3d at 1241 (granting summary judgment as to allegation of bad
faith where nothing in the plaintiffs affidavit suggested that the government had a specific intent
to injure plaintiff or that its decisions were motivated by animus).
In short, the undisputed evidence shows that HUD’s decision to withhold Mr. Halim’s
escrow money was entirely consistent with the foreclosure sale agreement and the bid
documents. HUD determined that the forms Mr. Halim submitted did not establish his
qualifications to self-manage the Nichols Townhomes. Mr. Halim then failed to take advantage
of the opportunity HUD gave him to complete the sale by hiring an independent property
management firm. The government is, accordingly, entitled to summary judgment as to Count V
of the complaint.
III.

Motion for Summary Judgment as to Counts I and II (Schenectady 40 Apartments)
A. Material Facts as to Which There Is No Genuine Dispute
1. Mr. Halim’s Purchase of the Complex and His Agreements with HUD

The Schenectady 40 property is an apartment complex located in Schenectady, New
York. Def.’s Mot., App. at A175. HUD held a foreclosure sale for the property on May 31, 2006.
Id. Section 1 of the bid kit stated, under a heading in bold font entitled “Post-Closing Required
Repairs,” that “[rjepair requirements that must be completed after closing ... are included in the
Form HUD-9552, Post-Closing Repair Requirements, and Exhibits, Attachment E, to this

8
30a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 9 of 32

Invitation.” Id at A177. It further provided that “[t]he repair requirements listed in Attachment E
survive the sale and will be recorded with the Deed.” Id The bid kit also notified prospective
purchasers that they would be required to provide a letter of credit in the amount of $403,584 to
cover the cost of the required repairs, which was $1,614,336. Id at A180-82. In addition, it
required that the repairs be completed “to HUD’s satisfaction within 24 months after closing.”
Id. at A182.
Mr. Halim, the high bidder on Schenectady 40, entered a Foreclosure Sale Use
Agreement with HUD on July 25, 2006. Id at A188. Rider 1 to the agreement required Mr.
Halim to maintain the property as affordable rental housing for a period of twenty years. Id at
A195. The agreement included a number of provisions governing Mr. Halim’s obligations to
make necessary repairs to the property and to maintain its physical condition consistent with
HUD standards.
Under the caption “Subject to Examination,” the agreement stated that “[t]he Project shall
at all times ... be maintained in decent, safe and sanitary condition to the greatest extent
possible.” Id. at A188. Rider 2 to the agreement is entitled “Post-Closing Repair Escrow
Requirements.” Id. at A196. In Rider 2, Mr. Halim “covenant[ed] to complete required repairs
within twenty-four (24) months of Closing.” Id Rider 2 also provided that “[t]o ensure
completion, the Purchaser shall provide to HUD ... an unconditional, irrevocable and non­
documentary Letter of Credit” with an expiration date no sooner than six months past the
deadline for completion of repairs. Id. It continued that “HUD may cash the LOC and apply the
funds to correct latent defects in the completed repairs if the Purchaser is unable or unwilling to
make such repairs within the six month period, or for such purposes as HUD deems appropriate.”
Id.
Rider 7 concerned entitlement to Section 8 housing assistance payments. Id at A201.1 As
a condition of receiving such payments, Mr. Halim agreed to “rehabilitate/repair the property to
make the project units decent, safe and sanitary as defined by HUD and to complete the work in
accordance with the HUD approved work write up and cost estimates.” Id More specifically, he

i

As the court of appeals explained in Haddon Hous. Assocs., Ltd. P’ship v. United States. 711
F.3d 1330, 1332-33 (Fed. Cir. 2013):
Section 8 of the Housing Act created a housing assistance program through which HUD
subsidizes the rents of low-income individuals and families living in privately-owned
homes and apartments. See 42 U.S.C. § 1437f. Building owners enter into HAP Contracts
that obligate HUD to pay rent subsidies on behalf of low-income occupants. Id. Each HAP
Contract establishes the maximum monthly rent, otherwise known as the “contract rent,”
that a building owner is entitled to receive for a particular housing unit. 42 U.S.C.
§ 1437f(c)(l); 24 C.F.R. § 880.201. The tenants are obligated to pay a portion of the
established monthly rent based on particular income guidelines, see 42 U.S.C. § 1437a,
while the government pays a subsidy to the building owner to bridge the difference between
the tenant obligation and contract rent. See 42 U.S.C. § 1437f.

9
31a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 10 of 32

agreed that he would begin rehabilitation within fourteen days after closing and that all contract
units would be brought into compliance with HUD’s UPCS within 180 days. Id7
Rider 7 also reiterated Mr. Halim’s obligation to complete the repairs specified in
Attachment E (id at A207-11) within twenty-four months, and stated that “[i]n the event the
work is not commenced, diligently continued, or completed as required under this Rider, HUD
reserves the right to rescind the sale or take other appropriate action it determines acceptable and
within its authority.” Id, This Rider also provided that “[a]ny default” under the aforementioned
provisions would also “constitute^ a default under the Housing Assistance Payments (HAP)
Contract” that the parties simultaneously entered. Id, at A202.
The Foreclosure Sale Use Agreement contained a clause setting forth “remedies for
noncompliance.” Id, at A188. It stated that “upon any violation of any provision of this
Agreement” HUD could give notice of the violation to the purchaser, who would then have
either thirty days or such further time as the Secretary identified, to correct the violation “to the
satisfaction of the Secretary.” Id, at A188-89. If the violation was not corrected, then HUD could
declare a default under the agreement, and seek appropriate remedies. Id,
Finally, in the HAP Contract, Mr. Halim agreed that he would “at all times during the
term of the ... contract” ensure that “[a]ll contract units ... are in good and tenantable
condition, and in accordance with the UPCS.” Id, at A225. Similarly, the HAP Contract required
Mr. Halim to “maintain and operate the contract units and premises to provide decent, safe and
sanitary housing in accordance with the UPCS.” Id, at A226. HUD was authorized to inspect the
contract units and the premises on an annual basis, “and at any time [HUD] deems necessary to
assure that the contract units and premises are in accordance with the UPCS.” Id, If HUD
“determine[d] that a contract unit [was] not in accordance with the UPCS, [it could] exercise any
of its remedies under the HAP contract for all or any contract units.” Id, Those remedies included
“termination, suspension or reduction of housing assistance payments, and termination of the
HAP contract.” Id,; see also id. at A228 (providing that an owner’s failure “to comply with any
obligation under the HAP contract, including the owner’s obligations to maintain the units in
accordance with the UPCS” is considered a default by the owner).
2. HUD’s Inspections of Schenectady 40 and Its Determinations of Noncompliance
HUD contracted with Applied Engineering Solutions, Inc. (hereinafter “the HUD
inspector”) to perform both the post-closing repair and UPCS inspections for the Schenectady 40
complex. The first UPCS inspections took place in August and November 2006. Id, at A242. Six

2 By regulation, purchasers of property at HUD foreclosure sales must ensure that the property
remains in compliance with the “physical condition standards for HUD housing that is decent,
safe, sanitary and in good repair” which are set forth at 24 C.F.R. § 5.703. The property must be
inspected at least annually to determine compliance with the standards and the inspections must
be conducted “in accordance with HUD-prescribed physical inspection procedures.” 24 C.F.R.
§ 5.705.

10
32a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 11 of 32

of the thirty-three apartments inspected in August failed the inspection. Id. at A243. Those six
apartments (as well as an additional five) failed inspection in November. Id
The next month, in December, the HUD inspector conducted a post-closing inspection to
determine Mr. Halim’s progress on the completion of the repairs specified in the closing
documents. Id. at A257. He noted that “[t]he majority of the work accomplished was only as
necessary for the units to pass the UPCS.” Id. at A258. He further observed that “[n]o major
modernization program has been attempted” and that “ [considerable work” was “still necessary
to meet the Post-Closing requirements.” Id
HUD determined that Mr. Halim had completed 21% of the required repairs on the basis
of the December report. Id at A268. Therefore, HUD released $86,144 from the letter of credit
repair escrow to Mr. Halim in January 2007. Id
On March 13, 2008, approximately four months before the expiration of the twenty-fourmonth contract repair deadline, the HUD inspector conducted both a UPCS and post-closing
inspection. Id at A271-89.3 The inspector checked the two apartments that had failed the prior
UPCS inspections. Id. at A272. He concluded that they met the standards, but that “the work was
of questionable quality” and he “instructed [Mr. Halim’s new management agent] to complete
some of the flooring and painting with better workmanship prior to leasing the units.” Id.
As to the post-closing portion of the inspection, the HUD inspector again found that the
“majority of the work accomplished to date ... was only as necessary for the units to pass the
UPCS inspection.” Id at A276. He also again noted that “[n]o major modernization program
ha[d] been attempted” and that “ [considerable work ... [was] still necessary to meet the PostClosing requirements.” Id. The HUD inspector also recorded that Mr. Halim reported replacing
certain roofs and completing “handicap modifications,” but that the roofs had in fact only been
“patched at best” and that “extensive work [was] required” on the handicap units “to meet the
requirements of the Uniform Federal Accessibility Standards.” Id.
3.

HUD Notice of Breach

In November 2008, HUD sent Mr. Halim “official notice that [he was] in breach of the
Foreclosure Sale Use Agreement,” because the required post-closing repairs had not been
completed within two years of closing. Id at A290. HUD determined that only 32% of the
required repairs had been completed as of the March 2008 inspection. Id It noted that its
inspector had contacted Mr. Halim on numerous occasions after March 2008 to schedule follow­
up inspections, but that Mr. Halim had not agreed to a date and time. Id.
In its November 2008 notice, HUD gave Mr. Halim ten days to submit a schedule for the
“satisfactory completion” of all repairs within the next twelve months. Id HUD cautioned Mr.
Halim that if it did “not receive a response and/or a schedule acceptable to the Department... [it

3 The cover letter for this UPCS inspection which is dated March 14, 2008, id at A272,
incorrectly identifies the inspection date as December 13, 2008. The attached inspection report is
dated March 13, 2008.

11
33a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 12 of 32

would] take appropriate legal action, including, but not limited to, retaining the $400,000 cash
held in escrow by HUD to ensure acceptable completion of the repairs.” Id
Mr. Halim appears to have responded to this notification by offering to schedule a
follow-up inspection. See id. at A291. That inspection took place over two days, on March 31
and April 1, 2009. Id. at A292. On this occasion, only one of the forty apartments passed the
UPCS inspection. Id at A293. Among other things, stairs and walls were damaged, smoke
detectors were missing, and doors were improperly secured or not latching. Id at A293-94.
With respect to whether Mr. Halim had completed the required post-closing repairs, the
inspector wrote that “it does not appear that any substantial improvements have been made since
the time of... last inspection over a year ago.” Id at A390. He further observed that
“[t]he condition of many of the apartments and common spaces has deteriorated with many being
damaged by vandals and water infiltration” and that “[m]ultiple apartments will remain
uninhabitable without significant expenditures.” Id “Because of the additional deterioration,” the
inspector stated, “the amount of funds indicated in the attached Cost Estimate and HUD Form
9552 will in no way be sufficient to accomplish the needed repairs.” Id.
Approximately two months after the preparation of this report, on June 22, 2009, HUD
sent Mr. Halim a notice of default, advising him that he was “in violation of the Housing
Assistance Payments Contract.” Id. at A406. It stated that he was not “maintain[ing the property]
in accordance with the terms of the Use Agreement and/or the HAP Contract.” Id. HUD directed
Mr. Halim to take corrective action, including correcting all deficiencies, within thirty days. Id.
HUD’s inspector then conducted another follow-up inspection on August 11, 2009. Id at
A408. This time, all forty apartments failed the UPCS portion of the inspection. Id. at A409.
With respect to the required post-closing repairs, the inspector noted that the plumbing had been
replaced in the vandalized units, drywall repairs were in progress in all but two of those units,
and “[significant upgrades had been accomplished in six apartments other than those
vandalized.” Id. A504. Nevertheless, he noted that “more repairs [were] needed in those
apartments to meet the Post-Closing Requirements.” Id He described what he called “[selective
work” that had been undertaken without a formal modernization program and characterized the
repairs as “random in nature with no logical order.” Id The inspector also reported that Mr.
Halim was “continuing] to patch components and finishes such as roofs, cabinets, floors, etc. in
lieu of replacing them as needed.” Id. at A504-05.
On October 6, 2009, HUD advised Mr. Halim that it was abating the HAP Contract
because the August 11, 2009 inspection found that the violations referenced in its June 22, 2009
notice of default “ha[d] not been corrected.” Id. at A520. HUD subsequently sent Mr. Halim a
formal “Notice of Abatement of Housing Assistance Payments and Termination of Section 8
Housing Assistance Payment Contract” dated October 30, 2009. Id at A521. In that second
letter, HUD wrote that “[d]ue to your continued failure to maintain the subject property in
accordance with the Owner Certification section of the HAP Contract, you are hereby notified
that [HUD] will be abating HAP payments,” and that once all eligible tenants were relocated,
“the HAP contract [would] be terminated.” Id at A521-22.

12
34a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 13 of 32

On July 7, 2010, HUD released $68,584 to Mr. Halim from the repair escrow. It based
the release of the funds on its inspector’s last report, which had concluded that 38% of required
repairs had been completed. Id at A523. HUD thus retained $248,856. See id.
B. Merits of Motions for Summary Judgment as to Schenectady 40
1. Count I—Failure to Timely Complete Repairs
Because the parties closed on the sale of Schenectady 40 on July 25, 2006, Mr. Halim
was required to complete repairs on the property by July 24, 2008. See id at A189, A196. He
was formally advised on June 22, 2009 to take corrective action within thirty days. The record is
undisputed, however, that as of at least August 11, 2009, the repairs had not been completed. The
government has therefore moved for summary judgment as to Count I, which seeks damages for
HUD’s retention of the remaining $248,856 in the repair escrow account.
Mr. Halim opposes the government’s motion for summary judgment. Pl.’s Mot. at 31. He
claims that there exists a genuine dispute of material fact with respect to whether all repairs had
been completed as of October 2009. Id at 33-36. To support the existence of such a dispute, he
cites an assertion in his own affidavit that he “completed all of the required repairs by October
2009.” Pl.’s Mot., Deck of Ahmed Halim 130.
The assertion in Mr. Halim’s affidavit that he completed the repairs by October 2009 is
insufficient to defeat the government’s motion for summary judgment because it is conclusory
and uncorroborated by any supporting documentation. See Barmag Banner Maschinenfabrik AG
v. United States. 731 F.2d 831, 836 (Fed. Cir. 1984) (party opposing summary judgment must
show evidentiary conflict in the record and cannot rely upon mere denials or conclusory
statements). But even were the Court to credit Mr. Halim’s bald assertion, it does not create a
genuine dispute of material fact because Mr. Halim was contractually obligated to complete the
repairs by July 2008. See Anderson. 477 U.S. at 248 (defining material facts as those “that might
affect the outcome of the suit under the governing law”). That deadline was never extended.
In short, the material facts are not in dispute. HUD was within its rights to retain the
funds from Mr. Halim’s letter of credit escrow account because it is undisputed that he did not
timely complete the repairs. The government is therefore entitled to summary judgment as to
Count I.
2. Count II—Failure to Ensure Continuous Compliance with UPCS
As described above, the HAP Contract contains an owner certification which states that
“[t]he owner certifies that at all times during the term of the HAP contract [a]ll contract units ...
are in good and tenantable condition, and in accordance with the UPCS.” Def.’s Mot., App. at
A225. If any unit was “not in accordance with the UPCS,” HUD could “exercise any of its
remedies ... for all or any contract units,” which included “termination of the HAP contract.” Id
at A226. If Mr. Halim defaulted in this regard, HUD was required to notify him in writing and
could require him to take action by a certain date prior to exercising its right to terminate the
contract. Id. at A229.

13
35a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 14 of 32

As explained above, after the HUD inspector determined on March 31 and April 1, 2009
that thirty-nine of the forty apartments failed UPCS inspection, HUD informed Mr. Halim in
June 2009 that he was in violation of the HAP Contract. Id at A406. It directed him to take
corrective action within thirty days. Id, When HUD’s inspector returned in August 2009,
however, all forty apartments failed the UPCS inspection. Id, at A408-09. There is no dispute in
the record as to this fact. HUD then abated the HAP Contract by letter of October 6, 2009. Id. at
A520.
In opposing the government’s motion for summary judgment as to Count II, Mr. Halim
again contends that there is a genuine dispute of material fact, this time with respect to whether
he was in compliance with the UPCS standards during the operative time period. Pl.’s Mot. at 35.
He relies upon a letter from the City of Schenectady’s Bureau of Code Enforcement dated
October 9, 2009. Pl.’s Mot, App. at A-9, ECF No. 73-1. The letter, which bears the signature of
Elisa B. Wickham, the city’s code enforcement coordinator, is addressed “[t]o [wjhom [i]t [m]ay
[cjoncern.” Id, In it, Ms. Wickham stated that the purpose of the letter was “to inform you that
the ... referenced properties have no outstanding violations and have a rental inspection
certificate for all tenants living there.” Id, Further, Ms. Wickham stated that “all permits have
been obtained for any and all work or violations if any, all complaints have been addressed
within 48 hours and every property has passed inspections.” Id.
The letter from Ms. Wickham does not create a dispute as to any material fact at issue
with respect to Count II of the complaint. The HUD inspector’s determination that all forty
apartments were out of compliance with the UPCS as of August 2009 is unrebutted. Even
crediting as accurate the observations in the letter regarding compliance with municipal
requirements, such observations do not bear on whether the apartments were also in compliance
with the UPCS, which are HUD-administered standards. And HUD’s regulations, as well as the
contracts at issue, make it clear that property owners must meet both its physical condition
standards and the standards set forth in state and local codes. See 24 C.F.R. § 5.703(g) (stating
that “[t]he physical condition standards in this section do not supersede or preempt State and
local codes for building and maintenance with which HUD housing must comply” and that HUD
housing must continue to adhere to these codes). Further, the date of Ms. Wickham’s letter is
October 9, 2009, which is well after the thirty-day deadline HUD gave Mr. Halim in its June 22,
2009 notice of default and almost two months after the August inspection by the HUD inspector
which found that none of the forty apartments were in compliance with the UPCS.
In short, the facts are not in dispute as to Mr. Halim’s noncompliance with the UPCS as
of the final deadline set by HUD—which was July 22, 2009. Under the contract, HUD was
entitled to terminate the housing assistance payments after the thirty-day notice period expired.
HUD’s termination of the HAP Contract was not a breach of contract. The government is
therefore entitled to summary judgment as to Count II.
IV.

Motion for Summary Judgment as to Counts III and IV (Meadowbrook)
A. Material Facts as to Which There Is No Genuine Dispute
1. Contract Provisions

14
36a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 15 of 32

Meadowbrook Apartments is a fifty-one-unit apartment complex located in Meridian,
Mississippi. Def.’s Mot., App. at A529, A536. It consists of thirteen buildings. Id. at A536. HUD
auctioned the property at a foreclosure sale on August 4, 2006. Id. at A529. In the bid kit, HUD
estimated that the required post-closing repairs would cost $2,003,276, and required a letter of
credit for those repairs in the amount of $500,819.4 Id. at A536-37, A547. As with the
Schenectady 40 property, HUD required post-closing repairs to be completed to its satisfaction
“within 24 months after closing.” Id. at A537.
Mr. Halim was the successful bidder on Meadowbrook and the parties closed on the sale
of the property on January 19, 2007. See id at A584; see also id at A599-600. The closing
transaction included the execution of a Foreclosure Sale Use Agreement and a HAP Contract. Id
at A584; id at A599-600.
Rider 1 to the Foreclosure Sale Use Agreement required Mr. Halim to maintain
Meadowbrook as affordable rental housing for a period of twenty years. Id at A602. As with the
Schenectady 40 HAP Contract, the Meadowbrook HAP Contract required Mr. Halim to keep all
units for which he would receive housing assistance payments in “good and tenantable
condition” and in compliance with the UPCS requirements “at all times” during the term of the
contract. Id at A588. It also provided, as had the Schenectady 40 contract, that if the contracting
authority “determines that a contract unit is not in accordance with the UPCS, the [contracting
authority] may exercise any of its remedies under the HAP Contract for all or any contract
units,” including “termination, suspension or reduction of housing assistance payments, and
termination of the HAP contract.” Id. at A589.
Similarly, the Foreclosure Sale Use Agreement required the Meadowbrook project to “be
maintained in decent, safe and sanitary condition ... at all times” and required Mr. Halim “to
complete the required repairs within twenty-four (24) months of Closing.” Id. at A599, A603.
The use agreement also included the same Rider 2 covering the post-closing repair and letter of
credit requirements as discussed above with respect to Schenectady 40. See id. at A603.
Rider 6 to the Meadowbrook use agreement provided that “[i]n the event” the required
repair work was “not commenced, diligently continued, or completed as required ... HUD
reserve [d] the right to rescind the sale or take other appropriate action it determine [d] acceptable
and within its authority.” Id at A607. And the Foreclosure Sale Use Agreement stated that “upon
any violation of any provision of this Agreement” HUD may give notice of the violation to the
purchaser, who would then have either thirty days or such further time as the Secretary identified
to correct the violation “to the satisfaction of the Secretary.” Id at A599. If the violation was not
so corrected, then HUD could declare a default under the agreement, and seek appropriate
remedies. Id.
2. Meadowbrook Fails UPCS and Post-Closing Repair Inspections

4 The property was vandalized after closing, necessitating additional repairs; as a result, HUD
ultimately required a letter of credit in the amount of $513,967.56. Def.’s Mot., App. at A581.

15
37a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 16 of 32

As it did with Schenectady 40, HUD retained Applied Engineering to perform post­
closing and UPCS inspections of Meadowbrook. On January 27, 2008, approximately one year
after closing, the inspector performed a UPCS inspection. Id. at A612. He found that “none of
the buildings were in reasonable condition with substantial work remaining to be completed to
consider the buildings livable.” Id. at A613. Therefore, none of the thirteen buildings passed the
inspection. Id.
Approximately seven months later, on August 13, 2008, the HUD inspector conducted a
combined UPCS and post-closing inspection. Id at A629, A646. All units inspected failed the
UPCS inspection. Id at A630, A646. The inspector described the repair work that had been
performed as “sporadic,” noting that “[n]o wholesale organized modernization program ha[d]
been attempted”; that the “floor ... was patched with multiple different styles” and “installed
over unlevel subflooring that needed to be replaced”; and that “[n]ew countertops were provided
on base cabinets that will not remain serviceable.” Id. at A630-31. He also described the work
quality as “poor to fair at best.” Id. at A646.
3. HUD Serves Mr. Halim with Notices of Violation and Default Based on His
Failure To Make the Post-Closing Repairs
In a February 6, 2009 letter, HUD provided Mr. Halim with a notice of violation
concerning the expiration of the twenty-four month post-closing repair deadline. Id, at A677.
HUD directed Mr. Halim to provide it with an “immediate” notification “as to the status of the
[required] repairs.” Id, It stated that “if the repairs have not been completed, [if] the inspector
determines that the repairs have not been made properly or [if] the inspector is not permitted to
assess the property, you shall be in default of the Agreement.” Id,
In its notice of violation, HUD informed Mr. Halim that it was aware that on December
17, 2008, the City of Meridian had declared Meadowbrook unfit for habitation, and that the City
had announced its intent to demolish the apartment complex if Mr. Halim did not show an
“earnest intent to correct the property” to meet the minimum requirements of the City’s housing
code. Id, HUD directed Mr. Halim to respond within ten days of its letter, warning that if he did
not, it would cash and retain his letter of credit in the amount of $513,967. Id, at A678. Although
not in the record, Mr. Halim apparently responded to HUD by a letter of February 16, 2009, in
which he advised HUD that he was having difficulty securing the funds he needed to perform the
repairs required. See id. at A680.
On May 4, 2009, HUD sent Mr. Halim a notice of default. Id, at A679-80. Responding to
Mr. Halim’s February 16, 2009 letter, HUD advised that “the funding and execution of the
necessary repairs are the sole responsibility of the owner.” Id, at A679. It wrote that “[s]ince the
necessary repairs have not been made [by] th[e] contractually agreed upon deadline,” Mr. Halim
was “in default of the Deed and the Use Agreement.” Id, HUD further explained that “due to
[Mr. Halim’s] lack of significant progress, and due to the City’s impending condemnation of the
property, HUD is not able to grant you a time extension to complete the necessary repairs.” Id, at
A680. Accordingly, it “declare[d] [him] in default” and stated that it was “prepared to cash in
[his] LOC.” Id,

16
38a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 17 of 32

4. HUD Grants Mr. Halim a One-Year Extension of Time To Complete the PostClosing Repairs
On May 26, 2009, Mr. Halim sent a letter to HUD in which he requested a one-year
extension of time to complete the post-closing repairs. Id at A683. Mr. Halim advised that he
had hired a new contractor, and provided a timeline under which the work would be completed
by January of 2010. Id at A683-85.
The Chief Administrative Officer of the City of Meridian expressed his support for Mr.
Halim’s extension request in a June 1, 2009 email to HUD. Id. at A681-82. He stated that after a
meeting with Mr. Halim and his contractor, he was “convinced that they will be able to finish”
the repairs if given a twelve-month extension. Id
Based on this endorsement and the timeline provided by Mr. Halim’s contractor, on June
18, 2009, HUD extended Mr. Halim’s time to complete repairs by twelve months, to January 31,
2010. Id at A686. HUD nevertheless cautioned Mr. Halim that “[t]he approval of this 12-month
extension is conditioned upon the immediate initiation of work and continual positive
construction progress in an orderly and professional workmanship manner.” Id “Failure to show
monthly progress [would] result in the Department’s immediate cancellation of the extension.”
Id.
5. Mr. Halim Fails To Complete the Repairs by the First Extended Deadline
Thereafter, between July and December 2009, HUD’s inspector conducted monthly
inspections of the Meadowbrook property. Id at A687-A892. The inspection reports noted some
progress in certain areas, but much work left to be done. See id. At no time during that period did
all of the inspected units pass a UPCS inspection. See id.
On January 25, 2010, six days prior to the expiration of HUD’s extended deadline,
HUD’s inspector returned to Meadowbrook for a final visit. See id. at A894. He noted that
“[v]ery little work ha[d] been accomplished since the time of the last inspection” in December.
Id. at A895. Only five of thirteen buildings were “nearing completion.” Id Those buildings on
which work had not yet started were continuing to deteriorate. Id Additionally, units that had
been “virtually complete” but which were not occupied and were not being supplied with heat or
air conditioning were deteriorating and had “stippled ceiling texture ... falling loose and floor
tile that is no longer properly attached.” Id Sixteen of twenty apartments inspected for UPCS
purposes passed while four failed. Id. at A921. As a result of this inspection, HUD concluded
that 38% of the required repairs had been completed and on January 28, 2010, it released
$185,905 from Mr. Halim’s letter of credit escrow amount. Id. at A941.
During a March 1, 2010 follow-up inspection, the inspector noted that little additional
work had taken place since his January 2010 visit. Id. at A944. The inspector did note, however,
that the four apartments that had failed inspection in January had now passed UPCS inspection.
Id. atA961.

17
39a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 18 of 32

6* HUD Grants Mr. Halim a Second One-Year Extension of Time To Complete
Post-Closing Repairs
On March 8, 2010, Mr. Halim requested permission from HUD to demolish Building
Four at Meadowbrook due to its “extremely poor structural condition.” Id at A975. HUD
granted that request in an April 5, 2010 letter. Id. In that same letter, HUD extended the deadline
for completion of post-closing repairs for a second additional year, to January 15, 2011. Id It did
so based on the fact that Mr. Halim had by then completed 40% of the repairs, and because the
City of Meridian had agreed to grant him such an extension with respect to compliance with its
housing codes. Id at A975. HUD advised Mr. Halim that “positive progress must be made each
month and all of the HUD required repairs must be completed in a professional manner within
the extended timeframe.” Id. In addition, it warned Mr. Halim that “no further extensions will be
granted.” Id.
HUD continued to conduct monthly inspections from April 2010 through December
2010. Id at A976-69. Progress was made during this time period. Thus, on June 3, 2010, HUD
released to Mr. Halim an additional $45,640 from the letter of credit escrow based upon 44%
completion, leaving a balance of $282,422. Id at A1007. Again on July 26, 2010, it released
$45,187 from the escrow based on its determination that 56% of the required repairs had been
completed. Id at A1042. On September 29, 2010, HUD released another $30,279, based on
completion of 59% of the required repairs. Id. at A1062. It informed Mr. Halim, however, that it
would not release any more than $6,629 of the remaining $206,956 until six months after
completion of all repairs. Id. In November 2010, HUD determined that 87% of the required
repairs had been completed and it released that $6,629. Id at A1137.
The HUD inspector visited Meadowbrook again on December 20, 2010 for an eighteenth
post-closing inspection. Id. at A1125, A1140. At that time, the inspector noted that over the
course of the past few months, twenty-four apartments had passed a UPCS inspection.5 Id at
1125. On December 20, however, all four units that he inspected failed. Id. In addition, the
inspector reported, a number of other units were not ready for inspection because they were
missing a significant number of required fixtures, such as lighting and toilets. Id He also warned
that units that had previously passed UPCS inspection should be reinspected due to the
possibility of deterioration in the interim. Id. at A1126. With respect to post-closing
requirements, the inspector found that repairs on eight of the property’s thirteen buildings were
“complete or nearly complete on the interior with exterior repairs nearing completion as well.”
Id. at A1140.
On January 26, 2011, HUD’s inspector informed HUD that the City of Meridian had
issued a stop-work order preventing Mr. Halim from continuing work at Meadowbrook because

5 The inspector’s report stated that “[t]o date, twenty-four of the fifty-two dwelling units have
been found to meet the necessary requirements.” Def.’s Mot., App. at A1125. HUD’s bid kit,
however, described the Meadowbrook complex as having only fifty-one units. Id at A529.

18
40a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 19 of 32

he had failed to complete the project by the January 15, 2011 deadline. Id at A1170.6 At that
point, HUD apparently suspended the performance of further inspections. Id
7. The Property Remains in Disrepair Some Five Years After the Closing; HUD
Notifies Mr. Halim of Default
HUD’s inspector returned to Meadowbrook on September 13, 2011—some eight months
after the expiration of the second extended deadline—accompanied by, among others, the City’s
building inspector. Id at A1173-74. He reported that the City had not issued any new permits
since the stop-work order the preceding January and that, other than replacing some flooring in
one building, Mr. Halim had performed no additional work since the inspector’s December 2010
report. Id at A1173. Additionally, the inspector reported that a termite infestation had been
discovered in Building Two. Id. at A1173-74.
On September 23, 2011, Paula M. Carruth, the Director of HUD’s Jackson, Mississippi
Multifamily Program Center, prepared a memorandum for the Acting Director of HUD’s Atlanta
Multifamily Property Disposition Center. Id. at A1190. The memorandum described the
condition of Meadowbrook and the state of its repairs based on the most recent inspection report.
Id. Ms. Carruth noted that as of the date of the last inspection, “the project rehab had been on­
going for 57 months with 24 of the 52 units having passed UPCS inspection.” Id She observed
that “the quality of the repair work was found to be poor, with occupied units appearing not to
meet Quality Housing Standards.” Id Further she stated that “[d]ue to the duration of the rehab
and the buildings being exposed to the elements, the property appears to have deteriorated to the
point that the existing structures can no longer be brought into compliance with HUD
requirements and the City of Meridian code requirements.” Id Ms. Carruth recommended that
the property be inspected by HUD’s Real Estate Assessment Center and that, “if supported by
the inspection, the section 8 contract be abated.” Id She further noted her understanding that the
City of Meridian was planning to conduct an inspection to determine if the property should be
condemned and demolished. Id.
By letter of December 2, 2011, HUD formally notified Mr. Halim that he was in violation
of the Foreclosure Sale Use Agreement and the HAP Contract, based on a “failure to complete
the repairs required by the Use Agreement and the HAP Contract and for failure to maintain
units in a decent, safe and sanitary condition.” Id at A1191. If Mr. Halim did not correct these
violations within thirty days, HUD warned, it would “terminate the HAP Contract and retain the
balance of the cash repair escrow.” Id.
HUD’s inspector returned to the complex on January 25, 2012. Id at A1194. Some work
had been completed and the termite infestation had been addressed, but problems remained with
all twelve remaining buildings, seven of which were vacant. Id at A1195-98. Four of the
nineteen occupied units in the five occupied buildings failed UPCS inspection. Id at A1198. The
inspector concluded that 89% of the originally required post-closing repairs had been completed,

6 The stop-work order itself is not in the record.

19
41a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 20 of 32

but that this percentage did not account for additional repairs that would be needed as a result of
intervening damage and deterioration. See id. at A1199.
On February 2, 2012, Scott Bearden, the Acting Director of HUD’s Atlanta Multifamily
Property Disposition Center, sent Mr. Halim a notice of default on both the Foreclosure Sale Use
Agreement and the HAP Contract. Id. at A1219. He observed that “although the Department has
given you ample time to complete the repairs, the property remains uninhabitable.” Id. at A1220.
He advised Mr. Halim that HUD was “initiating action to terminate the HAP Contract and
relocate eligible residents” and that HUD intended to retain the balance of his cash repair escrow.
Id. On February 8, 2012, HUD wrote to Mr. Halim notifying him that as a result of his violations
and default, the HAP Contract was abated “effective immediately.” L± at A1221.
B. Merits of Summary Judgment Motion
In Counts III and IV of his fourth amended complaint, Mr. Halim alleges that he in fact
completed the required repairs at Meadowbrook, that HUD breached the use agreement by
failing to release the funds from the repair escrow account, and that he has been damaged in the
amount of “at least $328,062.” 4th Am. Compl. 72-74. Additionally, he alleges that he
maintained the property in compliance with the UPCS, and that HUD breached the HAP
Contract by terminating it. Id 76-77. Mr. Halim seeks “monetary damages as a result.” Id
HI 76-78.
In his summary judgment motion, however, Mr. Halim takes a different tack. He no
longer claims that he timely completed the required post-closing repairs. Instead, he argues that
he “made steady progress” until it became impossible for him to finish making the repairs
because the City of Meridian issued a stop-work order against him in January 2011. PI.’s Mot. at
25. He argues that he is entitled to rescission of the Meadowbrook Foreclosure Sale Use
Agreement based on the doctrine of impossibility. Id at 26-28.
With respect to the HAP Contract, Mr. Halim similarly argues that the stop-work order
made it impossible for him to maintain the property in accordance with the UPCS. Id. at 29. He
also points out that the City of Meridian eventually issued certificates of occupancy for three of
the buildings on the property. These certificates are dated February 16, 2012; March 23, 2012;
and May 22, 2012. Pl/s Mot., App. at A-6-8. According to Mr. Halim, the issuance of these
certificates creates a factual dispute regarding whether he ultimately brought the complex into
compliance with the UPCS standards. Pl.’s Mot. at 28-31.
Mr. Halim’s arguments lack merit. First, “[performance is only excused under [the
impossibility] doctrine when it is objectively impossible.” Seaboard Lumber Co. v. United
States. 308 F.3d 1283, 1294 (Fed. Cir. 2002). As the party asserting impossibility, Mr. Halim has
the burden of proof. See Mass. Bay Transp. Auth. v. United States. 254 F.3d 1367, 1373 (Fed.
Cir. 2001). Yet Mr. Halim has introduced no evidence to establish that it was objectively
impossible for him to complete the required repairs or maintain the properties in compliance with
the UPCS at any time during the four-year period after he closed on the property and before the
City issued its stop-work order in January 2011.

20
42a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 21 of 32

Further, proving impossibility requires a demonstration of lack of fault on the party
asserting it. Id at 1373-74; see also United States v. Winstar Corp.. 518 U.S. 839, 920 (1996)
(Scalia, J., concurring) (“Generally, contract law imposes upon a party to a contract liability for
any impossibility of performance that is attributable to that party’s own actions.”). Mr. Halim
was granted two extensions to comply with his contractual obligations and with the City’s
requirements. The stop-work order which he claims made it impossible for him to complete the
repairs was issued as a consequence of his own failure to meet the contractually imposed
deadlines even after they were twice extended by a year.
In short, Mr. Halim’s invocation of the impossibility doctrine as a grounds for avoiding
his contractual obligations to make the required repairs and maintain the properties in
compliance with the UPCS is unavailing. Further, the fact that the City of Meridian issued him
certificates of occupancy for three buildings between February and May of 2012 is immaterial.
For one thing, the property consisted of twelve buildings. Def.’s Mot., App. at A536. In addition,
Mr. Halim was obligated to maintain the property in compliance with the UPCS on an ongoing
basis. The numerous reports of the HUD inspector over a five-year period are unrebutted and
show Mr. Halim did not meet these compliance requirements.
In short, in light of the undisputed facts, HUD was within its rights to retain the escrow
amounts and to terminate the housing assistance payments for the Meadowbrook Apartments.
The government is therefore entitled to judgment as a matter of law on Counts III and IV.
V.
Motion for Summary Judgment as to Counts VI Through VIII (Beacon Light
Property)
A. Material Facts Not in Dispute
1. The Bid Kit
Beacon Light-Goodwill Baxter Apartments (hereinafter “Beacon Light”) is a 108-unit
apartment complex in Henderson, North Carolina. Id. at A1222. At the time of the HUD
foreclosure sale (June 12, 2007), the property was vacant. Id at A1265. Its residents had been
relocated after HUD closed the apartment complex in 2006 due to the distressed condition of the
property. See id. (Letter from Mayor of City of Henderson, observing that the complex had been
“a source of consternation ... for quite some time” and that HUD closed it in 2006 “due to
serious sanitation and minimum housing code violations”).
The bid kit provided in connection with the foreclosure sale contained warnings and
disclaimers regarding the physical condition of the complex. For instance, at the top of the cover
page of the bid kit, in bold font, it stated that “[pjotential bidders should be aware that building
‘9’, located at 432 Boddie Street, was damaged by fire and that there may have been some
vandalism at the property.” Id. at A1222. Also in bold font, the cover page provided that “[t]he
high bidder will be required to complete all of the repairs noted in Attachment E Post Closing
Repair Requirements plus repair to State and local code all fire damage/vandalism that has
occurred or may occur prior to closing on the sale,” and advised that “[tjhis requirement should
be factored into the bid.” Id.

21
43a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 22 of 32

The bid kit also forewarned prospective purchasers that they bore the burden of
determining for themselves whether there were any matters related to the property that might
bear on their decision to purchase. Section 1 of the bid kit contained a paragraph entitled
“Bidder’s Due Diligence.” Id. at A1224. It stated, again in bold font, that “[b]idders are
encouraged to perform their own due diligence to gain a full understanding of the project and the
conditions of sale before submitting a bid.” Id. Similarly, Section 6 of the bid kit, entitled
“Disclaimers,” provided that “[bjidders interested in purchasing this project are expected to
acquaint themselves with the property, and to arrive at their own conclusions as to physical
condition, number and occupancy of revenue producing units, estimates of operating costs, repair
costs (where applicable), and any other factors bearing upon valuation of the property.” Id at
A1227.
Similarly, the bid kit stated, also in all bold font, that “all information provided is solely
for the purpose of permitting parties to determine whether or not the property is of such type and
general character as might interest them in its purchase, and HUD makes no warranty as to the
accuracy of such information.” Id Further, prospective purchasers were advised that their
“failure ... to inspect, or be fully informed as to the condition of all or any portion of the
property being offered, or condition of sale, will not constitute grounds for any claim, demand,
adjustment, or withdrawal of a bid.” Id
2. The Purchase of the Complex
Mr. Halim purchased the Beacon Light complex at the foreclosure sale for $54,000. Id. at
A1259.7 Closing took place on August 28, 2007. Id at A1251-52. HUD estimated that the
repairs required at Beacon Light would cost over $5 million. Id at 1245—48. The Foreclosure
Sale Use Agreement required a letter of credit in the amount of $1,292,567 to guarantee their
completion. Id at A1228.
Unlike the other properties at issue in this case, which were to be maintained as
affordable rental housing, the Beacon Light complex was sold with the understanding that it
would be converted to home ownership for sale to income-eligible purchasers. Thus, under Rider
1 of the agreement, entitled “Conversion to Home Ownership,” Mr. Halim was obligated to
“complete the required repairs within twenty-four (24) months of closing, convert the property
from rental to homeownership and sell the repaired homeownership units to income-eligible
qualified purchasers for use as their primary residence.” Id at A1238, A1254.

7 On August 10, 2007, Mr. Halim assigned all his “rights, title and interest in, to and under the
Bid” to his son, named in the assignment document as “Sharif Halim.” Def.’s Mot., App. at
A1262. The younger Mr. Halim ultimately executed a quitclaim deed assigning his rights in the
Beacon Light complex back to his father on June 26, 2012. Id at A1380-82. For ease of
reference, the Court will not distinguish between father and son when discussing the Beacon
Light claims but will refer to both as “Mr. Halim.”

22
44a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 23 of 32

3. Mr. Halim Fails To Perform Any Repairs Within the Twenty-Four-Month PostClosing Deadline
Notwithstanding the terms of the Foreclosure Sale Use Agreement, Mr. Halim performed
no significant repair or renovation of the property after the purchase. His inaction drew the ire
and concern of local officials in the City of Henderson.
In a March 11, 2009 letter, William Melvin, the Director of HUD’s Atlanta Multifamily
Property Disposition Center, wrote to Mr. Halim reminding him of his obligation to complete all
repairs to the complex by August 28, 2009. Id. at A1263. Mr. Melvin observed that the City of
Henderson had notified HUD that since Mr. Halim’s purchase “there ha[d] been no significant
work initiated and that there ha[d] been several fires at the property.” Id Mr. Melvin advised Mr.
Halim that he “must immediately notify HUD as to the status of the repairs,” warning that if they
were not completed by the deadline, he would be in default and HUD would take action
“including retention of [the] cash escrow.” Id
Five days later, on March 16, 2009, Mr. Halim requested an extension of time to
complete the repairs. Id at A1264. Mr. Melvin responded by letter of June 3, 2009. Id He told
Mr. Halim that HUD would only consider his request for an extension if he submitted a work
plan identifying the expected completion date for the repairs. Id The record does not contain any
indication that Mr. Halim responded to this letter or otherwise submitted a work plan.
Some five additional months elapsed, again without any significant progress in the
performance of the required repairs or conversion of the property to homeownership. On August
12, 2009, a few weeks before the expiration of the twenty-four-month deadline, the mayor of the
City of Henderson elevated the City’s concerns by sending a letter to HUD Secretary Shaun
Donovan, requesting his intervention. Id. at A1265-68. The mayor characterized the Beacon
Light Apartments as “a major source of blight within the neighborhood in which it is located and
within the city-at-large.” Id at A1265. The mayor reported to Secretary Donovan that since the
sale of the property to Mr. Halim in 2007, “the property ha[d] further deteriorated, and
significantly so,” due to fire and vandalism. Id. In fact, as of the date of his letter, the mayor
observed, no plans had been submitted to the City to bring the property into compliance with its
housing code, even though HUD’s two-year compliance deadline was about to expire. Id.
The mayor also advised Secretary Donovan that the Henderson City Council had passed
an ordinance to condemn the property and that it was prepared to enforce an ordinance to
demolish the property unless it could be brought into compliance with the City’s minimum
housing code requirements and with deed restrictions requiring conversion of the property to
homeownership. Id at A1266. The mayor further advised that the City Council had passed a
resolution requesting that a portion of the repair escrow held by HUD be provided to the City to
cover the costs of demolition. Id He noted, however, that the City still hoped to work with HUD
and Mr. Halim to avoid demolition and to rehabilitate the property. Id. at A1266-68.

23
45a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 24 of 32

4. With the Twenty-Four-Month Deadline Expired, the City Denies Mr. Halim’s
Requests for a Special Use Permit and Variance
On October 9, 2009, Mr. Halim applied to the City for a special use permit and a zoning
variance. Id at A1272-73. Beacon Light was set back eighteen feet from the street, which meant
that it was out of compliance with a city ordinance requiring a setback of at least thirty-five feet.
See id. at A1273-76. The special use permit was requested “[t]o allow a[] unified residential
development to be established.” Id. at A1272. The variance was sought “[t]o modify setback
requirements.” Id. at 1273.
Mr. Halim was apparently unaware before he purchased the property that it failed to meet
local setback and density requirements. He testified that the purpose of his request for a special
use permit and variance was to allow him to perform the repairs required to comply with his
obligations under the sale agreement. Id. at A1544; see also Pl.’s Mot., Halim Deck 5-7
(observing that the City refused to issue permits needed to make repairs because Beacon Light
did not meet the City’s density and setback requirements).
While Mr. Halim’s requests were pending, on October 30, 2009, the mayor again wrote
to a HUD official in Washington, D.C.—this time Janet Golrick, Associate Deputy Assistant
Secretary in the Multifamily Housing Division. Def.’s Mot., App. at A1277. He complained
about the “continuing dilapidated and blighted conditions of th[e] apartments.” Id. He reported
that “[o]ther than mowing the weeds that were three to five feet tall, after an order for mowing
was issued by the city, and installing a gate to secure the property ... nothing has happened with
the property other than the fires that have heavily damaged and/or destroyed four buildings.” Id
at A1278. The mayor provided photographs showing the proximity of the Beacon Light
Apartments to a well-maintained single-family neighborhood. Id at A1279. He expressed
frustration about what he viewed as a lack of cooperation on Mr. Halim’s part evidenced by,
among other things, Mr. Halim’s failure to demonstrate that he had obtained a construction loan
sufficient to renovate the property. Id. at A1278.
Finally, the mayor requested HUD’s assistance in “bringing Beacon Light into
compliance with City building codes and conversion to home ownership.” Id at A1279. To that
end, he stated, and given Mr. Halim’s lack of cooperation, “the City Council is requesting HUD
to provide an amount of funds from Mr. Halim’s $1.2M cash bond to demolish the property in
order to remove the blight [fro]m the neighborhood.” Id
On December 8, 2009, the City denied Mr. Halim’s requests for a special use permit and
a zoning variance. Id. at A1272-76, A1354. As to the special use permit, the zoning board
concluded that “the proposed use will materially and adversely affect public health, safety and
welfare and will further substantially injure the value of adjoining and abutting properties and is
not in harmony with the area in which it is located.” Id at A1275. The board noted that “the
subject property constitutes an area of high crime and drug activity,” that “the existing buildings
(which do not comply with the present building setback requirements of the Zoning Ordinance)
have been the subject of at least three fires in the last three years,” and that “there is raw sewage
on the ground, which sewage had spilled over into the adjoining properties.” Id Accordingly, the
board concluded that “[f]ire and police, street and sewer facilities could all be better used to
serve the property if it were converted to single family residences.” Id.

24
46a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 25 of 32

As to the variance, the board concluded, among other things, that the setback was
“reasonably discernible at the time that the applicant purchased the property, [and that] the
Applicant has done nothing to remove the burned out buildings or attempted to remedy or repair
the buildings since the fires ... thus making the conditions worse.” Id.
Mr. Halim was formally notified of the City’s decision by letter of December 14, 2009.
Id. at A1354. In that letter, the City advised Mr. Halim that its Code Compliance Department
intended to “move towards bringing the property into compliance through demolition.” Id.
5. Mr. Halim’s Communications with HUD Officials Regarding the Resale of the
Property to HUD
In the meantime, on December 1, 2009, while his requests for a special use permit and
variance were pending, Mr. Halim met with Howard Mayfield and Courtland Wilson, officials in
HUD’s Washington, D.C. headquarters. See id. at A1350. After the meeting, Mr. Halim wrote
two letters. First, on December 4, 2009, he wrote a brief letter to William H. Melvin, the Director
of HUD’s Atlanta Multifamily Property Disposition Center. Id In that letter, Mr. Halim stated
that “[p]er [his] discussion with Mr. Mayfield and Mr. Wilson on December 1st, 2009 ... [he
was] giving back the NC property aka B[e]acon Light Apartments to HUD.” Id He continued
that “[t]he transfer of ownership to HUD is subject to the following conditions: I) Full refund of
the purchase price. II) Full refund of the cash escrow held by HUD in lieu of the LOC. Ill) Full
Release of the present owner of the record from any liability regardless of its nature associated
with the subject property.” Id.
A few days later, on December 7, 2009, Mr. Halim wrote a second letter, this time
directly to Mr. Mayfield and Mr. Wilson. In this letter, he offered what he characterized as a
“summary of [the] conversation at the [December 1] meeting in writing.” Id at A1351-53. The
summary referenced Mr. Halim’s grievances against HUD regarding the Nichols Townhomes,
Schenectady 40, and Meadowbrook Apartments. It did not include any discussion of the Beacon
Light Apartments. See id
On February 3, 2010, Robert G. Iber, HUD’s Acting Director of Asset Management,
wrote to Mr. Halim “in follow-up to [his] recent meeting with HUD staff to discuss the
Department’s foreclosure requirements for the subject projects.” Id at A1355. In this letter, Mr.
Iber referenced Mr. Halim’s disputes concerning the Nichols Townhomes, Schenectady 40, and
the Beacon Light Apartments. Id. at A1355-56. As to Beacon Light, Mr. Iber stated, among
other things, that “HUD’s discussion regarding the possible acceptance of the deed on this
property has not been decided.” Id at A1356.
6. Notice of Default—Demolition of Property
On June 29, 2010, Mr. Iber wrote to Mr. Halim notifying him that he was in default of his
obligations under the Foreclosure Sale Use Agreement. Id. at A1358. Mr. Iber noted that under
the agreement, Mr. Halim was obligated to make specified repairs by August 28, 2009, but that
“no major repairs to the Project or corrections to violations of the Use Agreement have been
made.” Id. He also noted that the City had informed HUD that Beacon Light had “suffered from
fire damage and ha[d] been found to be hazardous to the public health, safety and welfare of the

25
47a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 26 of 32

residents of the City.” Id Because “the repair period ha[d] expired and no major repairs ha[d]
been made and the city ha[d] condemned the Project as a public hazard,” Mr. Iber informed Mr.
Halim, HUD intended to exercise its rights under the foreclosure sale agreement to use the funds
from the letter of credit “in a manner which [HUD] deems appropriate.” Id This might include,
Mr. Iber stated, “reimbursing the City for actions associated with remediation of the conditions at
the Project.” Id
On October 27, 2010, HUD entered into a Memorandum of Understanding with the City,
in which it agreed to use the proceeds from the letter of credit Mr. Halim provided to reimburse
the City for its reasonable costs in demolishing the Beacon Light Apartments. Id at A1359-61.
HUD released $399,900 from the escrowed funds to the City for the demolition on September 6,
2011. Id at A1368. The City notified HUD that the property had been demolished on September
14, 2011. Id
B. Merits of Motion for Summary Judgment
1. Mutual Mistake of Fact (Count VI)
In Count VI of his complaint, Mr. Halim claims that he is entitled to rescission of the
Beacon Light use agreement and a refund of his escrow funds because of a mutual mistake of
material fact regarding his ability to make repairs on the property. 4th Am. Compl. 88. He
alleges that—because the complex did not comply with the City’s density and setback
requirements—he was denied the permits he needed to make the repairs. Id 42—43. The
“mistake of fact,” according to Mr. Halim, was the parties’ assumption that Beacon Light was
not out of compliance with those requirements. Id
It is well established that “[w]here there has been a mutual mistake of material fact,
resulting in a contract which does not faithfully embody the parties’ actual intent, reformation,
[and] rescission ... may be available to the party adversely affected.” Dairvland Power Co-op.
16 F.3d at 1202. In this case, however, Mr. Halim’s mutual mistake of fact claim fails as matter
of law. A party “cannot rely upon a mutual mistake of fact to avoid enforcement of a contract
where ... the ‘mistake’ is a result of that party’s failure to exercise due diligence.” Canpro Invs.
Ltd, v. United States. 130 Fed. Cl. 320, 342 (2017); see also Griffin & Griffin Expl.. LLC v.
United States. 116 Fed. Cl. 163, 175 (2014) (same). “Ignorance is never sufficient to constitute a
ground of relief if it appears that the requisite knowledge might have been obtained by
reasonable diligence. He who averts knowledge to himself cannot later claim lack of
knowledge.” Collins v. United States. 532 F.2d 1344, 1348 (Ct. Cl. 1976) (citation omitted).
Mr. Halim’s lack of due diligence here is fatal to his mutual mistake of fact claims. Mr.
Halim appears to be in the business of purchasing apartment complexes from HUD at foreclosure
sales. The Court would expect, therefore, that he would have undertaken the steps necessary to
familiarize himself with whatever local ordinances might bear upon his ability to repair and
renovate the complex. See Edwards v. United States. 19 Cl. Ct. 663, 672 (1990) (rejecting
misrepresentation claim and observing that “one would assume that reasonable and prudent
business people would operate through a lawyer to assist them in those matters relative to zoning
laws, title, and other related municipal matters”); see also id. at 674 (observing that relief is
rarely provided for mistakes of law because “both parties are generally held to have knowledge

26
48a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 27 of 32

of the laws and regulations affecting their business dealings”) (quoting C & L Constr. Co. v.
United States. 6 Cl. Ct. 791, 798 (1984)).
In any event, “[w]here the party seeking reformation alleges an innocent mutual mistake,
that party must establish ... that the contract did not place the risk of mistake upon the party
seeking reformation.” Roseburg Lumber Co. v. Madigan. 978 F.2d 660, 668 (Fed. Cir. 1992).
Here, the contractual documents clearly placed the risk of mistake as to the property’s
conformity with local ordinances on the purchaser. Specifically, the bid kit encouraged bidders
“to perform their own due diligence to gain a full understanding of the project and the conditions
of sale before submitting a bid.” Def.’s Mot., App. at A1224. It also warned that a “[bjidder’s
failure to inspect or to be fully informed as to any factor bearing upon the valuation of the
property, shall not affect the liabilities, obligations, or duties of HUD, [and shall] not be a basis
for termination of this sale or for the return of any extension fees paid.” Id. at A1231.
Prospective purchasers were “expected to acquaint themselves with the property, and to arrive at
their own conclusions as to; physical condition ... and any other factors bearing upon the
valuation of the property.” Id. at A1227 (emphasis added).
A property’s compliance (or noncompliance) with a local zoning ordinance is clearly a
factor that bears on its valuation. And the bid documents placed the risk of Mr. Halim’s
“failure ... to be fully informed” as to that factor squarely with him. For these reasons, the Court
rejects Mr. Halim’s claims based on mutual mistake of fact. The government is therefore entitled
to judgment as a matter of law as to Count VI.
2. Plaintiffs Claim Regarding HUD’s Breach of an Oral Contract (Count VII)
Mr. Halim alleges that on December 1, 2009, he entered into an oral agreement with
Courtland Wilson, HUD’s then-Acting Director of Asset Management. Pursuant to this oral
agreement, Mr. Halim alleges that HUD agreed to refund the purchase price and return the funds
in escrow for Beacon Light in exchange for Mr. Halim and his son returning the deed for the
property to HUD. 4th Am. Compl. 90-91. Mr. Halim further alleges that HUD is in breach of
this oral agreement because it has refused to refund the purchase price or the funds held in
escrow. Id. 193.
Mr. Halim’s claim fails as a matter of law. Even assuming that there was, in fact, an oral
agreement for the resale of the property by Mr. Halim and a HUD employee with authority to
enter such a contract (a claim that is dubious at best), such a contract would be unenforceable
under state law.
Both parties agree that North Carolina law governs whether there exists a valid contract
for the repurchase of the property by HUD. See Def.’s Mot. at 61; Pl.’s Mot. at 13. Under North
Carolina law, when a promise involves the sale or transfer of land, it must satisfy the Statute of
Frauds. N.C. Gen. Stat. § 22-2 (2016); see also Restatement (Second) of Contracts § 125 (1981)
(“A promise to transfer to any person any interest in land is within the Statute of Frauds.”). To
satisfy the Statute of Frauds, all material terms of a contract must be contained in a writing that is
signed by the party against whom enforcement is sought. See icL at § 131; see also Lamle v.
Mattel. Inc.. 394 F.3d 1355, 1361 (Fed. Cir. 2005). It is undisputed, however, that there is no
such writing regarding the transfer of Beacon Light back to HUD.

27
49a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 28 of 32

Mr. Halim argues nevertheless that he can enforce the alleged oral contract on the
grounds that the doctrine of promissory estoppel is an exception to the Statute of Frauds under
North Carolina law. Pl.’s Mot. at 13. In support of that proposition, he cites Allen M. Campbell
Co. v. Virginia Metal Industries. Inc. 708 F.2d 930, 934 (4th Cir. 1983); see id at 14. But
contrary to Mr. Halim’s argument, North Carolina does not recognize claims based on
promissory estoppel as exceptions to the Statute of Frauds. See Rice v. Vitalink Pharmacy
Servs.. Inc.. 124 F. Supp. 2d 343, 347 (W.D.N.C. 2000) (observing that “Campbell has been
expressly rejected by the courts of North Carolina” and “declin[ing] to accept the plaintiffs
invitation to adopt the reasoning of Campbell in favor of the clear controlling law of North
Carolina,” under which “promissory estoppel may not be used as an affirmative cause of
action”).
Further, to the extent that Mr. Halim intends to pursue a claim based on promissory
estoppel, this Court would have no jurisdiction to consider it. See Twp. of Saddle Brook v.
United States. 104 Fed. Cl. 101, 111 (2012) (“[Pjromissory estoppel theory does not fall within
the jurisdiction granted to the court by the Tucker Act.”). Accordingly, the government is
entitled to summary judgment as to Count VII of the complaint.
3. Plaintiffs Claim Regarding HUD’s Breach of Beacon Light Use Agreement
(Count VIII)
Finally, Mr. Halim alleges that HUD breached the Beacon Light use agreement by
agreeing to the property’s demolition and by providing funds from the escrow account to pay for
the demolition. 4th Am. Compl. 1100. He does not challenge HUD’s contractual authority, in
the event of a breach, to retain the escrow funds and devote them to an appropriate use as it sees
fit. Instead, he contends that he was excused from his obligation to perform the repairs required
under the contract by the doctrine of impossibility. Pl.’s Mot. at 19. Specifically, he contends that
the City’s denial of his request for a variance precluded him from doing so. Id at 19-20. This
claim also fails as a matter of law.
First, the variance request was not even presented to the City for determination until after
Mr. Halim’s deadline to complete repairs had expired. Additionally, the doctrine of impossibility
cannot be employed “where the ‘language or the circumstances’ indicate allocation of the risk to
the party seeking discharge.” Winstar. 518 U.S. at 908 (citing Restatement (Second) of Contracts
§ 261)). Here, as explained above, Mr. Halim bore the risk that Beacon Light might not be in
compliance with local zoning ordinances. Accordingly, the government is entitled to summary
judgment as to Count VIII of the complaint.
VI.

Motion for Summary Judgment as to Counts IX, X, and XI (Highland Village)
A. Material Facts Not in Dispute

Highland Village is a 300-unit apartment complex in Montgomery, Alabama. Def.’s
Mot., App. at A1383. HUD held a foreclosure sale for the property on September 14, 2006. Id
HUD was unable to close with the successful bidder at that sale. It therefore put the property up
for sale again on March 22, 2007. See id. at A1424-25.

28
50a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 29 of 32

The bid kit for the second foreclosure sale contained a warning at the top of the cover
page, stating in bold font that “[potential bidders should be aware that there has been on-going
vandalism at the property.” Id, at A1425. It further stated that “[t]he high bidder will be required
to complete all of the repairs noted in Attachment E Post Closing Repair Requirements plus
repair to State and local code all vandalism that has occurred or may occur prior to closing on the
sale.” Id “This requirement,” HUD cautioned, “should be factored into the bid.” Id. Further, the
kit stated, bidders were “encouraged to perform their own due diligence to gain a full
understanding of the project and the conditions of sale before submitting a bid.” Id at A1427.
In paragraph eight of Section 1 of the bid kit, HUD repeated the warning from the cover
page, again in bold font. Id, The bid kit also contained a disclaimer provision that stated, among
other things, that “[a]ny bid submitted shall be deemed to have been made with full knowledge
of all the terms, conditions and requirements contained in this Invitation for Bid and in any
Addendum hereof,” and that “[wjhile care has been exercised to assure accuracy, all information
provided is solely for the purpose of permitting parties to determine whether or not the property
is of such type and general character as might interest them in its purchase, and HUD makes no
warranty as to the accuracy of such information.” Id, at A1430.
HUD informed potential bidders that the estimated repair costs totaled $5,623,991. Id, at
A1432. It also included in the bid kit multiple photographs of the property that revealed its thenexisting condition. Id, at A1461-64.
Mr. Halim visited Highland Village prior to the first foreclosure sale in September 2006,
and he drove by the apartments again prior to the second sale six months later. See id, at A1534.
He testified at his deposition that on his first visit, the property was “livable” and so he made an
offer on it, but was not the high bidder. Id, According to Mr. Halim, he did not get out of his car
the second time because he feared for his safety. Id, He testified that on this second visit
“obviously, for whatever reason, the [owner] of the property [had] some issues with HUD and he
was trying to do something with them, so he completely was kind of violent, [and took] all the
windows off.” Id,; see also id. at 1547 (observing that the complex looked different on the
outside when he drove by because “apparently there was a lot of bad people vandalization” and
“the ex-owner apparently was angry”).
Mr. Halim submitted the high bid at the second foreclosure sale. See id. at A1466. He and
HUD executed a document entitled, “Terms and Requirements of Foreclosure Sale Acknowledgement by Bidder.” Id, at A1467-70. It stated “As-Is Sale; No Representations” and
continued that the “[b]idder shall accept the property ‘as is.’ HUD makes no representations or
warranties concerning the physical condition of the Property.” Id, at A1468. It further stated that
“[b]idder acknowledges that the purchase price set forth in this Acknowledgement is based on
Bidder’s evaluation of the project and not upon any representations by HUD. Bidder’s failure to
inspect, or to be fully informed as to any factor bearing upon the valuation of the Property, shall
not affect the liabilities, obligations or duties of HUD.” Id,
Closing took place on June 22, 2007, at which time Mr. Halim again executed a
Foreclosure Sale Use Agreement. Id, at A1476; see also id. at A1501. Under Rider 2 of the
agreement, Mr. Halim was required to maintain all 300 units of the property as affordable rental

29
51a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 30 of 32

housing for a period of twenty years. Id. at A1494. The Agreement required Mr. Halim to make
the specified post-closing repairs within twenty-four months of closing. Id. at A1481.
By July 26, 2010, more than a year after the twenty-four-month repair deadline had
passed, HUD had determined that Mr. Halim had completed only 6% of the required repairs at
the property. Id. at A1505. It released $85,336 to Mr. Halim from the cash escrow for repairs,
leaving a balance of $1,320,662. Id After an inspection in August 2010 revealed that Mr. Halim
had completed only 10% of the required repairs, HUD released another $46,560. IdL at A1506.
The record does not reveal any further progress at Highland Village or further release of the cash
escrow.
B. Jurisdiction
The Tucker Act provides the United States Court of Federal Claims with “jurisdiction to
render judgment upon any claim against the United States founded ... upon any express or
implied contract with the United States.” 28 U.S.C. § 1491(a)(1) (2012). Each claim in Mr.
Halim’s fourth amended complaint is founded upon a contract with HUD relating to the sale or
purchase of HUD properties and therefore falls within this Court’s general subject matter
jurisdiction.
The government asserts, however, that Mr. Halim’s claims relating to Highland Village
are barred by the Court of Federal Claims’ six-year statute of limitations. Def.’s Mot. at 71-74.
Thus, 28 U.S.C. § 2501 states that “[ejvery claim of which the United States Court of Federal
Claims has jurisdiction shall be barred unless the petition thereon is filed within six years after
such claim first accrues.” A cause of action accrues under the Tucker Act when “all events have
occurred to fix the Government’s alleged liability, entitling the claimant to demand payment and
sue here for his money.” Martinez v. United States. 333 F.3d 1295, 1303 (Fed. Cir. 2003) (en
banc) (quoting Nager Elec. Co. v. United States. 368 F.2d 847, 851 (Ct. Cl. 1966)).
Here, Counts IX, X, and XI of the complaint seek rescission of the Highland Village
contract and a return of the amount held in escrow based on alleged misrepresentations of fact
and/or unilateral or mutual mistakes of fact concerning the deterioration in the condition of the
property between the first and second foreclosure sales. 4th Am. Compl.
102-18. These
claims are based on the theory that HUD knew or should have known that the apartments at
Highland Village “had been gutted”; that the tenants had moved out between the first and second
foreclosure sales; and that at the time of the sale Mr. Halim was unaware that conditions at the
complex had changed so significantly between the two sales. Id.
The causes of action set forth in Counts IX, X, and XI accrued when Mr. Halim became
aware of or should have become aware of the alleged misrepresentations and/or mistakes. See
Cambridge Plating Co. v. Nanco. Inc.. 85 F.3d 752, 763-64 (1st Cir. 1996); Harvey v. Martin.
714 F.2d 650, 653 (6th Cir. 1983). In this case, as described above, Mr. Halim testified at his
deposition that within one month of closing (i.e., around July 2007) he realized that the property
was in worse condition than he had expected at the time of bidding. Id. at A1547.8 Yet Mr.
8

In a declaration submitted with his response to the government’s motion for summary
judgment, Mr. Halim states, contrary to his earlier deposition testimony, that “[sjince all the
30
52a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 31 of 32

Halim did not file his fourth amended complaint adding causes of action with respect to the
Highland Village property until January 9, 2015, nearly seven-and-a-half years later.
Mr. Halim argues that his claims regarding Highland Village are nonetheless timely
because he filed his first complaint in this case within six years of when he knew or should have
known of the alleged mistakes or misrepresentations made with respect to Highland Village.
PL’s Mot. IX-XI at 1-2. This argument lacks merit.
Rule 15(c) of the Rules of the Court of Federal Claims (“RCFC”) provides that an
amendment to a complaint “relates back to the date of the original pleading when,” among other
things, “the amendment asserts a claim or defense that arose out of the conduct, transaction, or
occurrence set out—or attempted to be set out—in the original pleading.” RCFC Rule 15(c)(1).
In determining whether an amendment relates back, the court looks to the “notice given by the
general fact situation set forth in the original pleading.” See Barron Bancshares, Inc, v. United
States. 366 F.3d 1360,1369 (Fed. Cir. 2004) (quoting Snoqualmie Tribe v. United States. 372
F.2d 951, 960 (Ct. Cl. 1967)).
Here, the Highland Village claims do not arise out of the same “conduct, transaction, or
occurrence” as those set out in the earlier pleadings. The Highland Village claims relate to
different sales, different contracts, and different properties. The operative facts underlying the
claims of misrepresentation and mistake of fact regarding Highland Village are unrelated to
those involving the claims made regarding the other properties. The government could not have
known until Mr. Halim amended the complaint to add the Highland Village claims that he would
do so. The additional claims in Mr. Halim’s fourth amended complaint therefore do not relate
back to any of the earlier complaints.
Finally, Mr. Halim argues that, for a variety of reasons, the running of the limitations
period should be equitably tolled with respect to Counts IX, X, and XI. Pl.’s Mot. IX-XI at 2-3.
This argument also lacks merit. The limitations period set forth in the Tucker Act is
jurisdictional. Shoshone Indian Tribe of Wind River Reservation v. United States. 672 F.3d
1021, 1029 (Fed. Cir. 2012) (citing John R. Sand & Gravel Co. v. United States. 552 U.S. 130,
events took place almost eleven years ago, the exact date that I was physically at Highland is
difficult to remember now,” and that “[i]t could [have] been around the end of 2007 or the
beginning of 2008.” Pl.’s Mot. IX-XI, 2d Deck of Ahmed Halim f 28, ECF No. 80-1. But
assuming that the passage of time makes it difficult for Mr. Halim to now recall when he realized
the alleged “misrepresentations” or mistakes of fact, his deposition testimony was provided more
than two years ago, and thus closer in time to the events at issue. And in any event, “[a] party
cannot create an issue of fact by supplying an affidavit contradicting his prior deposition
testimony, without explaining the contradiction or attempting to resolve the disparity.” Sinskev
v. Pharmacia Ophthalmics. Inc.. 982 F.2d 494, 498 (Fed. Cir. 1992), abrogated in part on other
grounds by Pfaff v. Wells Elecs.. Inc.. 525 U.S. 55 (1998), as recognized by Invitrogen Corn, v.
Biocrest Mfg.. L.P.. 424 F.3d 1374, 1379-80 (Fed. Cir. 2005); see also Bums v. Bd. of Cty.
Comm’rs- 330 F.3d 1275, 1281-82 (10th Cir. 2003) (“[Courts] will disregard a contrary
affidavit... when it constitutes an attempt to create a sham fact issue.”) (quotation omitted);
Grand Acadian. Inc, v. United States, 87 Fed. Cl. 193, 206-07 (2009).

31
53a

Case l:12-cv-00005-EDK Document 97 Filed 11/19/18 Page 32 of 32

136-39 (2008)). Compliance with the six-year limitations period is a “condition of the
government’s waiver of sovereign immunity, and as such, must be strictly construed.” Hopland
Band of Porno Indians v. United States, 855 F.2d 1573, 1576-77 (Fed. Cir. 1988). Accordingly,
the Court’s statute of limitations is not subject to equitable tolling. See John R. Sand & Gravel
Co.. 552 U.S. at 133-34; see also Young v. United States. 529 F.3d 1380, 1384 (Fed. Cir. 2008).
CONCLUSION
For the foregoing reasons, Counts IX through XI are DISMISSED without prejudice for
lack of subject matter jurisdiction. Additionally, Plaintiffs motion for summary judgment as to
Counts III, V, VI, VII, and VIII is DENIED and the government’s motion for summary
judgment as to all remaining counts (Counts I through VIII) is GRANTED. The Clerk is
directed to enter judgment accordingly. Each side shall bear its own costs.
IT IS SO ORDERED.
s/ Elaine D. Kaplan
ELAINE D. KAPLAN
Judge

32
54a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 1 of 7

UNITED STATES COURT OF FEDERAL CLAIMS

AHMED HALIM,

)
)
)
)

Plaintiff
v.

)
)

No. 12-5 C
(Judge Kaplan)

)
)
)
)
)

THE UNITED STATES OF AMERICA,
Defendant

DECLARATION OF AHMED HALIM
I, Ahmed Halim, declare as follows:

1. Iam over the age of twenty-one and I am competent to testify to the matters specified
below.
2. I was the winning bidder on the foreclosure sale by the Department of Housing and
Urban Development (“HUD”) of Beacon Light Apartments (Beacon Light).
3. Before I closed on the sale of Beacon Light, I assigned my ownership interest in
Beacon Light to my son, Sharif Abdel Halim, with HUD’s approval. Accordingly, my son
executed all of the documents at the closing on the sale of Beacon Light.
4. One of the documents executed by my son in connection with the purchase of Beacon
Light was a Foreclosure Sale Use Agreement. This agreement required my son to complete the
repairs specified in the Agreement within two years of the closing on Beacon Light.
5. My son was unable to complete the required repairs at Beacon Light because the City
of Henderson (“Henderson”), the city in which Beacon Light is located, refused to issue the
1
55a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 2 of 7

permits that were needed to make the repairs. Henderson refused to issue the required permits
because Beacon Light did not meet Henderson’s density and setback requirements.
6. When I submitted my bid on Beacon Light I did not know that Beacon Light did not
meet Henderson’s density and setback requirements. The Bid Kit issued by HUD in connection
with the foreclosure sale by HUD of Beacon Light did not contain any information regarding the
fact that Beacon Light did not meet Henderson’s density and setback requirements.
7. After Henderson refused to issue the permits that were needed to make the repairs at
Beacon Light, my son submitted a request for a special use permit and a zoning variance to
address the fact that Beacon Light did not meet the Henderson density and setback requirements.
8. Henderson denied my son’s request for both the special use permit and zoning
variance.
9. On December 1, 2009,1 met with Howard Mayfield and Courtland Wilson at HUD
headquarters in Washington, DC to discuss the problems at Beacon Light and other projects I
had purchased at other HUD foreclosure sales.
10. At this meeting, Mr. Mayfield and Mr. Wilson offered to refund the purchase price I
had paid for Beacon Light and the money I gave to HUD for a repair escrow that HUD required
to ensure the completion of the repairs at Beacon Light in return for reconveying Beacon Light to
HUD.
11. I accepted the offer made by Mr. Mayfield and Mr. Wilson.
12. To process and implement the agreement I made with Mr. Mayfield and Mr. Wilson,
Mr. Mayfield and Mr. Wilson told me to submit the agreement in writing to William Melvin
who, at that time, was the Director of the HUD Atlanta Property Disposition Office.

2

56a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 3 of 7

13. As instructed by Mr. Mayfield and Mr. Wilson, I sent a letter to Mr. Melvin on
December 4, 2009, informing Mr. Melvin that I would, as agreed at the December 1,2009
meeting with Mr. Mayfield and Mr. Wilson, reconvey Beacon Light to HUD in return for a full
refund of the purchase price and the repair escrow I paid to HUD. I was ready, willing and able
to reconvey Beacon Light to HUD whenever HUD was ready to refund the purchase price and
repair escrow to me.
14. Because of the agreement I made with Mr. Mayfield and Mr. Wilson, I did not
pursue any other options with respect to Beacon Light, including any legal action. As a result,
Henderson demolished Beacon Light.
15. I was the high bidder at the May 12, 2006 foreclosure of Nichols Townehomes
(“Nichols”) located in Flushing, Ohio.
16. In accordance with the terms of the foreclosure sale, I was required to submit several
documents to HUD by May 26, 2006, including a “Management Entity Profile” and a
“Management Certification.”
17. I did not submit any of the required documents until June 1,2006.
18. HUD had approved me to self-manage five projects that I purchased from HUD at a
foreclosure sale before I submitted my bid on Nichols. Of the five projects, I was managing two
of projects when I submitted my bid on Nichols. Although HUD approved me to self-manage the
other three projects, I never managed them because I did not close on the sale of the projects.
19. The “Management Entity Profile” and “Management Certification” I submitted in
connection with my request to self-manage these five projects were essentially the same as the
“Management Entity Profile” and Management Certification” I submitted for Nichols.

3
57a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 4 of 7

20. I was also approved by HUD to self-manage three other projects, including
Schenectady 40 Apartments (“Schenectady 40”) and Meadowbrook Apartments
(Meadowbrook”), I bought at a HUD foreclosure sale after HUD denied my request to selfmanage Nichols. The “Management Entity Profile” and “Management Certification” I submitted
in connection with my request to self-manage these three projects were essentially the same as
the “Management Entity Profile” and “Management Certification” I submitted for Nichols.
21. In connection with my purchase of Meadowbrook from HUD, I was required to
complete certain specified repairs within twenty-four months of the closing on my purchase.
22.1 received two extensions from HUD to complete the required repairs. The last
extension required that I complete the repairs by January 15, 2011.
23. By the end of December 2010,1 had completed 89% of the required repairs at
Meadowbrook.
24. In January 2011, the City of Meridian (“Meridian”), the city in which Meadowbrook
is located, issued a stop-work order for all of the work that was needed to complete the repairs at
Meadowbrook.
25. In addition, the city manager for Meridian threatened to have me arrested if I
disobeyed the stop-work order.
26. Because I did not want to be arrested, I stopped the work on the repairs at
Meadowbrook in January 2011.
27. I was able to resume making the required repairs at Meadowbrook in 2012 after the
city manager for Meridian who had threatened to have me arrested was fired. I then completed
the repairs that I had agreed to make at Meadowbrook as soon as practicable in 2012.

4
58a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 5 of 7

28. After I completed the repairs, Meridian issued a certificate of occupancy for all of the
units at Meadowbrook after Meridian inspected the units.
29. I was the high bidder at HUD’s May 31,2006 foreclosure sale of Schenectady 40.
30. In connection with my purchase of Schenectady 40,1 agreed to make certain repairs
that were specified in Attachment E to the Foreclosure Sale Use Agreement I executed in
connection with my purchase of Schenectady 40.1 completed all of the required repairs by
October 2009.
31. On October 13, 2009,1 received a letter dated October 9, 2010 from the Code
Enforcement Coordinator for the City of Schenectady (“Schenectady”) notifying me with respect
to Schenectady 40 that: (1) there were no violations for any of the units; (2) all of the units had
passed an inspection by Schenectady; and (3) Schenectady had issued a rental certificate, which
is the equivalent of a certificate of occupancy, for all of the units.
32. On October 14,2009,1 sent a copy of the October 9,2009 letter from the Code
Enforcement Coordinator via email to several persons at HUD, including William Melvin and
Lisa Pugliese who was the Supervisory Project Manager for Schenectady 40.
33. In connection with my purchase of Meadowbrook, I executed a HAP contract with
HUD (“Meadowbrook HAP Contract”).
34. Before HUD terminated the Meadowbrook HAP Contract in 2012, 24 of the 51 units
had passed an UPCS inspection.
35. HUD had approved a subsidy payment for 20 the 24 units that had passed an UPCS
inspection. Each of these 20 units was occupied by an income-eligible tenant, a 100 percent
occupancy rate for the units for which HUD had approved a subsidy, and I was receiving subsidy
payments from HUD for each of the 20 units.

5
59a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 6 of 7

36. Without a HAP contract, I can only rent to tenants who can afford to pay rent without
a subsidy. However, Meadowbrook is located in a low-income area where all of the multifamily
housing rental projects are projects that provide a subsidy to their tenants. Therefore, I am at a
severe disadvantage in competing with the projects that offer a subsidy to their tenants. As a
result, the average occupancy rate at Meadowbrook has been less than 30 percent since HUD
terminated the Meadowbrook HAP Contract in 2012.
37. Because of the low occupancy level at Meadowbrook since HUD terminated the
Meadowbrook HAP Contract, the income I have derived from Meadowbrook has been reduced
by a significant amount.
38. In connection with my purchase of Schenectady 40,1 executed a HAP contract with
HUD (“Schenectady 40 HAP Contract”).
39. Before HUD terminated the Schenectady 40 HAP Contract in 2009, all 40 of the
units had passed an UPCS inspection. All 40 of the units were occupied by an income-eligible
tenant, a 100 percent occupancy rate, and I was receiving subsidy payments from HUD for each
of the 40 units.
40. Without a HAP contract, I can only rent to tenants who can afford to pay rent without
a subsidy. However, Schenectady 40 is located in a low-income area where many of the
multifamily housing rental projects are projects that provide a subsidy to their tenants. Therefore,
I am at a disadvantage in competing with the projects that offer a subsidy to their tenants. As a
result, the average occupancy rate at Schenectady 40 has been less than 50 percent since HUD
terminated the Schenectady 40 HAP Contract.

6
60a

Case l:12-cv-00005-EDK Document 73-2 Filed 01/16/18 Page 7 of 7

41. Because of the lower occupancy level at Schenectady 40 since HUD terminated the
Schenectady 40 HAP Contract in 2009, the income I have derived from Schenectady 40 has been
reduced by a significant amount.
I declare under the penalty of perjury that the foregoing statements are based on my
personal knowledge and are true to the best of my knowledge, information and belief.

H
Date

Ahmed Halim

1

61a

Case: 19-1478

Document: 35

Page: 83

Case l:12-cv-00005-EDK Document 38-6

Filed: 12/11/2019

H,edomm*f/./73

ATTACHMENT C
FORECLOSURE SALE USE AGREEMENT

This Agreement Is entered into by Sharif Abdelhalla______
Secretary of Housing and Urban Development ("Secretary" or- "HUD").

(“Purchaser*) and the
i .

WHEREAS, pursuant to the provisions of the Multifamily Mortgage Foreclosure Act, L2 u.S.C. sections
3701 et seq. {the "Act"), and the Department of Housing and Urban Development's regulations thereunder ar 24
C.F.R. Part 27, the Secretary has elected to exercise the nonjudlclal power of sale provided under the Act. or
pursuant to a judicial foreclosure the Secretary has elected to apply Section 367(b) of the Act, with respect to
description of which Is attached as Exhibit "A*; and
053 3503J,. {
j
p rty ) a legal
WHEREAS, pursuant to the Act and to provisions of 12 U.S.C Section 1701Z-U et seo. Management
and Preservation of HUD-Owned Multi family Housing Projects, and the Department of Housing and Urban
Development regulations thereunder at 24 CFR Part 290, the Senrecary has authority to Impose certain use
restrictions, as set forth In this Agreement, on the property subject to a mortgage held by the Secretary that Is
sold at foreclosure to a purchaser other than HUD; and
WHEREAS, by Deed executed this
day of Aunm-fr*
20o7. by
—the Project has been convaVed to the Purchaser; and
NOV/ THEREFORE, in consideration of the mutual promises set forth herein and In further consideration of
the sale of the Project to the Purchaser, the parties agree as follows:
1. TERM OF AGREEMENT - This Agreement shall be In effect,
0 twenty years from the date of this Agreement or

□

until

2. CONVEYANCE OF PROJECT
This paragraph
0 Is □ Is not applicable for tills property
During the term of this Agreement, any conveyance of the project must have prior written approval of HUD.
HUD'S approval of conveyance and/or the proposed purchaser's management of the property wilt be based on
information provided |n written statements of how the purchaser, or any subsequent purchaser, m
consideration of any and all existing use restrictions, will:
(a) Implement sound financial and physical management program;
(b) respond to the needs of the tenants and work cooperatively with resident organizations;
(c) provide adequate organizational stair and resources to manage the project.
3. NON-DISCRIMINATION REQUIREMENTS - The Purchaser will comply with the provisions of all Federal,
State, or local laws prohibiting discrimination in housing.
■ 4. HAZARD INSURANCE » Hazard Insurance shall be maintained In an amount to ensure that the purchaser Is
able to meet the requirements described in this Agreement. This requirement shall terminate upon the sale of
all homeownershtp units to Income-eligible qualified purchasers in accordance with Rider i of this Agreement.
£. DESTRUCTION OF PROJECT- In the event that any or all of the Project Is destroyed or damaged by fire or
other casualty, the money derived from any Insurance on the Project shall be applied to rebuild or replace
the property destroyed or damaged, unis* the Secretary gives written approval to use Insurance proceeds for
other purposes.
6. DEMOLITION OF PROJECT PROPERTY - The Purchaser will not demolish any part of the Project or
withdraw any part of the Project from use (except as temporarily necessary for routine repairs), without the
prior written approval of HUO,
7, REMEDIES FOR NONCOMPLIANCE - Upon any violation of any provision of this Agreement by the
Purchaser, HUD may give written notice thereof to the.Purchaser by registered or certified mall, addressed to
the address sated in this Agreement, or such other address as subsequently, upon appropriate written notice
thereof to the Secretary, may be designated by the Purchaser as Its legal business address. If such violation is
not corrected to the satisfaction of the Secretary within thirty (30) days after the date such notice Is mailed or
within such further time as HUO reasonably determines Is necessary to correct the violation, without further
notice, HUO may declare a default under this Agreement and may apply to any court, State or Federal, for
■ specilic performance of this Agreement, for an Injunction against any violation of this agreement, for the
appointment of a receiver to take over and operate the Project In accordance with the terms of this
~-r** Agreement, and/or such other relief as may be appropriate, since the Injury to the Secretary arising from a
default of the terms of the Agreement would be Irreparable and the amount of damage would be difficult to
ascertain.
The availability of any remedy under the Agreement shall not preclude the exercise of any other remedy under
any provision of the law, nor shall any action taken In the exercise of any remedy be considered a waiver of
any other rights or remedies. Failure to exercise any right or remedy shall not construe a waiver of the right
to exercise that or any other right or remedy at any time.

Ujs Agreement

I

GOV002014

Appxl47
62a

Case: 19-1478

Document: 35

Page: 84

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38-6 Filed 01/09/15 Page 3 of 9

8, SUCCESSORS AND ASSIGNS - Tills Agreement Is binding upon the Purchasers heirs, successors and
assigns. The Purchaser agrees that If title to the Project Is conveyed during the term of this Agreement, the
Purchaser will require Its purchaser to assume In writing Its obligations under this Agreement.
9- RESTRICTIONS - No Member of Congress-or Delegate to Congress or Resident Commissioner shall be
admitted to any share or part of the benefits of the Use Agreement, but this provision shall not be construed
to extend to this Use Agreement if the Use Agreement Is made with a corporation for !cs general benefit.
10. CONTRADICTORY AGREEMENTS - The Purchaser certifies that It has not, and agrees that It will not
execute any other agreement with provisions contradictory of, or in opposition to, the provisions of this
agreement, and that, in any event, the requirements of this Agreement are paramount and controlling as to
the rights and obligations set forth herein and supersede any other requirements In conflict with this
Agreement.
11. SEPARASIUTSf-The Invalidity or any provision of this Agreement shall not affect the validity of the
remaining provisions hereof.
12. AMENDMENT - This Agreement may be amended by the mutual written consent of the parties, except those
provisions required by statute.

IN WITNESS WHEREOF:
The Purchaser has executed this Use Agreement In triplicate this A4

nav at AtX<iA

20.22

""Tiyr"'

PURCHASER:

^

By:' SlgnatujAy

c:

Typed Name of Purchaser

^•*3 frU&AiU ba. Af-r tori
Street Address
niMfeiU. moCity, State, Zip Code
The U ^Department offusing and Urban Development (HUD) has executed this Use Agreements triplicate
WITNESS:

FOR;/ THE SECRETARY OF HOUSING
ANOfURBAN DEVaOPMSIjIl .
f\
BY:

TSirwi/d fi Herru
Official's Typed Name
Title

me A§Tt*m«nr

WILLIAM H, MELVIN
DIRECTOR, ATLANTA MULTIFAMILY
PROPERTY DISPOSITION CENTER

2

GOV002015

Appxl48
63a

Case: 19-1478

Document: 35

Page: 85

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38-6 Filed 01/09/15 Page 4 of 9

exhibit A to Attachment C
Legal Description
BEGINNING at a new Iron pipe located In the southern right-of-way of Hill Street, said point being located North
86 deg. 40 min. West 66.17 feet as measured along the southern right-of-way of Mill Street from
the center line of Robertson Street, thence along the southern rfght-of way of Mill Street South 86 deg 48 min
East 481.17 feet to a point at the Junction of right-of-way of Mill Street and Botfdle street thence
along the property of Sam Southerland South 86 deg. 48 min. East 299. 00 feet to an existing Iron pipe thence
along the property line of C. F. Ayscue South 02 deg. 57 min. West 784. 05 feet to an existing Iron pipe
at a Branch, thence along the Bren* North S3 deg, 20 min. West 441.32 feet to a new iron pipe at the Branch
thence North 44 deg, 04 min. West 116.13 feet to a new Iron pipe, thence North 55 deg. 26 min. West 378 91 '
feet to an existing Iron pipe at the Branch, thence leaving the Branch North 01 deg. 26 min. West 50. 00 feet to a
new Iron pipe, thence North 02 deg. 29 min. East 214.68 feet along the property line of Imperial Properties to the
point of beginning, containing 9,27 acres.

GOV002016

Appxl49
64a

Case: 19-1478

Document: 35

Page: 86

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38-6 Filed 01/09/15 Page 5 of 9
RIDER 1 OF S
CONVERSION TO H0M60WNERSHIP
The Use Agreement shall contain the following provisions:
(1)

The Purchase covenants to complete the required repairs within twenty-four (24) months of Closing
convert the property from rental to homeownershlp and sell the repaired homeownershlp units
to income-eligible qualified purchasers for use as their primary residence. Qualified purchasers are
defined as families or Individuals who’s Income does not exceed 80 percent of the area median income
with adjustments for smaller or larger families,
'

(2) The Purchaser covenants that the monthly mortgage payment £prn) for qualified purchasers will not
exceed 30 percent of 80 percent of area median Income (not the income of the family), as determined
by the Department, with adjustments for smaller and larger families. The determination of purchaser
■ eligibility and adherence to monthly payment guidelines will be made prior to execution of a Contract
of Sale for each homeownershlp unit,
(3) The Purchaser covenants that the deed-of-conveyance for the Initial sale of each homeownershlp unit
will prohibit renting the homeownershlp unit for a period of twenty (20) years.
(4) The Purchaser covenants not to rent any units, except to Income-eligible qualified purchasers for a
specified period of time not to exceed twenty-four (24) months under a lease-purchase contract of sale
The monthly rents under a lease-purchase contract of sale cannot exceed 30 percent of 80 percent of
area median Income (not the Income of the family), as determined by the Department, with adjustments
for smaller and larger families,
<S) The Purchaser covenants that the deed-of-conveyance for the Initial safe of each homeownershlp unit
will restrict subsequent conveyances to Income eligible qualified purchasers who are at or below 80
percent of area median Income, with adjustments for smaller and larger families, In accordance with
the requirements of Rider 2 of this deed.
(6) The Purchaser covenants that the deed-of-conveyance for the Initial sale of each homeownershlp unit
will set an upper limit on monthly mortgage payments (PIT!) on future conveyances to qualified
purchasers at 30 percent of 80 percent of area median income (not the income of the famlfy), as
determined by the Department, with adjustments for smaller and larger families, in accordance with the
requirements of Rider 2 of this deed,
(7) The Purchaser shall certify to HUD annually that the requirements In the above paragraphs have been
fulfilled until all of the homeownershlp units have been sold,

By Initialing hereunder the parties acknowledge that this Rider is incorporated into and Is a part of the Use
Agreement,
PURCHASER SAyf
SECRETARY OF HOUSING AND URBAN DEVELOPMENT

GQV002017

AppxlSO
65a

Case: 19-1478

Document: 35

Page: 87

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38-6 Filed 01/09/15 Page 6 of 9
RIDER 2 OF 5
AFFORDABILITY OF UNITS
The Use Agreement shall contain the following provisions:

!
use Restriction (appiieabie if checked)
*3 The Purchaser covenants that one hundred and eight [108) units In the Property svlil be converted to
homeowner-ship and sold to income eligible families and Individuals and maintained as affordable homeownsrsfilp
housing for a period of twenty (20) years after the date of this Deed or such earlier time as the Seller may
specify in writing (the."Restricted Period*), Any change In this number of units must receive the prior written
approval of the Seller.
O The Purchaser covenants that It will market affirmatively_____of the units In the project to very low-income
families, whose income at the time of Initial occupancy does not exceed SO percent of the area median Income
with adjustments for smaller or largerfamllles.
fncnme gllbffallltv Limitation
The Purchaser may only sell the number of units required to be affordable units to families who qualify as lowfncome and/or very low-income, as defined In Section 813 of the Housing Act of 1937, as amended, with
adjustments for smaller and larger families. The determination of whether the annual Income of a qualified
purchaser exceeds the applicable Income limit shall be made prior to execution of a contract for sale for each
ftorneownershlp unit.
□ Of the total number of affordable .units, _____ units may be targeted to families with
annual Incomes between 80 and_____percent of the area median income, with adjustments forsmaiter and
larger families.
Affordability of Msrtaaae Payments
Affordable mortgage payments means the monthly payment (Prri) does not exceed 3Qpen:ent of 80 percent of
the area median Income (riot the Income of the family), as determined by the Department, with adjustments for
smaller and larger families.
Additional Purchaser Covenants
(1)
The Purchaser covenants that It will hot unreasonably refuse to sell units to, or otherwise discriminate
against, very Sow-Income families.
( 2)

The Initial deed-of-conveyance for each unit sold to each qualified purchaser will restrict ait subsequent
sales of each unit to Income-eligible purchasers as defined In this Rider for a term of twenty (20) years
from the date of initial conveyance,

(3)

The Initial deed-of-conveyance for each unit sold to each qualified purchaser will require that the monthly
mortgage payment (PfTI) for all subsequent sales to Income-eligible purchasers must not exceed 30
percent of BO percent of the area median income (not the Income of the family), as determined by me
Department, with adjustments for smaller or larger families, for a term of twenty (20) years from the date
of Initial conveyance,

(4)

The Purchaser shall certify to HUD annually that the requirements In the above paragraphs have been
fulfilled until all of the units have been sold,

By Initialing hereunder the parties acknowledge that this Rider is incorporated Into and Is s part of the Use
Agreement.
PURCHASER SYrft'

secretary of housing and urban development

GQVQ02018

AppxlSl
66a

Case: 19-1478

Document: 35

Page: 88

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38-6 Filed 01/09/15 Page 7 of 9
RIOER 3 OF 5
POST-CLOSING REPAIR ESCROW REQUIREMENTS
The Use Agreement shall Include the following provisions:
1. Purchaser covenants to complete required repairs within twenty-four {24) months of dosing. To ensure
completion, the Purchaser shall provide to HUD, at dosing, One of the following, as determined by HUD:
a. Unconditional, Irrevocable and non-documentary Letter of Credit (IOC):
(1) an unconditional, Irrevocable and non-documentary letter of Credit (LOG) In the amount of
£L22LS£L with an expiration date at least six (6) months beyond HUD's estimated date for
completion of repairs. In the event an extension for completion of.repalrs Is granted, the LOC will be
extended accordingly, HUO may cash the LOC and apply the funds to correct latent defects In the
completed repairs if the Purchaser Is unable or unwilling to make such repairs within the six month
period, QfArsjichpumpsesasHUgjggmsappropriate;or,
{2)if repairs areperTorme3TnsSgSr3sagreedTJEortenFutt:haser and HUD prior to dosing, up to five
(S) LOCs may be provided to HUD. The fist LOC Will be equal to at feast ten percent (10%) of the
total estimated repair costs and such LOC shall remain in effect for a period of six (6) months after the
work has been completed to HUD’s satisfaction. If the Purchaser Is unable or unwilling to make such
repairs within the six-month period, HUD may cash this LOC and apply the funds to correct latent
defeas In the completed repairs, or for such purposes, as HUO deems appropriate. The remaining
LOCs provided to HUO will be In equal dollar amounts, the sum of which will equal the total required
LOG amount specified in paragraph (1) less the first LOC detailed above. Each of these remaining
LOCs will have an expiration date at least six (6) months beyond the estimated completion date for
repairs. The LOCs shall be returned to the Purchaser after the repairs have been completed to HDD's
satisfaction.
b. Performance and payment bonds meeting State and local codes as assurance of completion for postdosing repair requirements, as listed on Form HUD-95S2 and Its exhibits, or form HUD 9822.
Purchaser must use HUD Form-92452 for the payment bond and a form for tee performance bond teat Is
acceptable to HUD.
(1) Evidence of the existence of payment and performance bonds each In the amount of S5.170,269 [tee
total cost of repairs] must be provided to HUD.
(2) Purchaser must follow tee following requirements:
!. The surety entity Issuing the bonds must he Included on tee accredited U.S. Treasury list, Circular
570, published annually In the Federal Register on or about July 1 of each year;
II, The payment and performance bonds must not exceed limits listed In the Circular;
ill. The payment and performance bonds must show HUD as payee, along with Purchaser's
mortgagee, at tee mortgagee’s request
2, if the PurchaserfaUs to complete repairs in accordance with this Agreement, the Secretary will not exercise
the remedies as described in paragraph la{l), or request payment on the bonds secured Under paragraptvib,
above, If any lender holding a Hen or security Interest on tee Project:
a. Gives written notice to HUD within the period provided for repairs, that It Intends to complete the repairs,
b. Completes such repairs within 30 days of the notice or within such longer periods that HUO may approve
In Writing,

By Initialing hereunder, tee parties acknowledge that this Rider Is Incorporated Into and Is a part of the
Use Agreement,
PURCHASER ia#ScCRETARY OF HOUSING AND URBAN DEVELOPMENT

GOV002019

Appxl52
67a

Case: 19-1478

Document: 35

Page: 89

Filed: 12/11/2019

Case 1:12-CV-00005-EDK Document 38-6 Filed 01/09/15 Page 8 of 9
RIDER 4 OF 5
ASBESTOS HAZARDS
The Use Agreement shall include the following provisions:
(1) Purchaser agrees to indemnify defend, and hold Seller harmless from any .liability arising by reason of
Purchaser's failure to perform Purchaser's obligations under this Deed with respect to the elimination of
asbestos health hazards, the prohibition against the use of asbestos and Purchaser's responsibility for
complying with applicable State and local asbestos laws and regulations.
{2) If Purchaser fails to comply with (1), above, and no extension by written agreement has been granted by
Seiler, Seller and his successors In office shall be entitled to enter and terminate the estate hereby conveyed.

By initialing hereunder the parties acknowledge that this Rider is Incorporated Into and is a part of the Use
Agreement,
PURCHASER SiS??
SECRETARY OF HOUSING AND URBAN DEVELOPMENT

GOVOO2O20

Appxl53
68a

Case: 19-1478

Document: 35

Page: 90

Filed: 12/11/2019

Case l:l2-cv-00005-EDK Document 38-6 Filed 01/09/15 Page 9 of 9
,1 i

RIDER 5 OF S
LEAD-BASED PAINT HAZARDS

•

The Use Agreement shall Include the following provisions:
(1)

In order to comply with 42 USC §§4821-4886 and the regulations thereunder, 24 CFR Part 35 (the
•Regulations”), (applicable as checked)
Q
Purchaser covenants that the Property will be Inspected and tested for lead-based paint, and any hazards
will be abated In accordance with the Regulations.
S3
Purchaser covenants that any lead-based paint hazards will be abated In accordance with the Regulations
Purchaser shall certify ta Seller (In a fairn acceptable to Seller) and Sellor shall determine, through Its
Inspection (or at Its discretion, the inspection and certification of a local government official) that alt
lead based-paint hazards have been removed from the Property in accordance with the Regulations.

(2)

Purchaser understands and agrees that Seller's Inspection and finding of satisfactory performance Is not
Intended to and does not constitute a guarantee that all lead based-palntand all potential lead-based
paint hazards have been eliminated from the Property and does not relieve Purchaser of Its ongoing
responsibility for complying with all applicable State and local lead based-paint laws and regulations.

{3)

Purchaser agrees to Indemnify defend, and hold Seller harmless from any liability arising by reason of
Purchaser's failure to perform Purchaser's obligations Underfills Deed with respect to the elimination of
lead based-paint health hazards, the prohibition against the use of lead based-paint, and Purchaser’s
responsibility far complying with applicable State and local lead based-paint laws and regulations,

(4)

Purchaser agrees to comply with Section 35.88 “Disclosure Requirements for Sellers and Lessors’* and
Section 35,92 'Certification and Acknowledgment of Disclosure" of 24 CFR - Lead-Based Faint Poisoning
Prevention in Certain Residential Structures.

(5)

, If Purchaser falls to comply with (1), above, and no extension by written agreement has been granted by
Seller, Seller and his successors in office shall be entitled to enter and terminate the estate hereby
Conveyed,

By Initialing hereunder the parties acknowledge that fills Rider is Incorporated into and Is a part of the Use
Agreement,

PURCHASER iM.
SECRETARY OF HOUSING AND URBAN DEVELOPMENT

GOV002021

Appxl54
69a

Case: 19-1478

Document: 35

Page: 95

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 60 Filed 02/17/17 Page 51 of 89

buildings underway were still in progress.” Id. The remaining repairs were estimated at
$252,541.82. A! 102. On November 18, 2010, based on the November 1,2010 post-closing
inspection, HUD released the remaining available $6,629 to Mr. Halim from his repair escrow.
A1137. In total, Mr. Halim had received $313,640 from his $513,967 escrow. HUD explained
to Mr. Halim that the remaining funds “may not be released prior to completion of the latent
defect period,” after all repairs were completed. The remaining balance $200,327.. represented
10 percent of the original repair estimate in the Bid Kit.17 Id.
A UPCS inspection, A1157-69, and a post-closing inspection, All 39-56, were performed
at Meadowbrook prior to the January 15,2011 final repair deadline on December 20,2010.
A13 58. A City building official at the inspection “reminded Mr. Halim of the City's requirement
that all work be completed at the reference development by January 15, 2011.” Id. The UPCS
inspection report noted that only twenty-four of the un its had passed UPCS inspection
(approximately half of the units) and all four units that were inspected that day failed to meet, the
UPCS requirements. Id. Four additional units were not officially inspected because they were
“missing toilets and lavatories, PTAC units, and light fixtures.” Id. The report also noted the
unoccupied units that were previously completed on the interior remained without power and
conditioned air with resulting on-going problems with the flooring and ceilings. Id. According
to the inspection report, the repair estimate was $221,264.65, which represented approximately
89 percent completion. A1142.

17 Although the letter indicates that the balance was $206,956, that amount was the previous
balance in the September 29, 2010, letter. See GOV000869. The actual balance was $6,629 less,
or $200,327. In addition, the 10 percent that was retained is of the original repair estimate, not
the updated repair estimate on which Mr. Halim's $513,967 letter of credit was based. See
A581.
42

Appx215
70a

Case: 19-1478

Document: 35

Page: 154

Filed: 12/11/2019

Case l:12-cv-00G05-EDK Document 60-1 Filed 02/17/17 Page 295 of 533

J
tiS. Oe/unsMai mi BamJ** mi! Urfcta
■Vital* Moltlfnouy PmurtJ DI|[HJ*;ilij(iCtat*r
five. f'ojnsj ttKEt
■10

Afia***. €<#juJ iytrt.ajnK

^November i9,2#g
Mr. Ahmad Halim
213. Saint Helena.Ave.
Bollimoie, MD 212224219

0«r Mr, Helim:
Sttbjcci-: SchenecbHiy m Apartments
FHA No,-013-3 5196 .
Schenectady, NY
Tisis tetter is official notice 'that you sre in bleach of (he Forcciostire Sale Use
Afreememfl&eAgreement) «n.Seb«»eetady46 Apartments (iheProject). On July 6, 2006
ym purchased the Project amt agreed to the copditwos of to sale, inctudteg the terns of aider
2. P»4-Clo*Mg Repair Esaow. Reqttitets#iits-(Rider),. Tteltider require* &ai. the
redeveropmen! of the property he eaimpteled within 24 mentis, of closing. However, this has
not been done.
The latest post-dosmg inspection of Schenectady 40 Apatmarts conducted by lire tfj.
Department ofKoiising ami Urban Development's (MUD) AM Contractor on March 13, 200S
ntflccl* that only 32 percent of to tote] required repairs have been completed HUD'a A/E
Contractor has contacted ym on several occasions to try and schedule another inspection, but
you have not agreed to an acceptable date'and time.
Y<W roust submit, to HUDV Atlanta Muliifarrdly Property Disposition Center within JjU
day* of the date Of this letter, a schedule for (he satisfactory eompto'rsti of all required repairs.
Repairs roust be completed waMts twelve (12} otornlu Bum the- date oftMsf letter. .Any
eslttWiee Dp lime to complete the repairs roust fee approved: by HUD* If HDD does mt receive
a response undfora schedule acceptable lo the Department wilhiu 19 days Eram the date oClhis
telhar, HDD will take appropriate legal action, Including, hid pot limited in, roratt&pg tfia
S')-00,000 .cash- held in escrow by HUD lo ensure acceptable completion of lire repairs
If yon have any rptesiiens regarding Ihi* letter* contaei Jaa W» Haber, Attorney, Office
af Counsel«(08J 73241079
'.Sincerely,

William 31. Melvin
Ofnxlor
Atlanta Mull (family Property
Dfsposiiion. Center
«** .Fwtels ff*» * 44 Muitit* Stmt * AUiBtt,&V 3B3CWS36 « w^w.bBd.|^ * «*psm*fcu<tje»«

GOVC01223
A290

Appx548
71a

Case: 19-1478

Document: 35

Page: 252

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 60-3 Filed 02/17/17 Page 114 of 494
li.S. Department of Housing jind Urban Development
Atlanta MuUlfamily Property Disposition Center
five Points Ptaza
40 Marietta St,
A&mta, Georgia 30303-2506
tHto^VMiW'lHKS goWfccal'aH&ndeft .him*

December 2, 2011
Mr- Ahmad Halim
21.' Si. ilclcmi
Baltimore, MD 21222
CTRI1F1ED MAIL

RETURN RECEIPT REQUESTED

Dear Mr. Halim:
SUBJECT:

Notice of Violation
Project Name: Meadtnvbrook Apartments
Project Number: 065-35587
Project Location: Meridian. MS

This letter constitutes formal notice by the U.S, Department of Housing and Urban
Development ("HUD”) that you. as the owner of Meadow Brook Apartments ("Project." or
•Property"), are in violation of the Foreclosure Sale Use Agreement (Use Agreement”) that you
executed on or near January id, 2007. As a result, you are also in violation of the Housing
Assistance Payment (HAP) Contract for the Project that was executed on the same date.
Copies of the Use Agreement and HAP Contract are attached.
You have performed some repairs after HUD. in 2009. declared you in default of the
Use Agreement and cashed the Letter of Credit rLOC") held by HUD to assure completion of
the repairs. Subsequently, HUD granted you an extension of time to complete the repairs until
January 31.2010. The proceeds of the LOC have been held in escrow since May. 2009 and
HDD Isas released some of the funds to you as repairs were performed. However, you are
currently in violation of the Use Agreement and the HAP Contract for failure to complete the
repairs required by the Use Agreement and the 1-1A P Contract and for failure to maintain units
In a decent, safe and sanitary eimduion. This violation notice supersedes violation and default
in it tecs previously sett! !<> you on or before February i, 20! (I.
You arc m violation of Section I. para graphs f c. and Ld. of Ruler* of the Use
Uifcemcnt, because neatly 2 yearsotter the lime cxteiutoit deadline, you have tailed u>
complete the required repairs. A- von know <wo Hi 'D via) f members condticietl an mspeelton
n die Project on November fft 2<!t i During then inspection, thev observed that
.ippiio.imareh in of (be units m the Protect are occupied Many o! the unoccupied units are
liumhiibiuibie a» tltcv lack, among other things, certificates »<l occupancy, plumhtrm. electrical
work and appliances. I he occupied units arc >imtiurf.v deficient in that, many have no heat and
■Il.su have faulty efcetrie service, leaking gas, and other stfety ha/.ints Based on the findings of
! It *D s inspection, it is obvious ihal atlcii'stvt repairs .ire necessary n» brmg die pr<-iec» m*<

GOV025345

A1191

Appxl459
72a

Case: 19-1478

Document: 35

Page: 253

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 60-3 Filed 02/17/17 Page 115 of 494

compliance with HUD's Uniform Physical Condition Standards anti that you are. in material
violation of your repair obligations.
You are also in violation of Section 2, paragraph 3.e, of Rider 6, The Ciiv of Meridian
has condemned two of the buildings in the Project which shows that, the Project has not been
repaired in accordance with applicable local codes, ordinances, and regulations. You arc in
further violation of this requirement because the repair work at die Project is, in many
instances, being done in violation ol local building codes by unlicensed workmen.
These violations under the Use Agreement are also violations under the HAP Contract.
See Section 2, paragraph 5 of R ider 6, Therefore, if file violations are not corrected to HUD's
satisfaction. HUD Will impose one or more of the remedies outlined in the HAP Contract.
These remedies include termination or reduction of housing assistance payments, and
termination of the H AP Contract. You must correct the v iolations described above within 30
days of the date of this Notice, if you do not make these corrections to the satisfaction of
HUD. HUD intends to terminate the HAP Contract and retain the balance of the caslt repair
escrow.. Further. H UD reserves the right to take any remedy a vailable under the Use
Agreement or any other remedy available under law or equity.
For the reasons described in this Notice. HUD will flag the Owner in HUD'S Active
Partners Peribmiunce System (APPS). This flag may adversely affect the Owner’s eligibility for
participation in HUD programs, under HUD’s Previous Participation Certification procedure,
by constituting a standard for disapproval.
HUD may continue its review of all contractual agreements between the Owner and
HUD beyond the matters identified in this Notice. If HUD determines that there are additional
contractual violations or defaults, HUD's subsequent declaration of arty such violations or
defaults will not affect the requirements set out in this Notice.
i f there are any questions concerning this matter, please contact Anthony
Osborn. Sales Chief, at 67S.732.2760.
Sineerdy,

$€t>tl R. Bearden
■‘ Acting Director
Atlanta Muklfamily Property
Disposition Center

finclosiirrs.

A1192

Appxl460
73a

GOV02S346

Case: 19-1478

Document: 35

Page: 360

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 60-3 Filed 02/17/17 Page 494 of 494

fctS-A-PUGLJESE 30(b)(6)

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

25
1
2
3>
4
5
6
7
8
9
10
11
13
13
14
15
16
17
18
.19
20
21
22
23
24
25

Page 42
425® 43
Were there
1 done the same day?
any other disbursements fron that escrow account?
2
A.
Yes, there was.
A.
There was a $45,000 disbursement that was
3
Q.
Although only twounits wereinspected as
provided at dosing for the deposit that Mr. Halim
4 part of the UPCS, right, on this day?
put down with the bid package.
5
A.
Correct.
Q.
So there was one $45,000 diabursanent and
6
Q.
But as part of the post closing, would
then the two that you looked at in these exhibits?
1 more of the units and also the general condition of
A.
That's correct.
8 the building be inspected?
Q.
And so what Is the final balance of the
9
A.
Yes.
escrow approximately^HALIMvs.urorKDstates'1^HJOUIfTi)3‘,'-b''61 Q.
Do you recali^approximately what
A.
Approximately $203,000,
11 percentage of the repairs were complete as of that
Q.
According to the Final Inspection Report
12 post closing in Hatch of 2008?
that was done in approximately August 2009,
13
A.
It was still only 10 percent.
approximately what percentage of the repairs had been 14
Q.
And if I could just have you look hack at
completed?
15 Exhibit 5 for a minute, Noe, this letter was issued
A.
About 30 percent.
16 in June of 2009; tight?
C.
So Mr. Halim actually received a larger
17
A.,
Correct.
percentage of the escrow than the repairs that were
IB
QAnd it followed an inspection that was.
completed?
19 done in March of 2009; right?
A,
Bat's correct.
20
A.
Correct.
Q.
Now, just ask you to look back at Exhibit
21
Q.
And that inspection, do you recall hew
3 for a minute. Now, this is a UPCS inspection;
22 many of the units were inspected as part of the March
right?
23
2009 Inspection?
A.
Correct.
24
A.
I believe all of them.
Q.
Was there also a post-closing inspection
25
Q.
And the previous inspection had been in
Page 44
early March of 2008; right?
1
■A.
Yes.
2
Q.
So this March inspection in 2009 was more
3
than a year later?
4
A.
Correct,
5
<2.
And do you recall approximately how many
6
of the units passed at that tine?
7
A.
None of then.
8
Q.
Bo you recall approximately what
9
percentage of the repairs were complete in the
10
post-closing inspection at that time?
ii
A.
Still coly about 30 percent.
12
Q.
So in between March of 2008 and March of
13
2009, had there been ouch work cdepleted in terms of
14
the post-closing repairs?
15
A.
No.
36
Q.
Turning to Exhibit 6, this is the letter
17
from Lou. New there was an inspection in August SfB.'MS mb
2U2.S98
2009; right?
A.
Yes,
20
Q.
So would that inspection haveverified
21
whether or not the work that Mr. Kagliocca talked
22
about had been ccmpleted?
23
A.
It would.
24
Q.
Do you recall approximately how many of
25

W

fjQlendei* Legal Solutions
\ hWiAl

Page 45
the repairs were completed or how many of the units
passed in the August of 2009 inspection?
A.
None of them.
Q.
And approximately what percentage of the
repairs were camlets at that time?
A.
Still only around 30 percent.
Q.
And so from March of 2008 until August of
2009, how much of the post closing work had been done
approximately?
A.
Overall total, about 33 percent.
0.
Specifically sort of between the March
2008 inspection and the August 2009, like
approximately?
A.
less than 10 percent.
Q.
So how likely is it that, freer August 2009
until October of 2009, that all of the — all of the
units could have passed inspection?
A.
Iteyv ekn4CTeponing.com

mr.
Objection. Calls
for speculation.
0{By Ms. Koenig) I mean in your
understanding and experience, how likely is it that
those repairs could have been completed in the few
months between August and October?
A.
Unrealistic.

202.898,1108

Ajhtik^t* Cnmjwnu-

A1571

Appxl714
74a

wm^olcnderreportircg-.eomWorldwide Coverage

Case: 19-1478

Document: 35

Page: 366

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 7 of 15
2~iwtny O'iSnipeziian. Ojivijinn

(60t) 485-1900

U‘UHv. mondian.nvi.ora

the City of

MEJ%)IAN
....... -CfiRWlGATi-OE-OCCURAMCy.
NO: 10647

ISSUE DATE:

« i

2/16/2012

This will certify that a residence
has been canstructed/remodeied for
VALLEY VIEW APARTMENTS
located at 4311 STH STREET BUILDING #9
.
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
Building Permit No:
Building Permit Not
MS Power Co/EMEPA No:
Atmos Enery Co No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55747
$5828
55909
$6764
22114
3064
8936
10411
10690

&ildir.a Official

“..............................................................................

&T
i

!!
A-S

PLTP 000121

Appxl763
75a

Case: 19-1478

Document: 35

Page: 367

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 8 of 15
Zoning S? .3njptcl:
’/up >cn 'Z)ivU'.on

(&0iJ485-1900

iAitinnrtxi.org

the City of

MEKLDMN
CERTJFKATE OF

occupancy

NO: 10653

ISSUE DATE:

3/23/2012

This will certify that a residence
has been constructed/remodeied for
VALLEY VIEW APARTMENTS
located at 43 U 5TH STREET BUILDING #6
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
MS Power Co/EMEPA Not
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55827
55907
22112
23255
3041
3130
8981
9223
I03S9
10815

Building Official:

Br.

£Ji, L-P.

^z

A-7
PLTF 000123

Appxl764
76a

Case: 19-1478

Document: 35

Page: 368

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 9 of 15

Document

»v &
2U

2)

Page 16 of 49

PAGE

84/87

{60//48S-1WQ

4*21*9*

Wato4itt%tndui*mi.wy

CERTIFICATE OF OCCUPANCY
NO: 10659

ISSUE DATE:

S/22/2012

This will certify that s residence
has been construetad/remodeled for
VA11EY VIEW APARTMENTS
located tt 4311 SIB STREET BUILDING 5
________
according in the Building Code of die City of Meridian and is your authority to
connect your utilities ‘according to your final inspection certificate number.

BtriWfag Permit No: 55747
Beading Permit No: 55824
BuEding Fcnmt No: 5599$
BufidBag Permit No: 5659$
MS Power Co/EMEPA No: 22431
MS Power Co/EMEPA No: 23361
Atmos Easy Co No: 3352
Atmos Enesj Co No: ■ .3131
Medtsaktl Fennii No: 8988
MssMisa Water & Sewer No: 10442
Meridian Water St Sewer No: 11819

&i^QM

4-

■A-a.
PLTFOOCHiS

Appxl765
77a

Case: 19-1478

Document: 35

Page: 387

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 90 Filed 08/09/18 Page 13 of 33

In accordance with HUD’s process of declaring a default, a party’s actual deadline for a
default is the time specified in a Notice of Violation to correct any alleged de fault. In this case,
Plaintiff would normally have had between January 15, 2011, the original deadline, and January
1.2012, thirty days from the December 2, 2011 Notice of Violation, to complete the repairs at
Meadowbrook. Except, however, even though Plaintiff had been making steady progress in
completing the repairs at Meadowbrook such that Plaintiff had completed 89% of the repairs by
December 20, 2010, A3142, Plaintiff could not make any of the remaining 1 i% of the repairs
after January 15,2011 until 2012 because Meridian9 had issued a stop-work order and had
threatened Plaintiff with arrest if he violated the order. Dec. ff 24-27, App. 4.
Defendant observes that the certifi cates of occupancy issued by Meridian “are ail dated
after HUD terminated Mr. Halim’s Use Agreement and HAP contract on February 8,2012 ”10
Resp. 19. Therefore, according to Defendant “the certificates of occupancy have no bearing on
whether Mr. Halim completed the repairs by the contractual deadline.” Id.
Plaintiff does not claim that the certificates of occupancy are evidence that Plaintiff
completed the repairs by January 15,2011, Rather, Plaintiff asserts that the certificates of
occupancy are evidence that Plaintiff would have completed the remaining 11% of the required
repairs by the actual January 1,2012 deadline if Plaintiff had not been precluded from
completing the repairs by the stop-work order.
With respect to Plaintiffs impossibility argument, Defendant argues that “Mr.- Halim
cannot shirk his obligations under the contract' for four years, then claim impossibility to be
' Meridian refers to Meridian, Mississippi, the city in which Meadowbrook is located.
10 As noled by Defendant, Plaintiff only provided certificates of occupancy *sfor only three of the 12 buildings."
Resp. 19. Plaintiff intends to provide certificates for the other buildings if there is a trial.

9

Appxl849
78a

Case: 19-1478

Document: 35

Page: 388

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 90-1 Filed 08/09/18 Page 17 of 20

To:
From:

Gordon-Bertson, CynlhiaiCynsma.Gordoneenson@hud.aav]
Kden g®®inJVW|,|win-Wallace@hud-3ovl; GreSo. Edward G[Edward.C.Grega@hud.govJ

Sent*
Ffl S/S/201 i9:04:08 PM
Apartm^ntsT^ CQrnplianCe Monitof)nS Review Summary Report (Beacon Light-Goodwill Baxter
Beacon Liohi-Goodwili Baxter Apartments PDF
Beacon Light -Timeline.rinnx
Thanks Cynthia great comments. An NOV and NOD is the first thing that should occur, Let me
get Eddie and Wii Lwm involved as well to ensure they do not have anvthine further and we can
move forward with the NOV.
'

Thanks

From: Gordon-Benson. Cynthia
Sent: Tuesday, August 06.2013 8:45 AM
To: Bearden, Scott
Apartments)* Comp,iance Manitoring R8Vi6'*- Summary Report (Beacon Ught-Goodwiil Baxter

HiScott,

IVe completed my review of the file documentation for Beacon Light. fV attached a timeline
of events drat appeared to be significant Based on my review t don’t Feel we are ready to refer
tuis property to DEC. I have found no record where we have sent to die owner a NOV or NOD
letters. Pm assuming the owner lias not been flagged hi APPS if the NOV and NOD letters have
not been sent; 1 only saw one letter dated March 1L 2009 that could be considered as a posable
warning letter. It does not appear there has been any communication with the owner since a
tetter dated June 28,20U.

I® uncertain if there is still pending litigation regarding the property. 1 don't know the details
Or the litigation. However, there appears to he a remaining cash escrow funds:

.415
GOV003889

Appxl886
79a

SCREEN04

,Certificate, ,af, Occupancy Inquiry,

•i

CO Number: ,1,0,55,8,

Owner: VALL£,V,VI.E.w[ APARTMENTS......
Address: ,43,11 ,5,T,H, S,T,RE,ET,,B,UI,LDING, ,2, , , ,

...... Building ,P,ermi,t, No,:
, , MS, .Power, Co/EME.PA No,:
, , MS .Power, ,Co/,EME,PA No:
, , MS, .Power, ,Co/,EME,PA No:
, , MS,.Power, ,Co/,EME,PA No:
, , MSPower, Co/EMEPA No,:
, , Atmos, ,E,n,er,y, Co, No:
............ Atmos ,E,n,er,y, Co, No,:
...... Mechanical, .Permit No:
Meridian, ,W,d,t,er, & Sewer. No,:
Meridian, Water, & Sewer, No,:
i

i

iiit

i

i

i

i

i

i

i

iiii

i

i

BIPM22R

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

i

t

553,1,7.
2,16,13
2.16.1.4,
2.16.1.5,
2,16,1,6
2,17,9,1,
,299,5
3,02,9,
,8,83,8
1014,8
103,60
i

i

i

i

i

i

,F,lsHe,lp,, ,F,2sCan,cel. .Enter, ,to .Confirm
The end of the file was reached.

o'
2
*7

\
\

i
j

■ I

i

•'

t

■'

'•

80a

v

(601)485-/900
2onim & 3nipection Jhwiiion
www.meriaiantM.org

■

the City of

MERjpAN
CERTIFICATE OF OCCUPANCY
ISSUE DATE:

NO: 10692

has been constructed/remodeled for
This will certify that a business
APARTMENTS VALLEY VIEW
located at 4311 5TH STREET BUILDING #3_________ _____
.
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

BJk

55912
57847
22271
23719
3051
3171
9417
10361
10441
11026

“icial:

BIST

y?Ts"

I#_

2oniny & Smaectlon 17)iviiion

fool) 485-1900

www. menaianms. oref

the City of

MERIDIAN
CERTIFICATE OF OCCUPANCY
NO: 10653

ISSUE DATE:

3/23/2012

This will certify that a residence
has been constructed/remodeled for
VALLEY VIEW APARTMENTS
located at 4311 5TH STREET BUILDING ft6 _____________________
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55827
55907
22112
23255
3041
3130
8981
9223
10389
10815

BuiUiny Official

Bp

82a

2onine] O’ *$nipection O^ioUion

(601)485-1900

Ji

www. meridiatimi. ore}

the City of

MEMHAN
CERTiFICATE OF OCCUPANCY
NO; 10715

ISSUE DATE:

4/10/2014

This will certify that a residence
has been constructed/remodeled for
APARTMENTS VALLEY VIEW
located at 4311 5TH STREET BUILDING 7
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water <& Sewer No:

55669
58244
22259
23960
3046
3205
9526
10401
11140

EuitJing Official.

Br.

83a

/Pi~<

Zoning & Snipeclion ^biviiion
www, mori<lian.mi.o-rg

(60t) 485-1900

the City of

MEEHAN
CERTIFICATE OF OCCUPANCY
NO: 10647

ISSUE DATE:

2/16/2012

This will certify that a residence
has been constructed/remodeled for
VALLEY VIEW APARTMENTS
located at 4311 5TH STREET BUILDING #9_______________________
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55747
55828
55909
56764
22114
3064
8936
10411
10690

\

iSuilcling Official:

*7
84a

Zoning & JlnApection t'bivtiion

(60 fj 485-1900

www. menaianmi, org

the City of

MEEHAN
CERTIFICATE OF OCCUPANCY
NO: 10659

ISSUE DATE:

5/22/2012

This will certify that a residence
has been constructed/remodeled for
VALLEY VIEW APARTMENTS
located at 4311 5TH STREET BUILDING 5
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55747
55826
55906
56596
22431
23301
3052
3131
8980
10442
10819

Building Official

By

85a

Si

(601) 485-1900

2oniiuj & SnipactUm ^bwUion
www, meridianmi, orq

the City of

MERPAN
CERTIFICATE OF OCCUPANCY
ISSUE DATE: 12/11/2012

NO: 10677

has been constructed/remodeled for
This will certify that a residence
VALLEY VIEW APARTMENTS
located at 4311 5TH STREET BUILDING #10
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55910
57625
23394
3053
3140
9312
9386

10366
10443
10930

86a

Zoning

Jlnipection. ^biviiion

(60 tj 485-(900

wwui. nwnaianmi, orq

the City of

MEgpflN
CERTIFICATE OF OCCUPANCY
NO: 10682

ISSUE DATE:

2/26/2013

This will certify that a residence
has been constructed/remodeled for
VALLEY VIEW APARTMENTS
located at 4311 5TH STREET BUILDING 11
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
Building Permit No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

55830
57810
23628
23643
3160
10365
10999

EuiUlng Official

4.
87a

'Rkd 'Vjmsj

Zoning & SnAneclion ,2)iuiiion
wwui, inert dianmi.org

(60t) 485-1900

the City of

MEItjpiAN
CERTIFICATE OF OCCUPANCY
NO: 10589

*

ISSUE DATE:

3/11/2011

This will certify that a residence
has been constructed/remodeled for
VALLEYVIEW APTS BLDG 12
located at 4311 5TH STREET BUILDING 12_______________________
according to the Building Code of the City of Meridian and is your authority to
connect your utilities according to your final inspection certificate number.

Building Permit No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
MS Power Co/EMEPA No:
Atmos Enery Co No:
Atmos Enery Co No:
Mechanical Permit No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:
Meridian Water & Sewer No:

54983
21416
21423
22324
22342
3030
3063

8935
10068
10336
10364

tStiildin

88a

i

I

Case: 19-1478

Document: 35

Page: 2

Filed: 12/11/2019

TABLE OF CONTENTS
joint Appendix
Page:
judgment
filed November 21,2018
Opinion and Order
filed November 19,2018
Docket Entries*

Appxl

««' • toto to*** •««••« ••**•*««* to

to «•»• *

to to to to to to to to to to' to to to to to • to to to to to to to to to to to to • • to '

Fourth Amended Complaint,
With Exhibits,
filed January 9,2015.

* * • •• • • • * to •* to 'to >■ to to ■ •

to * to to to to to to to * to

to

*■

to

«

Appx2

Appx34

.. Appx42

Exhibits:
3*

Meadowbrook Foreclosure Sale Use Agreement
dated December 6,2006

Appxl08

Beacon Light Foreclosure Sale Use Agreement
dated August 28,2007

Appxl47

to to to to to to to *

6.

tot- to to • .<* to' to to to to to' • to • • to -to to • • to to *

-i-

89a

Case: 19-1478

Document: 35

Page: 3

Filed: 12/11/2019

Defendant's Motion for Summary judgment,
With Appendix,
filed February 17,2017* • •

Appxl65

Appendix:
Nichols Townhomes (The Ohio Property)
Nichols Townhomes Bid Kit
dated May 12,2006. ...

<. Appx259

Nichols Foreclosure Sale Documents
dated May 12,2006. .

.. Appx371

Letter to Mr. Halim re: Closing date
dated May 23,2006. .........

Appx387

Mr. Halim's Management Documents
dated June 1,2006.

Appx389

Letter to Mr. Halim re: Management Documents
dated June 9,2006............ *................

Appx406

Letter to Mr. Halim Rejecting Bid
dated June 23,2006........

Appx432

Schenectady 40 Apartments (The New York Property)
New York Use Agreement
dated July 25,2006.. .

* • * *

Schenectady 40 Bid Kit Attachments E & F
dated May 31,2006.

• I

-11-

90a

% «

Appx446

... Appx465

Case: 19-1478

Document: 35

Page: 4

Filed: 12/11/2019

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Schenectady 40 Apartments (The New York Property), Continued:
UPCS Inspection
dated November 10,2006

****••»*•*••••*.**• + -**.'«#»«*#

Post-Closing Inspection
dated March 13,2008.

AppxSOO

Appx533

Notice of Breach
dated November 19,2008

**•♦***•••■*♦■***•»•***

*••

«

«

Letter to Mr. Halim re: Inspection
dated March 16,2009. ......
UPCS Inspection
dated March 31-April 1,2009.
Post-Closing Inspection
dated March 31-April 1, 2009. .

Appx548

Appx549

'*:•-**« •

• « - « * <•

AppxSSO

.. Appx647

Notice of Default
dated June 22,2009

Appx664

UPCS Inspection
dated August 11,2009...,

» * * * 4.4 4 4 4 • *'•**••'•'*'*• •

Post-Closing Inspection
dated August 11,2009....

-iii-

91a

•*

. Appx666

Appx761

Case: 19-1478

Document: 35

Page: 5

Filed: 12/11/2019

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Schenectady 40 Apartments (The New York Property), Continued:
Notice of Abatement
dated October 6,2009

Appx778

Notice of Abatement and Termination of HAP Contract
dated October 30,2009......... .................... ..............

Appx779

Letter to Mr. Halim re: Escrow Release
dated July 7,2010
•*

* «

»

<k

* a • « * « * * 4

* «

«

,

««.*'* 4 * a

.. Appx781

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Meadowbrook Apartments (The Mississippi Property)
Meadowbrook Bid Kit
dated August 4,2006

.. Appx792

UPCS Inspection
dated January 25,2008,

Appx875

Post-Closing Inspection
dated August 13,2008

Appx892

4 *

UPCS Inspection
dated August 13,2008.....

• * a • a.***-.*.# 4

-iv-

92a

* * «

*

4

* * «

«

* *

.. Appx908

Case: 19-1478

Document: 35

Page: 6

Filed: 12/11/2019

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Meadowbrook Apartments (The Mississippi Property), Continued:
Notice of Violation
dated February 6,2009

Appx940

Notice of Default
dated May 4,2009

Appx942

Post-Closing Inspection
dated January 25,2010,

Appxll57

UPCS Inspection
dated January 25,2010

Appxll83

Letter to Mr. Halim re: Escrow Release
dated January 28,2010..

Appxl204

Letter to Mr. Halim re: Granting Extension
dated April 5,2010.
•

r '•*«*>* A

# -4 •

k «#*'•• •

Post-Closing Inspection
dated July 22,2010

Appxl238

Appxl289

UPCS Inspection
dated September 29,2010.
UPCS Inspection
dated November 1,2010

»4*4**a« * a * a a

»v-

93a

. Appxl351

«»*««*

Appxl383

Case: 19-1478

Document: 35

Page: 7

Filed: 12/11/2019

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Meadowbrook Apartments (The Mississippi Property), Continued:
UPCS Inspection
dated December 20,2010

Appxl425

Email from Mr. Roberts to HUD re: Repair Deadlines
dated January 26,2011........................................
Internal HUD Memo re: abatement
dated September 23,2011.
Notice of Violation
dated December 2, 2011..
Post-Closing Inspection
dated January 25,2012. ....
Notice of Default
dated February 2,2012. *

*

•

Appxl438

«

«' ♦

Appxl458
Appxl459

* .«

....... Appxl462

• :• • •

• •

Appxl487

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Beacon Lights Apartments (The North Carolina Property)
Beacon Light Bid Kit
dated June 12,2007,

Appxl490

North Carolina Use Agreement
dated August 28,2007• »

Appxl519

-vi-

94a

Case: 19-1478

Document: 35

Page: 8

Filed: 12/11/2019

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Beacon Lights Apartments (The North Carolina Property), Continued:
Letter to Mr. Halim re: Repairs
dated March 11,2009. ...,

Appxl531

Letter to Mr. Halim re: Extension
dated June 3,2009.........

Appxl532

Letter to HUD from City re: August Resolutions
dated August 12,2009..
*•»«*■»*
*•»*

. Appxl533

*'«»«•
•

Mr. Halim's Application for Special Use
Permit and Variance and the City's Decision
dated October 9,2009....................... ...

Appxl540

Letter to HUD from City with Attachments
dated October 30,2009 *

Appxl545

Letter to Mr. Halim re: Nichols,
Schenectady, and Beacon Light
dated February 3,2010.

Appxl623

**■»••»*■**<**.♦#****- 4

Letter to Mr. Halim Denying Reconsideration
dated March 31,2010.
^,

**

Letter to Mr. Halim Stating HUD's Intention to Use the
Repair Escrow "In a Manner it Deems Appropriate"
dated June 29,2010......... ......................................

-vii-

95a

. Appxl625

Appxl626

Case: 19-1478

Document: 35

Page: 9

Filed: 12/11/2019

Appendix to
Defendant's Motion for Summary Judgment
filed February 17,2017, Continued:
Beacon Lights Apartments (The North Carolina Property), Continued:
MOU between HUD & City re: Demolition
dated October 27,2010........ .

Appxl627

Letter to HUD from City re: MOU
dated September 14,2011. ..

Appxl636

Deed Transfer from Sharif Halim to Mr. Halim
dated June 26,2012....
%<**♦**.•*«**• *

•

Appxl648

Transcripts
Excerpts of Deposition of Tim Roberts
taken on March 15,2016.............
Excerpts of Deposition of Lisa Pugliese
taken on June 17,2016

,. Appxl651

**•••♦■♦****■•••#'•#*•*■•.*■*■»**•»**’*

Plaintiffs Opposition to Defendant's Motion for Summary
Judgment and Cross-motion for Summary Judgment,
With Appendix and Attachment,
filed January 16,2018......................................... .

Appxl712

Appxl715

Appendix:
Email from Conley Andrews to Alvin E. Braggs
dated July 13,2006............... .......... .

-viii-

96a

Appxl762

Case; 19-1478

Document: 35

Page; 10

Filed: 12/11/2019

Appendix and Attachment to
Plaintiff's Opposition to Defendant's Motion for Summary
Judgment and Cross-motion for Summary Judgment
filed January 16,2018, Continued;
Certificate of Occupancy issued by the
City of Meridian, Mississippi
dated February 26,2012.........

Appxl763

Certificate of Occupancy issued by the
City of Meridian, Mississippi
dated March 23,2012 « »

...... Appxl764

Certificate of Occupancy issued by the
City of Meridian, Mississippi
dated May 22,2012.............

Appxl765

Letter from Elisa B. Wickham, City of Schenectady,
New York Code Enforcement Coordinator
dated October 9,2009.......................

Appxl766

Excerpts of deposition of Lisa M. Pugliese
taken on June 17,2016.____ • * • •
*'*•« •••>« « .... Appxl767
Attachment:
Declaration of Ahmed Halim
sworn on January 15,2018...

-IX-

97a

Appxl772

Case: 19-1478

A

Document: 35

Pagef 11

Piled: 12/11/2019

■'I-.-.':.-

Plaintiff's Reply to Defendant’s Response to
Plaintiff's C^oss^ptiopiprSuinmary Judgment
With Reply Appendix
filed August 9,2018
/■

■*

i.

Appxl837

Appendix:
HUD Email Chain
various dates in 2011

. Appxl886

:|
:!

■

-XI*
I

5

98a

Case: 19-1478

Document: 35

Page: 369

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 10 of 15

City of Schenectady, New York
Bureau of Code Enforcement
Room J7A - City Hail -105 Jay Street
Schenectady, New Yoik 12305-1938
Tel, No, (518) 382-5199 Exi 5470
Keith Lamp
Building Inspector

Octobers, 2009
Schenectady Forty Properties
llfit

748 Albany Street
752 Albany Street
760 Albany Street
779-783 Albany Street

953 Albany Street
958 Albany Street
17 Grove Place
599 Hamilton Street

308 Schenectady Street
3132 Schenectady Street

To Whom It May Concern::
This ictter is to inform you that the above referenced properties have no outstanding
violations and have a rental inspection certificate for all tenants living there. Since Mr. Gibson has
been managing the properties all permits have been obtained for any and all work or violations if
any, all complaints have been addressed within 4S hours arid every property has passed
inspections. Keep up the good work, and thank you for being so cooperative.
If you have any questions please do not hesitate to call me at (51S) 382-5199 ext 5470;
Thank you for your immediate attention in this matter.
Sincerely,
Elisa B. Wickham
Code Enforcement Coordinator
City of Schenectady

A-9
GOV02S677

Appxl766
99a

Case: 19-1478

Document: 35

Page: 370

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 11 of 15

LISA PUGLIESE 30(b)(6)
AHMAD HALIM vs. UNITED STATES
X

06 17-20! 6

IK THE UNITED STATES COURT OF FEDERAL CLAIMS

2
AHMAD HALIM
.3
Plaintiff,
4
'VS .
5
6

FILE NO. 12-SC
THE UNITED STATES OF
AMERICA,

7

ORIGINAL

Defendant«

8
9'

VIDEO.TELECONFERENCE 30(b) (S) DEPOSITION OF
10
LISA. M. PUGLIESE
II
12
June 17, .2 016
13
10:3-0 a.m .
14
IS
40 Marietta Street., SIN.
3rd Floor'
Atlanta, Georgia

16
'17
IS

L.. Lynn .-Howell , CCR-B-S92
19
20
21
.22.
23
24.
•V.

25
......................

CjQlemlei* Legal Solutions
‘ f.*

, ttf.. f

A-10

Appxl767
100a

vw.olenderrcporti ng.com
Worldwide Coverage

Case: 19-1478

Document: 35

Page: 371

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 12 of 15

LISA PUGLIESE 30(b)(6)
AHM AD HALIM vs. UNITED STATES
1

A.

2
.3

Would you give Ms. Pugliese

Exhibit 8, please.

(Plaintiff's Pugliese Exhibit 8 was marked
for identification,)

6
7

Correct.
MR, COAN:

4
5

06/i 7/2016
35

THE WITNESS:
Q.

(By Mr. Goan)

Okay,
Okay.

And this is a letter

8

dated October 3, 2009,, from Elisa Wickman -- Wickham#

5

code enforcement coordinator for the City of

10

Schenectady? is that correct?

11

A.

Yes.

12

Q.

This letter states that there are no

13

outstanding violations at the Schenectady 40 Project?

14

is that correct?

15

A.

It does.

16

G.

And that there was a rental inspection

17

that the city — the City of Schenectady had issued a

18

rental inspection certificate for all the tenants

19

living at the project,* is that correct?

20

A.

Yes.

21

Q.

And that all permits have been obtained

22

for any and all work or violations, if any, and all.

23

complaints have been addressed within 48 hours and

24

every property has passed inspections ? is that

25

correct?

^Slender Legal Solutions
A-11

Appxl768
101a

vrv .olenderreporting.com
Worldwide Coverage

Case: 19-1478

Document: 35

Page: 372

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 13 of 15

LISA PUGLIESE 30(b)(6)
AHMAD HALIM vs. UNITED STATES

06-17.2016
36

1

A.

Yes.

2

Q,

And this letter is dated approximately two

3

months after the reinspection of Schenectady by

4

Mr. Roberts; is that correct?

5

-A

Yes.

6

Q.

So did you receive this letter?

7

A.

I believe we did.

8

Q.

And what -- how did it

3

how was

10

how did it

how did it —

take that back.

And once you received this letter, it did

11

not indicate to you that -- any problems that had

12

been identified at the August 11th. inspection .had

13

been remedied or resolved?

14
15

A.

Mo.

Based on the inspection report that

we had, it showed differently.

16

Q.

Yeah, but that inspection was August 11,

17

2009.

18

two months later.

19

impossible for Mr. Halim to remedy the deficiencies

20

identified in the August 11th inspection in two

2.1

This letter is dated October 9.

It's almost

Is it -- would it have been

■ months? ■

22

A.

He could have.

23

Q.

So why

why -- why did you proceed with

24

the abatement when the city

25

residents that are living in the project, which would

<5j01e rider Legal Solutions

A-12

Appxl769
102a

it's the city*a

sAV-oIenderreporti ng.com
Worldwide Coverage

Case: 19-1478

Document: 35

Page: 373

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 14 of 15

LISA PUGLTESE 30(b)(6)
AHMAD HALIM vs. UNITED STATES

06/17/2016
37

1

seem to have a vested interest in making sure the

2

residents are adequately housed.

3

telling you that in its view everything is fine with

4

the project, why wouldn't you take that into

5

consideration with respect to Mr. Halim's HAP

6

contract?

7
8

If the city is

Because we take our inspections as

A.

verification.

3

But, again, it's a work in progress; is it

Q*

ID

not?

11

the repairs, you make progress over time.

12

you

13

funds are released from the repair escrow.

14

is done all at once, hut it's done on a continuum so

15

to speak.

16

as of August 11 there was problems, but the city is

17

saying as of October 3, there were no problems.

18
19
20

It's just like -- it's like when you are doing

as you

A,

I

And as

as you continue to make progress,
Nothing

I understand that you are saying that

But we -- we don't use this as part of our

protocol when we make that determination,
Q.

I understand that, but wouldn't it seem to

21

suggest that it might have been a good idea to have

22

another reinspection to see whether the city --

23

whether what the city was saying was accurate or not?

24

A,

Could have.

25

Q.

So just to confirm, the decision to abate

C^piendw Legal Solutions

A-13

Appxl770
103a

'w.olendsrrepornng.eorn
Worldwide Coverage

Case: 19-1478

Document: 35

Page: 374

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 73-1 Filed 01/16/18 Page 15 of 15

LISA PUGLiESE 30(b)(6)
AHMAD HALIM vs. UNITED STATES
1

is that correct?

2
3

06/17^2016
48

A.

At certain, points in time, they did, yes,

But they need --

4

Q.

Okay,

That's my question.

That's my

5

question.

6

all passed before the March 2009 inspection?

7

A.

So the answer is, yes, at some point they

No, because based -- when they were there

8

again, it showed that some of the units were not in

9

passing condition.

10

Q.

Okay,

It gave -No, I'm not -- my question is:

11

Before March of 2009, at some point before that date,

12

all the units had passed the UPCS inspection at some

13

point; is that correct?

14

March 31, 2009.

15

A.

Yes.

16

Q.

If

Before March 2009?

Not on

Before that date.

if -- if an inspector came out and

17

inspected a unit in the morning and it passed, and

18

the inspector came back in the afternoon and the

19

battery was taken out of the smoke detector, would

20

that unit then fail IIPCS?

21
22
23

A,

It would fail SH&S, exigent health and

safety issues, yes.
'

Q.

It's possible to have a unit pass in the

24

morning and then a few hours later fail; is that

25

correct?

C^C) lender Legal Solutions
A-14

Appxl771
104a

vw.oienderreporting.com
Worldwide Coverage

USE RESTRICTIONS
20 Years affordable housing.

N/A Years rent cap protection for N/A residents.

TERMS OF SALE
The project will not be sold with any tenant or project based Section 8 assistance.
The purchaser must complete the repairs to HUD's satisfaction within 24 months after closing. The repairs are estimated to cost
S5.170.269. Closing is to be held 3Q days after HUD accepts the bid. If HUD authorizes an extension of the closing, the purchaser
must pay a fee which is the greater of 1.5% of the purchase price or HUD's holding costs of $48.68 per unit per day for each 30 day
period.
Potential bidders should be aware that building "9", located at 432 Boddie Street, was damaged by fire and that there
may have been some vandalism at the property. The high bidder will be required to complete all of the repairs noted in
Attachment E Post Closing Repair Requirements plus repair to State and local code all fire damage/vandalism that has
occurred or may occur prior to closing on the sale. This requirement should be factored Into the bid.
The purchaser must certify to HUD that any projects that are owned by the purchaser or its affiliates and are located in the same
jurisdiction as Beacon Light-Goodwill Baxter Apartments are in substantial compliance with applicable State and/or local housing
status, regulations, ordinances and codes. HUD may, in its discretion, verify the accuracy of such certification and request
supporting documentation from the high bidder. If HUD determines at its sole discretion that such other projects are not in
substantial compliance, HUD will have the right to refuse to sell the project to the high bidder and retain the Earnest Money Deposit
(See Attachment G).

For questions about APPS contact the Multifamily Housing Systems Help Desk at 1-800*767-7588.
PROSPECTIVE BIDDERS SHOULD READ AND THOROUGHLY UNDERSTAND ALL INFORMATION PROVIDED HEREIN AND
IN THE BID KIT PRIOR TO SUBMITTING A BID.
This is an "All Cash - As Is" sale. HUD is providing no financing for this sale. The purchaser must provide for payment of the full
purchase price in cash at closing.
Submission of Bids: Bids for this property can only be considered for acceptance if submitted on the specific forms listed in the Bid
Kit for this property, along with required earnest money. A Bid Kit may be obtained as indicated below.
Suspended or Debarred Parties: No consideration will be given to a bid submitted by any party currently suspended or debarred
from participating in HUD programs. AS PROVIDED FOR IN 24 CFR, SEC. 27, THE DEFAULTING MORTGAGOR, OR ANY PRINCIPAL,
SUCCESSOR, AFFILIATE, OR ASSIGNEE ON THE MORTGAGE AT THE TIME OF DEFAULT SHALL NOT BE ELIGIBLE TO B.ID ON OR
OTHERWISE PURCHASE THIS PROPERTY. (Principal and Affiliate are defined at 24 CFR 24.105.)
INSPECTION OF PROPERTY AND BIDDING INSTRUCTIONS
Prospective bidders are urged and invited to inspect the property prior to submitting a bid. Note: If this is a foreclosure sale, HUD
may not have access to the property. Bids for this property can only be considered if properly submitted by following the bidding
instructions provided in the FREE INFORMATION and BID KIT.
The FREE INFORMATION and BID KIT may be viewed or printed at http://www.hud.oov/offices/hsq/mfh/pd/multifam.cfni.
You may also sign up for our electronic mailing list at this web address. If you do not have access to the internet or can not
download a PDF file, you may obtain a bid kit by calling (719) 550-9291, or faxing (719) 550-1622, or by email to:
"usa0567@kinkos.com" mailto:usa0567@kinkos.com
BIDS for Beacon Light-Goodwill Baxter
MUST BE PRESENTED ON: June 12, 2007
at: 2:00 pm local time
at: Vance County Courthouse
156 Church St, Suite 101
Henderson, NC 27536

HUD OFFICE:
Atlanta MFPD Center
Five Points Plaza
40 Marietta St.
Atlanta, GA 30303

105a

REALTY SPECIALIST:

Bob Doran
Phone: (404) 331-5001 ext. 2053

OMB Approval No. 2529-0013
(exp. 11/30/2006)

U.S. Department of Housing
and Urban Development
Office of Fair Housing and Equal Opportunity

Affirmative Fair Housing
Marketing Plan

1a. Applicant's Name, Address (including city, state & zip code) & Phone Number 1c. Project/Application Number

6z44o°7

€?

H- A

Occupancy

X*

Non-Elderly

o ■ o 7^

1b. Projects Name, Location (including city, State and zip code)

/ui oregTo2.oaoo

1 Vi'|W< flftA***

/^Updated
<MFH Plan
New
SFH Plan
__ White (non-minority) Area
Minority Area
y^Mixed Area (with
Q/% minority residents)

l Elderly

1g. Approximate Starting Dates (mm/dd/yyyy)
Advertising
3~ /" L /
^ ^ ~1

44 3 3ZP 3*1 n
irH- 41 o__4%) 42.£>\

2. Type of Affirmative Marketing Plan (check all that
apply)

l

Ao°
^£5-0

To $

a

1f. For Multifamily Housing Only

1e. Price or Rental Range
From $

HUVtl

1d. Number of Units

Tj. Managing/Sales Agent's Name & Address (including City, State and Zip
Code)

3. Direction of Marketing Activity (Indicate which group(s) in the housing market area are least
likely to apply for the housing because of its location and other factors without special outreach
efforts)
j

| White

[Vf American Indian or Alaskan Native

|

j Asian

| j Native Hawaiian or Other Pacific Islander
Black or African American
j
| Families with Children
Persons with Disabilities
Hispanic or Latino

4a. Marketing Program: Commercial Media (Check the type of media to be used to advertise the availability of this housing)
Newspapers/Publications

|

| Radio

□ tv

□] Other (specify)

Group Identification of Readers/Audience

Name of Newspaper, Radio or TV Station

~T ni

j. [ Billboards

Size/Duration of Advertising

#~3

cX^4“

4b. Marketing Program: Brochures, Signs, and HUD's Fair Housing Poster
(1) Will brochures, letters, or handouts be used to advertise? j

; Logo type size

(2) For project site sign, indicate sign size

M'

No

| Yes

If ‘Yes’, attach a copy or submit when available.

___x

■ .

. Attach a photograph of project sign or submit when available.

i |\

(3) HUD's Fajr Housing Poster must be conspicuously displayed wherever sales/rentals and showings take place. Fair Housing Posters will be displayecTTn
the

Sales/Rental Office

Previous editions are obsolete

j

|

Real Estate Office

[

[

Model Unit |

Page 1 of 4

106a

j

Other (specify)

ref. Handbook 8025.1

form HUD-935.2 (8/2004)

Accounts and Notes Receivable
Name (Indicate also P,E,R or O)’

Partner (P)

Employee (E)
Address

Relative (R)

or other (O)*
Maturity Date

Amount

Name (Indicate also P,E,R or O)*

Address

Maturity Date

Amount

Name (Indicate also P,E,R or O)'

Address

Maturity Date

Amount

Name (Indicate also P,E,R or O)*

Address

Maturity Date

Amount

Name (Indicate also P,E,R or O)*

Address

Maturity Date

Amount

Life Insurance

Face Value

Beneficiary

Delinquencies (starting with Federal Indebtedness)
Type Liability

Amount

Circumstances

Type Liability

Amount

Circumstances

Amount

Circumstances

Amount

Circumstances

Amount

Circumstances

Amount

Maturity Date

Type Liability
Type Liability

StXB

Type Liability
Accounts and Notes Payable
Name (Indicate also P.E.R or O)"

Partner (P)

Employee (E)
Address

Relative (R)

or other (O)*

Name (Indicate also P,E,R or 0)‘

Address

Amount

Maturity Date

Name (Indicate also P,E,R or O)*

Address

Amount

Maturity Date

Address

Amount

Maturity Date

Name (Indicate also P,E,R or O)*

Address

Amount

Maturity Date

Pledged Assets
Type Pledged

Amount

Offsetting Liability

Type Pledged

Amount

Offsetting Liability

Type Pledged

Amount

Offsetting Liability

Type Pledged

Amount

Offsetting Liability

Type Pledged

Amount

Offsetting Liability

Name (Indicate also P,E,R or 0)*

/

Legal Proceedings: (H any legal proceedings have been instituted by creditors, or any unsatisfied judgments remain on record, give full details starting with any unresolved
Federal Indebtedness.)

Page 2 of 4

107a

form HUD-82417 (05/2003)
ref. Handbook 4470.1

Schedule A — Stocks end Bonds (Note: If more space Is required use a separate sheet of paper.)
Number
Current Market Value
Description
of Shares (At date of this Statement)

If Listed. Name Exchange

ft

Schedule B — Real Property (Indicate Private Residence, if any)
Location and Description of Land and Buildings Owned

Age

Original Cost

Market Value

Assessed Value

-yx* K

3a

3o

Mortgaged For

<oc>

Insured For

\

H

“3<7oV( 0*0

3’-oU\

~\po K o 70

V5

to-'o

Totals
Title (The legal and/or equitable title to all pieces of the above-described real estate is solely in my name, except as follows.)
Location of Real Property:

Name of Title Holders:

/&*jleU LlC

S3\5^ve^v3/

X

A>V

Page 3 of 4

108a

form HUD-92417 (05/2003)
ref. Handbook 4470.1

Bank and/or Trade References
Name & Address:

o_

Account Numbers:

oJ \ CSy

t o 53 ogling £T

IX-4

Other InfOrmation/Remarks

l~C?r\

VilA-C—

^ IX X/

l/We hereby certify that the foregoing figures and the statements contained here, submitted to obtain mortgage insurance under the National Housing Act, are true and give
a correct showing of my/our financial condition as of this date.
Warning: HUD will prosecute false claims and statements. Conviction may result in criminal and/or civil penalties. (1BU.S.C. 1001,1010,1012; 31 U.S.C. 3729,3802)
SodaUsecurtty Number(s):

Name(s) & Signature^):*

T9*;Id oni

Date Signed:

t

J

&MM

* For married individuals, the signature and Social Security Number of the spouse is required. This signature also authorizes the acceptance of the Criminal
Certification and allows consideration of the funds indicated herein for the HUD insured project.
form HUD-92417 (05/2003)
Page 4 of 4
ref. Handbook 4470.1

109a

/

1
*1

\JYo6 Nvos&L

/

OMB Approval No. 2529-0013
(exp. 11/30/2006)

U.S. Department of Housing
and Urban Development
Office of Fair Housing and Equal Opportune

Affirmative Fair Housing
Marketing Plan

1a. Applicant's Name, Address (including city, state & zip code) & Phone Number ipProject/Application Number 1.11d. Number of Units

pi H
233

fti-5 H ft l—

Q A

3 <X_VK\

;pv\

1b. Project's Name, Location (including"city, State and zip code)

L£

*^0-

, n! Y" \22>0^
3. Direction of Marketing Activity (Indicate which group(s) in the housing market area are least
likely to apply for the housing because of its location and other factors without special outreach
efforts)

a

MFH Plan
New
.Updated
SFH Plan
___ White (non-minority) Area ___Minority Area
Mixed Area (with

2

1j. Managing/Sales Agent's Name & Address (including City, State and Zip
Code)

-S“)

2. Type of Affirmative Marketing Plan (check all that
apply)
.

X

'J0/'0

SoWe"

i aaJj

ScM&si

Occupancy

lb. Housing Market Ar

A°

1 f. For Multifamily Housing Only
1
1 Elderly
fy^Non-Elderly

1g. Approximate Starting Dates (mm/dd/yyyy)
,
Advertising 0~\ j2L& / 2J& & O

A4 3 z\b 14 S3 ffr
A4Z 3ZO 31 ncdl

\l ,

l\Q

yn

1e. Price orReofaLAange
^O
V J>~>
From $

y/\\ Asian
American Indian orAlaskan Native
j White
Native Hawaiian or Othef Pacific Islander
I Black or African Amerii i
Families with Children
n'Hispanic or Latino Py Persons with Disabilities

% minority residents)

\

4a. Marketing Program: Commercial Media (Check the type of media to be used to advertise the availability of this housing)
Newspapers/Publications

|

j Radio

[

j TV

Name of Newspaper, Radio or TV Station

|

| Billboards

|

| Other (specify)
Size/Duration ot Advertising

Group Identification ol Readers/Audience

jXe J

i

4b. Marketing Program: Brochures, Signs, and HUD's Fi

-f ,

w^kXT

lousing Poster
lr?

(1) Will brochures, letters, or handouts be used to advertise
(2) Forproject site sign, indicate sign size \ 7> x

is

No

; Logo type size

If “Yes*, attach a copy or submit when available.
x

Mtsignorsubmit when available,

. Attach a

Wi\\

•m s «

(3) HUD's Faj[r Housing Poster must be conspicuously displayed wherever sales/rentals and showings take place. Fair Housing Posters will be displayed in
the
Sales/Rental Office | |
Real Estate Office |
j Model Unit j j Other (specify)

. Previous editions are obsolete

Page 1 of 4

110a

ref. Handbook 8025.1

j i

I e< At '-A. 1

form HUD-935.2 (8/2004)

\

Schedule A — Stocks and Bonds (Note: II more space is required use a separate sheet of paper.)
Number
of Shares

Description

3

Current Market Value
(At date of this Statement)

If Listed, Name Exchange

sk

Schedule B — Real Property (Indicate Private Residence, if any)
Location and Description of Land and Buildings Owned

Age

Original Cost

Market Value

Assessed Value

Insured For

Mortgaged For

jo "1 oD K I CO K* 4 00 K O
1

J00C cp.^>

30

Totals

US H-

v vA ■

h°° ^

<D •

Js50 K

O

I & t~V

Title (The legal and/or equitable title to all pieces of the above-described real estate is solely In my name, except as follows.)
Location of Real Property:

Name of Title Holders:

LAC

hA&H / (5^ ^

Page 3 of 4

111a

i

UC

form HUD-92417 (05/2003)
ref. Handbook 4470.1

V'

. 4c. Community Contacts. To further inform the group(s) least likely to apply about the availability of the housing, the applicant agrees to establish and maintain
contact with the groups/organizations listed below that are located in the housing market area. If more space is needed, attach an additional sheet. Notify HuDMousing of any changes in this list. Attach a copy of correspondence to be mailed to these groups/organizations. (Provide all requested information.)

Group
Identification

Name of Group/Organization

Person Contacted or to be Contacted

o~f\\ijob

<

i

Approximate Date
(mm/dd/yyyy)
/

S'/Weji^r-

c? yy\jz

Phone Number

/

51 &-3gZ.-'W'i5

Indicate the specific function the Group/Organization will
undertake in implementing the marketing program

Method of Contact

k

\r\ C> V- y \ /\

f

6. Experience and Staff Instructii
6a. Staff has experience.
.

5. Future Marketing Activities (Rental Units Only) Mark the box(s) that
best describe marketing activities to fill vacancies as they occur after the
project has been initially occupied.

|

Newspapers/Publications

| Radio

6b.

Q TV

Brochures/Leaflets/Handouts
Site Signs

|

Community Contacts

(See instructions)
Yes

No

On separate sheets, indicat&ytraining to be provided to
staff on Federal, State and local fair housing laws and
regulations, as well as this AFHM Plan. Attach a copy
of the instructions to staff regarding fair housing.

| Other(specify)

7. Additional Consideration^ Attach additional sheets as needed.

B. Review and Update By signing this form, the applicant agrees to review their AFHM Plan every 5 years and updte as needed to ensure continued
compliance with HUD's Affirmative Fair Housing Marketing Regulations (24 CFR 200.620).
Signg^of pers^i ^li^iittinglhi^lan & Date oj Submission (mm/dd/yyyy)
Name (type or print)
Title & Name of Company t

^

*

7

f"

f* ^

A

u LL-Cv

>Wl-r

For HUD-Offlce of Fair Housing and Equal Opportunity Use Only

For HUD-Offlce of Housing Use Only
Reviewing Official:
Signature & Date (mm/dd/yyyy)

Disapproval
Approved
Signature & Date (mm/dd/yyyy)

Name (type or print)

Name (type or print)

Title

Previous editions are obsolete

(Check One)

Title

Page 2 of 4

ref. Handbook 8025.1

form HUD-935.2 (8/2004)

112a
/

/ *

*A

*

]F>s> I'n \

iH

H-A k4- H

no

4D

<?

f^iKfJt^tAaiL+i^ fl«^}

v/;|!

L

r

V"(3

a
f*'*'' M‘®U'*1'1

(psyV\ (x^vt

\M

Jl

(j-'-^'L—'

X\*$

^>7

<*A

7/ I I

\A/ I

oJ Olfft-iUl__

12- 131 j Z*>o4.
«/

S

«&n.

^n_«f

/

re \ h, IJri^

/V rH H Y'X^ovl , T'l'Ui.— P«=>i<'K!j£4.
^•|g 3 8Z 5"I 47/
1^

in $- c?7 KTK cH/fr-{ ^*1
^ \cryl

t- cuV.-T

°£-

o^^"< Cc_

\Hr *> u.5 i ^

vn£ ^ A *r.
FeJ er<t
drv]

ycj ‘J i

Xcy-^^l

<3

(^jnV^crV- '^2~ c«^

ota £ a. \v^

S>&

~f^o^S \*7

** *

/£ ^ j~\ /^L4<V^|
113a

Ko i/(c/L-Pc/j

4rc-^

S'v“*- ^
W©

L 4^

t~l^vl

r? step up

a heipint)

iMsIl

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

^l^jENiECrAQY MUNICIPAL

mm&msm.

HOUSING AUTHORITY

August 5, 2020

Dear

Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

On Saturday, July 13, 2019, this office conducted an inspection of your dwelling
unit located at 783 Albany Street #2 Schenectady occupied by Donise Brown.
We have determined that on 07/13/2019 the unit was in compliance with Federal
Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

William B

F0BBB8FO33COAFF2EOF8BBB8F
E2AAA2E020303931E0E2AAA2E
323CD5AC5516D7E0CS426AD16
7E5245A897CA2531E17DAFCA3
B222A2B0E56B1AE6F8A8F86F9
F0EEE0F0CA897D1ED8EDE7A2F
8898980000080000080888868

cc: Donise Brown
783 Albany Street #2
Schenectady, NY 12307

i
Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy, practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.

FAX(518) 374-7881

114a

i

<! -step up ••• a helping imod
Richard E. Homcnick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

Dear

On Wednesday, March 18, 2020, this office conducted an inspection of your
dwelling unit located at 17 Grove Place, Apt# 1 Schenectady occupied by
Hekima Smith. We have determined that on 03/18/2020 the unit was in
compliance with Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

Elisa W

cc: Hekima Smith
17 Grove Place, Apt# 1
Schenectady, NY 12307

F8BBB8FOEADDF75D60fc*8BHB8H’
E2AAA2E078602DE420E2AAA2E
7S88D6A7A889B99A7ECA07CEE
74E556AC74BD9S0CS9757A723
B2A22M0CE2451D3F8A8FD019
F0EEEOFOEDADSO5B8BED8271F
8888888000800880800008008

Pursuant to the Fair Housing Act (42U.S.C. 3619), if you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.
FAX(518) 374-78({5sl

ih. fs)

a step up - • • a helping hand
, : SCHENECTADY MUNICIPAL

w

flpNi|j

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

-HOUSING AUTHORITY

August 5, 2020

Dear

Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

On Thursday, November 21, 2019, this office conducted an inspection of your
dwelling unit located at 17 Grove Place #2 Schenectady occupied by Patricia
Hoyt We have determined that on 11/21/2019 the unit was in compliance with
Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

William B

cc: Patricia Hoyt
17 Grove Place #2
Schenectady, NY 12307

F8BBB8F03D3CAA8B70F8BBB8F
E2AAA2E029FC343180E2AAA2E
7409C1A9235SA4C605426A952
FAEFF5A2BB174081E17BAFCA3
B22A2AB06D54CB26F8A8F86F9
FOEEEOFOCA24 D3CED8EDE7A2F
8888886000088000080888888

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to particpate in the program.

FAX(518) 374-78{{Qa

& (3>

a step up

a helping iumd

SCHENECTADY MUNIGiPAl
I*smri&e&==:

m

m

£&£&■

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

HOUSING AUTHORITY

August 5, 2020

Dear

Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

On Thursday, November 21, 2019, this office conducted an inspection of your
dwelling unit located at 783 Albany, Apt#l Schenectady occupied by Evelyn
Ives. We have determined that on 11/21/2019 the unit was in compliance with
Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

William B

cc: Evelyn Ives
783 Albany, Apt#l
Schenectady, NY 12307

F8BBB8F00DC7BE1670F8BBB8F
E2AAA2E0B4E560A930E2AAA2F,
54EC51ADB7450B347CF3AO527
12EAE7AA64B6501A7D173C56S
322AA2B8678187AEF8A8F0484
FOEEE0F06636BD3O99DCA9E34
8888888008880800800009008

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.

FAX(518) 374-78f{rj^

th. t=3

r? step up ■ ■ ■ <i helping hand
Richard E. Hoinenick, Executive Director
Gregory J. Hoffman, Counsel

SCHENECTADY MUNICIPAL
HOUSING AUTHORITY

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Elllcott City, MD 21041
A! Haqq, LLC

Dear

On Monday, July 20, 2020, this office conducted an inspection of your dwelling unit
located at 958 Emmett Street 2nd Floor Schenectady occupied by Maria
Tebano. We have determined that on 07/20/2020 the unit was in compliance with
Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,
Elisa W

cc: Maria Tebano
958 Emmett Street 2nd Floor
Schenectady, NY 12307

F8BBB9F030DFF29F40F8BBB8F
E2AAA2E029FD216C20E2AAA2E
716F96AC797DDC5E45426E97<1
7A679BAFE67920D1E17BAFCA3
B2A2A2B8 6B 99CDC6F8A8F8 6 FS
F0EEE0F0C1E 90A2ED8EDE7 A2 F
8888888006080880080886888

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.
FAX (518) 774-7S|^8a

tsj

r? step up

<i helping liiuui

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

Dear

On Friday, January 31, 2020, this office conducted an inspection of your dwelling
unit located at 779 Albany St #2 Schenectady occupied by Debra Page. We
have determined that on 01/31/2020 the unit was in compliance with Federal
Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,
Robert S

cc: Debra Page
779 Albany St #2
Schenectady, NY 12307

F8BBB8F09AAFA76610F8BBB8F
E2AAA2E029F1F0E8BOE2AAA2E
27C389A79A8BF6CA7B172D67D
A587BAA51975A8CEFC20D0D76
B22AA2B8519683E9F8A8F7A4C
FOEEEOFOA06DCFE1AEB8A8D4A
8688888008080008000080808

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.
FAX(518) 374-7^^

(? step up ■ • ■ a helping hand

m

HOUSING AUTHORITY

iiS«t

n n

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020

Dear

Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

On Thursday, March 28, 2019, this office conducted an inspection of your dwelling
unit located at 760 Albany Street #1 Schenectady occupied by Doris Brown.
We have determined that on 03/28/2019 the unit was in compliance with Federal
Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

William B

cc: Doris Brown
760 Albany Street #1
Schenectady, NY 12307

F8BBB8F0941CDC32F0F8BBB8F
E2AAA2E024A925AD60E2AAA2E
S2D0FBA3A18963SC7B172923D
A9CEABA54686C836FC2 0D0D7 6
B2A222B8DB6CSEC9F8A8F7A4C
F0EEE0F0AD4OD1D1AEB8A8D4A
88B8888000088088000080808

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to particpate in the program.

FAX(518) 374-7^^

&. it)

rt step up - • ' <1 helping hn/td

SCHENECTADY MUNICIPAL

8iHbusii4iUTH'5Rliir?lll
____________ . -

nm m
liggij

Richard E. Hoinenick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041

Dear Al Haqq, LLC:
On Thursday, February 6, 2020, this office conducted an inspection of your dwelling unit located at 752
Albany St #4 in Schenectady occupied by tenant. We have determined that on 02/06/2020 the unit
was in compliance with Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518) 386-7000.
The SMHA will be sending you a Housing Assistance Payment Contract to finalize the lease-up process.
The contract will start on either the 1st or the 15th of the month dependent on the date repairs were
reported complete. The tenant is eligible to receive housing assistance as of the contract start date
provided they have taken possession of the apartment. You will need to execute a one year lease with
your family beginning the 1st day of the Housing Assistance Payment Contract. You will also need to
complete a W9 tax form and a direct deposit information form so that payment can be made when the
lease up process is complete.
Please note that it may take up to 30 days to complete this process and receive rent subsidy. The
SMHA does not provide security deposits but owners are encouraged to collect security deposits which
are consistent with their private pay tenants.
Pursuant to the Fair Housing Act (42U.S.C.3601-3619), if you are a federally assisted housing program
applicant or resident with a disability, you may request an exception, change or adjustment to a rule,
policy, practice or service that may be necessary to afford you an equal opportunity to participate in the
program.
Sincerely,

F8 BBB8 FO9 6 2 F5 FI CA0 F8 BBB 8 F
E2AAA2E025E874F8B0E2AAA2E
63A1DDA1FB5672CBAB172964B
25619FA6U4E8436FC2OD0D76
B222AAB8D1BFE6F9F8A8F7A4C
F0EEE0F0AEF20121AEB8A8D4A
8888888000880008000080808

Robert S

FAX (SI8) 31&1&81

tx 1*1

i7 step up

n helping hand
I
1

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

SCHENECTADY MUNIC1

HOUSING AUTHORITY

*

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041

Dear Al Haqq, LLC:
On Wednesday, April 22, 2020, this office conducted an inspection of your dwelling unit located at 953
Albany Street #3 in Schenectady occupied by tenant. We have determined that on 04/22/2020 the unit
was in compliance with Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518) 386-7000.
The SMHA will be sending you a Housing Assistance Payment Contract to finalize the lease-up process.
The contract will start on either the 1st or the 15th of the month dependent on the date repairs were
reported complete. The tenant is eligible to receive housing assistance as of the contract start date
provided they have taken possession of the apartment. You will need to execute a one year lease with
your family beginning the 1st day of the Housing Assistance Payment Contract. You will also need to
complete a W9 tax form and a direct deposit information form so that payment can be made when the
lease up process is complete.
Please note that it may take up to 30 days to complete this process and receive rent subsidy. The
SMHA does not provide security deposits but owners are encouraged to collect security deposits which
are consistent with their private pay tenants.
Pursuant to the Fair Housing Act (42U.S.C.3601-3619), if you are a federally assisted housing program
applicant or resident with a disability, you may request an exception, change or adjustment to a rule,
policy, practice or service that may be necessary to afford you an equal opportunity to participate in the
program.
Sincerely,

Elisa W

F8BRB8F09F9F228SE0K8BBB8F
E2AAA2E029E07DEC20E2AAA2E
75E3FEA1B9A0F63D3B172D66B
253F58AE9A1E9056FC20DOD76
B22A2AB0D65AFAC9F8A8F7A4C
F0EEE0F0ABC41481AEB8A8D4A
8888888008888808000080808

FAX(518)3W,‘M1

a step up ’ - r a helping hand

■M
HOUSING AUTHORITY

mm

m n

Richard E. Hoinenick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Elllcott City, MD 21041
Al Haqq, LLC

Dear

bn Wednesday, November 20, 2019, this office conducted an inspection of your
dwelling unit located at 760 Albany Street #3 Schenectady occupied by Tamkia
Parkinson. We have determined that on 11/20/2019 the unit was in compliance
with Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

Robert S

cc: Tamkia Parkinson
760 Albany Street #3
Schenectady, NY 12307

F8B8B8F09DFI2ACE0QF8BBB8F
E2AAA2E02575242430E2AAA2E
15D1CEA3ECD49006EB172926F
ADB7B2A7CEAC37AEFC20DOD76
B22AA2B85E8123E9F8A8F7A4C
F0EEE0F0AD2DB711AEB8A8D4A
8888888000808008000080808

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.

FAX (518) J74-7^5/ga

6. fir

rj step up

a helping hand

m

SCHENECTADY MUNICIPAL V
HOUSING AUTHORITY

Richard E. Homcnick, Executive Director
Gregory J. Hoffman, Counsel

m

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041

Dear Al Haqq, LLC:
On Friday, November 1, 2019, this office conducted an inspection of your dwelling unit located at 760
Albany Street #4 in Schenectady occupied by tenant. We have determined that on 11/01/2019 the unit
was in compliance with Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518) 386-7000.
The SMHA will be sending you a Housing Assistance Payment Contract to finalize the lease-up process.
The contract will start on either the 1st or the 15th of the month dependent on the date repairs were
reported complete. The tenant is eligible to receive housing assistance as of the contract start date
provided they have taken possession of the apartment. You will need to execute a one year lease with
your family beginning the 1st day of the Housing Assistance Payment Contract. You will also need to
complete a W9 tax form and a direct deposit information form so that payment can be made when the
lease up process is complete.
Please note that it may take up to 30 days to complete this process and receive rent subsidy. The
SMHA does not provide security deposits but owners are encouraged to collect security deposits which
are consistent with their private pay tenants.
Pursuant to the Fair Housing Act (42U.S.C.3601-3619), if you are a federally assisted housing program
applicant or resident with a disability, you may request an exception, change or adjustment to a rule,
policy, practice or service that may be necessary to afford you an equal opportunity to participate in the
program.
Sincerely,

William B

F8BBB8F07C4D5E95E0F8BBB8F
E2AAA2E0E520FC6CE0E2AAA2E
67CS3BA8D8D90A9FECI8AAED7
AEF1ACA89E505859F32FDFD86
BAAA2AB0FB74F1C6F8A8F8ABC
F0EEE0F02F0F962EA9BFA7DBA
8888888000880880080888888

FAX (518) 37)tm§J

&

n step up ■ • • <1 helping hand
SCHENECTADY MUNICIPAL
HOUSING AUTHORITY

[ * s -1

n

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020

Dear

Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
Al Haqq, LLC

On Thursday, March 28, 2019, this office conducted an inspection of your dwelling
unit located at 760 Albany Street #1 Schenectady occupied by Doris Brown.
We have determined that on 03/28/2019 the unit was in compliance with Federal
Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.

Sincerely,
William B

cc: Doris Brown
760 Albany Street #1
Schenectady, NY 12307

F8BBB8F033AA7FD910F8BBB8F
E2AAA2EO25A17O24E0E2AAA2E
0229B7A861C6D34EB5426A964
72226AABDA10B269E17BAFCA3
B2AA22 B8E 9A63B 96F8A8 F8 6 F9
FOEEEOFOCB61261BD8EDE7A2F
8888886000880080080886888

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to particpate in the program.
FAX(5J8) 374-7^5a

&

a step up - ■ - a helping hand
m&m

_

ADY MffklCI

INs!

HOUSING.AUTHORITY

m

Richard E. Homcnick, Executive Director
Gregory J. Hoffman, Counsel

August 5, 2020
AI Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041
AI Haqq, LLC

Dear

On Friday, September 13, 2019, this office conducted an inspection of your
dwelling unit located at 779 Albany St. #4 Schenectady occupied by
Christopher Spero. We have determined that on 09/13/2019 the unit was in
compliance with Federal Housing Quality Standards.
If you have any questions about this inspection, please contact this office at (518)
386-7000.
Sincerely,

Robert S

cc: Christopher Spero
779 Albany St. #4
Schenectady, NY 12307

F8BBB8F034A97914B0F8BBBBF
E 2 AAA2 E02 4 F1 AC 7 5A0 E 2 AAA2 E
6178E6AC1632C29E25426AD04
7E35BCA30EB3C6 FIEl7BAFCA3
B22A22BQ64B9FA86F8A8 F8 6F9
F0EEE0F0C37A2D8EDBEDE7A2F
8888888000680830080888888

Pursuant to the Fair Housing Act (42U.S.C. 3619), If you are a federally assisted housing programs applicant or
resident with a disability, you may request an exception, change or adjustement to a rule, policy , practice or services
that may necessary to afford you an equal opportunity to partiepate in the program.

FAX(518) 37-/-7^6a

tsl

a step up

Richard E. Homenick, Executive Director
Gregory J. Hoffman, Counsel

a helping hand

j'S^ENECTADYMUMICiPAL .
HOUSING AUTHORITY

August 5, 2020
Al Haqq, LLC
PO Box 1694
8338 Governor Grayson Way
Ellicott City, MD 21041

Dear Al Haqq, LLC:
On 03/22/2018, this office conducted an inspection of your dwelling unit located at 748
Albany Street, Apt. #1 in Schenectady occupied by Elijah M Jenkins. We have determined
that the following corrective action is required to place this dwelling unit in compliance with
Housing Quality Standards:

FAX (518) 374-ffflz

Case: 19-1478

Document: 35

Page: 53

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 1 of 17

UNITED STATES COURT OP FEDERAL CLAIMS
AHMAD HALIM.

)
)
)
)

Plaintiff
V.

)
)

THE UNITED STATES OF AMERICA,
Defendant

No. 12-5 C
(Judge Elaine D. Kaplan)

)
)
)
)

3
FOURTH AMENDED COMPLAINT
In accordance with RCFC 3 5(a)(2), Plaintiff hereby amends his Third Amended
Complaint through the filing of this Fourth Amended Complaint. Plaintiff amends his Third
Amended Complaint as a matter of right because Defendant has consented in writing to the
amendment.
INTRODUCTION
I. Plaintiff entered into several contracts with the United States Department of Housing
and Urban Development (“HUD”) in connection with Plaintiffs bidding on and/or purchase of
five multifamily housing rental projects that were sold by HUD at a foreclosure sale held for
each of the five projects.
2. HUD has breached each of th e contracts at issue.
JURISDICTION
3. This Court has jurisdiction over this action under 28 U.S.C. §149i(a)(l) because each
of Plaintiffs claims is founded on an express contract between Plaintiff and the United States.

1

Appx42
128a

Case: 19-1478

Document: 35

Page: 54

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 2 of 17

PARTIES
4. Plaintiff is a resident of Maryland,
5. HUD is an agency of the United States. As an agency of the United States, HUD’s
actions are imputed to the United States,
6. The United States, acting through HUD, is an actual party to each of the contracts at
issue in this action.
FACTS
The New York Project
7. Plaintiff is the owner of Schenectady 40 Apartments, a 40-unit multifamily housing
rental project located in Schenectady, New York (“New York Project”),
8. Plaintiff bought the New York Project at a foreclosure sale initiated by HUD. Plaintiff
closed on his purchase of the New York Project in July 2006.
9. Plaintiff entered into a “Foreclosure Sale Use Agreement” with HUD (“New York
Use Agreement”), a copy of which is attached as Exhibit 1, in connection with his purchase of
the New York Project,
10. Rider 2 to the New York Use Agreement required Plaintiff to make the repairs
specified in the New York Use Agreement within twenty-four months of Plaintiffs closing on
hfs purchase of the New York Project.
11. As required by Rider 2 to the New York Use Agreement, Plaintiff gave HUD
$403,584 to be held in escrow to ensure the satisfactory completion of the repairs required by the
New York Use Agreement (“New York Escrow”).
12. Plaintiff spent approximately $1.5 million in making the repairs required by the New
York Use Agreement.

2

Appx43
129a

Case: 19-1478

Document: 35

Page: 55

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 3 of 17

13. As Plaintiff completed the repairs required by the New York Use Agreement HUD
returned part of the New York Escrow to Plaintiff. Although Plaintiff completed the repairs
required by the New York Use Agreement, HUD did not return the remaining balance of the
New York Escrow to Plaintiff.
14. Plaintiff also entered into a project-based Housing Assistance Payments (“HAP")
contract with HUD (“New York HAP Contract"), a copy of which is attached as Exhibit 2. in
connection with Plaintiffs purchase of the New York Project.
15. The purpose of a project-based HAP contract, including the New York HAP
Contract, is to provide a subsidy from H UD under HUD’s Section 8 Program to the owner of the
multifamily housing rental project covered by the HAP contract on behalf of the low-income
tenants who live at the project. This subsidy, known as housing assistance payments, pays the
difference between the rent for the project’s units and thirty percent of a tenant's adjusted gross
income.
16. Under the New York HAP Contract, Plain tiff was required to maintain the New York
Project’s units in accordance with the Uniform Physical Condition Standards (“UPCS") specified
by HUD.
17. Although all of the units at the New York Project passed a UPCS inspection, HUD
terminated the New York ITAP Contract on the alleged basis that Plaintiff had failed to maintain
the New York Project in accordance with the UPCS.
The Mississippi Project
18. Plaintiff is the owner of Meadowbrook Apartments, a 51 -unit multifamily housing
rental project located in Meridian, Mississippi (“Mississippi Project”).

3

Appx44
130a

Case: 19-1478

Document: 35

Page: 56

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 4 of 17

19. Plaintiff purchased the Mississippi Project from HUD at a foreclosure sale initiated
by HUD. Plaintiff closed on his purchase of the Mississippi Project in January 2007.
20. Plaintiff entered into a “Foreclosure Sale Use Agreement” with HUD (“Mississippi
Use Agreement”), a copy of which is attached as Exhibit 3, in connection with his purchase of
the Mississippi Project.
21. Rider 2 to the Mississippi Use Agreement required Plaintiff to make the repairs
Specified in the Mississippi Use Agreement within twenty-four months of Plaintiffs closing on
his purchase of the Mississippi Project.
22. As required by Rider 2 to the Mississippi Use Agreement. Plaintiff gave HUD a
Letter of Credit in the amount of $513,967 to be held in escrow to ensure the satisfactory
completion of the repairs required by the Mississippi Use Agreement. The $513,967 Letter of
Credit provided by Plaintiff to HUD was subsequently converted by HUD to a cash escrow
(“Mississippi Escrow4').
23. Plaintiff spent almost $2 million in making the repairs required by the Mississ ippi
Use Agreement
24. As Plaintiff completed the repairs required by the Mississippi Use Agreement, HUD
returned part of the Mississippi Escrow to Plaintiff. Although Plaintiff completed the repairs
required by the- Mississippi Use Agreement HUD did not return the remaining balance of the
Mississippi Escrow to Plaintiff.
25. Plaintiff also entered into a project-based HAP contract with HUD (“Mississippi
HAP Contract”), a copy of which is attached as Exhibit 4, in connection with Plaintiffs purchase
of the M ississippi Project.

4

Appx45
131a

Case: 19-1478

Document: 35

Page: 57

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 5 of 17

26. Under the Mississippi HAP Contract, Plaintiff was required to maintain the
Mississippi Project's units in accordance with HUD’s UPCS.
27. Although the units at the Mississippi Project were in compliance with the UPCS,
HUD terminated the Mississippi HAP Contract on the alleged basis that Plaintiff.had failed to
maintain the. Mississippi Project in accordance with the UPCS.
The Ohio Project
28. Plaintiff was the high bidder at a foreclosure sale initiated by HUD in 2006 on
Nichols Townhomes, a multifamily housing rental housing project located in Flushing, Ohio
(“Ohio Project”).
29. Plaintiff made a $50,000 deposit in connection wi th h is winning bid on the Ohio
Project.
30. Plaintiff executed the “Terms and Requirements of Foreclosure Sale—
Acknowledgment by Bidder”, a copy of which is attached as Exhibit 5, in connection with his
bid on the Ohio Project (“Ohio Contract”).
31. Rider ! to the Ohio, Contract required Plaintiff to submit certain specified documents
to HUD no later than ten days after being “verbally notified at the foreclosure sale of being the
high bidder.”
32, Plaintiff timely submitted all of the documents he was required to submit to HUD in
accordance with Rider 1 to the Ohio Contract.
33. Two of the documents submitted by Plaintiff to HUD were a Management Entity
Profile, Form HUD 9832, and a Management Certification, Form HUD 9839 A and B. In
accordance with these documents, Plaintiff proposed to manage the Ohio Project himself.

5

Appx46
132a

Case: 19-1478

Document: 35

Page: 58

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 6 of 17

34. Although HUD had approved Plaintiffs management of other multifamily housing
rental projects, HUD cancelled its sale of the Ohio Project to Plaintiff because of Plaintiffs
alleged failure to provide for acceptable management of the Ohio Project.
35. When HUD cancelled its sale of the Ohio Project to Plaintiff, HUD retained
Plaintiff s $50,000 deposit as liquidated damages for Plaintiffs alleged failure to provide for the
acceptable management of the Ohio Project.
The North Carolina Project
36. Plaintiff is the owner of Beacon Light-Goodwill Baxter Apartments, which was a 1,4building, 108-unit multifamily bousing rental project located in Henderson, North Carolina
(“North Carolina Project").
37. Plaintiff s bid of 354,000 was the winning bid at HUD's 2007 foreclosure sale of the
North Carolina Project.
38. Before the closing on Plaintiffs purchase of the North Carolina Project, HUD
approved Plaintiffs request that the North Carolina Project be conveyed to his son, Sharif Abdel
Halim, instead of to Plaintiff. Accordingly, Plaintiff s son executed all of the documents at the
closing.
39. Plaintiffs son entered into a “Foreclosure Sale Use Agreement" with HUD {“North
Carolina Use Agreement’’), a copy of which is attached as Exhibit 6, in connection with the
purchase of the North Carolina Project.
40. Rider 3 to the North Carolina Use Agreement required Plaintiffs son to make the
repairs specified in the Agreement within twenty-four months of Plaintiff s son’s closing on the
purchase of the North Carolina Project .

6

Appx47
133a

Case: 19-1478

Document: 35

Page: 59

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 7 of 17

41. As required by Rider 3 to the North Carolina Use Agreement. Plaintiff gave HUD
$1,292,567 to be held in escrow to ensure the satisfactory completion of the repairs required by
the North Carolina Use Agreement (“North Carolina Escrow”).
42. The City of Henderson, North Carolina (“Henderson”), the city in which the North
Carolina Project is located, would not approve the repairs required by the North Carolina Use
Agreement because the North Carolina Project did not meet the density and setback
requirements.
43. A request for a variance to Henderson's density and setback requirements submitted
by Plaintiffs son to Henderson was denied.
44. On December L 2009, Plaintiff, on behalf of his son, m et with Courtland Wilson, the
HUD acting Director of Asset Management at that time, to discuss Plaintiff s son's inability' to
make the repairs required by the North Carolina Use Agreement because the North Carolina
Project did not meet Henderson's density and setback requirements and Henderson would not
approve a variance to those requirements,
45. At the December 1,2009 meeting, Mr. Wi lson and Plaintiff, on behalf of Plaintiff's
son. agreed that HUD would refund the $54,000 purchase price of the North Carolina Project and
release the North Carolina Escrow to Plaintiff s son in return for the re-deed ing of the North
Carolina Project by Plaintiffs son to HUD. Although Plaintiffs son was ready, willing and able
to re-deed the North Carolina Project to HUD, HUD did not refund the purchase price or release
the North Carolina Escrow to Plaintiffs son.
46. In October 2010, HUD and Henderson entered into a Memorandum of
Understanding pursuant to which HUD agreed to pay for Henderson’s demolition of the North
Carolina Project.

7

Appx48
134a

Case: 19-1478

Document; 35

Page: 60

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 8 of 17

47. The North Carolina Project was demolished in August 2011 in accordance with the
Memorandum of Understanding between HUD and Henderson.
48. The cost of the demolition of the North Carolina Project by Henderson was
$399,900. HUD paid for the demolition of the North Carolina Project by Henderson with funds
from the North Carolina Escrow.
49. Plaintiff s son did not consent to the demolition of the North Carolina Project.
50. In June 2012, Plaintiffs son conveyed the North Carolina Project to Plaintiff. As the
new owner of the North Carolina Project. Plaintiff is the successor in interest to all of Plaintiff s
son s right title and interest in the North Carolina Project including, but not limited to, the North
Carolina. Use Agreement the North Carolina Escrow and the North Carolina Contract.
The Alabama Project
51. Plaintiff is the owner of Highland Village Apartments, a 20-building. 302-unit
multifamily housing rental project located In Montgomery, Alabama (“Alabama Project').
52. In late 2006. HUD issued a Bid Kit for the prospective foreclosure sale of the
Alabama Project,
53. Although Plaintiff submitted a bid on the 2006 foreclosure sale of the- Alabama
Project, he was not the winning bidder.
54. Because the 2006 foreclosure sale of the Alabama Project did not close, HUD
initiated a second foreclosure sale of the Alabama Project in 2007. To solicit bids for the second
foreclosure sale, HUD re-issued the exact same Bid Kit it had issued for the 2006 foreclosure
sale of the Alabama Project that did not close.
55. Between the first and second foreclosure sales of the Alabama Project, the Alabama
Project was gutted and all the tenants moved out. As a result, at the time of the second

8

Appx49
135a

Case: 19-1478

Document: 35

Page: 61

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 9 of 17

foreclosure sale of the Alabama Project, the walls were essentially the only thing remaining of
the Alabama Project: there were no windows, doors, appliances, etc.
.56, HUD did not notify Plaintiff, or any other prospective bidder at the second
foreclosure sale of the Alabama Project, that the Alabama Project had been gutted or that the
tenants had moved out.
57. Plaintiff was the winning bidder at the second foreclosure sale of the Alabama
Project. Plaintiff closed on his purchase of the Alabama Project in June 2007.
58. Plaintiff executed a “Foreclosure Sale Use Agreement” with HUD (“Alabama Use
Agreement''}, a copy of which is attached as Exhibit 7, in connection with his purchase of the
Alabama Project.
59. Rider 3 to the Alabama Use Agreement required Plaintiff to make the repairs
specified in the Alabama Use Agreement within twenty-four months of Plaintiffs closing on his
purchase o f the Alabama Project,
60. in accordance with Rider 3 to the Alabama Use Agreement. Plaintiff gave HUD
$1,405,998 to be held in escrow to ensure the completion of the repairs required by die Alabama
Use Agreement (“Alabama Escrow”).
Count I - Breach of the New York Use Agreement
61,, Plaintiff re-alleges paragraphs 1 -60.
62. Plaintiff completed the repairs required by the New York Use Agreement.
63. HUD did not return all of the New York Escrow to Plaintiff after Plaintiff completed
the repairs required by the New York Use Agreement.
64. HUD breached the New York Use Agreement by failing to return the entire amount
of the New York Escrow to Plaintiff.

9

Appx50
136a

Case: 19-1478

Document: 35

Page: 62

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 10 of 17

65. HUD'S breach of New York Use Agreement has damaged Plaintiff in the amount of
at least $317,440.
Count II - Breach of the New York HAP Contract
66. Plaintiff re-al leges paragraphs 1-65.
67. As required by the New York HAP Contract, Plaintiff maintained the New York
Project in accordance with HUD's UPCS.
68. HUD breached the New York HAP Contract by terminating the Contract on the
erroneous basis that Plaintiff failed to maintain the New York Project in accordance with HUD’S:
UPCS.
69. Plaintiff has suffered monetary damages as a result of HUD's breach of the New
York HAP Contract.
Count III-Breach of the Mississippi Use Agreement
70. Plaintiff re-alleges paragraphs 1-69.
71. Plaintiff completed the repairs required by the Mississippi Use Agreement.
72. HUD did not return all of the Mississippi Escrow to Plaintiff after Plaintiff
completed the repairs required by the Mississippi Use Agreement.
73. HUD breached the Mississippi Use Agreement by failing to return the entire amount
of the Mississippi Escrow to Plaintiff.
74. HUD's breach of the Mississippi Use Agreement has damaged Plaintiff in the
amount of at least $328,062.
Count IV - Breach of the Mississippi HAP Contract
75. Plaintiff re-alleges paragraphs 1-74.

10

AppxSl
137a

Case: 19-1478

Document: 35

Page: 63

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 11 of 17

76. As required by the Mississippi HAP Contract, Plaintiff maintained the Mississippi
Project in accordance with HUD’s UPCS.
77. HUD breached the Mississippi HAP Conb-act by terminating the Contract on the
erroneous basis that Plaintiff failed to maintain the Mississippi Project in accordance with
HUD’s UPCS;
78. Plaintiffhas suffered monetary damages as a result of HUD’s- breach of the
Mississippi HAP Contract.
Count V - Breach of the Ohio Contract
79. Plaintiff re-alleges paragraphs 1-78.
80. Plaintiff timely submitted all the documents he was required to submit in accordance
with the Ohio Contract.
81. Plainti ff was qualified to manage the Ohio Project.
82. HUD breached the Ohio Contract by cancelling its sale of the Ohio Project to
Plaintiff on the erroneous basis that Plaintiff was not qualified to manage the Ohio Project.
83. HUD’s breach of the Ohio Contract has damaged Plaintiff in the amount of $50,000.
Count VI - Rescission of the North Carolina Use Agreement (Mutual Mistake of Fact)
84. Plaintiff re-alleges paragraphs 1-83 .
85. Plaintiffs son, the owner of the North Carolina Project at the time the North Carolina
Use Agreement was executed, and HUD each made a mistake of fact regarding the ability of
Plaintiff s son to complete the repairs required by the North Carolina Use Agreement.
86. Plaintiff s son and HUD both believed that there would be not be any impediment to
completing the repairs required bv the North Carolina Use Agreement. This belief by Plaintiffs

It

Appx52
138a

Case; 19-1478

Document: 35

Page: 64

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 12 of 17

son and HOD was a fundamental and basic assumption underlying the North Carolina Use
Agreement.
87. Henderson’s refusal to approve the repairs required by the North Carolina Use
Agreement or a variance to Henderson’s density and setback requirements submitted by
Plaintiffs son to Henderson which would have allowed Plaintiffs son to complete the repairs
required by the North Carolina Use Agreement had a material adverse effect on the bargain to
which Plaintiffs son and HUD agreed under the North Carolina Use Agreement
88. Because of the mutual mistake of fact made by Plaintiffs son and HUD regarding
tlie ability of Plaintiffs son to make tire repairs required by the North Carolina Use Agreement
Plaintiff is entitled to rescind the North Carolina Use Agreement and. in accordance with such a
rescission, a refund of the purchase price of the North Carolina Project and the return of the
North Carolina Escrow.
Count VH - Breach of Contract (North Carolina Project)
89. Plaintiffre-alieges paragraphs 1-88.
90. On December 1, 2009, Plaintiff, on behalf of his son who was the owner of the North
Carolina Project at that time, met with CourtlaJid Wilson, the then HUD acting Director of Asset
Management, to discuss Henderson’s refusal to approve the repairs required by the North
Carolina Use Agreement or a variance to Henderson’s density and setback requirements which
would have enabled Plaintiffs son to complete the required repairs.
91. At the December 1.2009 meeting. Plaintiff, as the authorized agent of Plaintiff s son.
and HUD agreed that HUD would refun d the pu rchase price of the North Carol ina Proj ect and
return the North Carolina Escrow to Plaintiffs son in return for the re-deeding of the North

12

Appx53
139a

Case: 19-1478

Document: 35

Page: 65

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 13 of 17

Carolina Project by Plaintiff s son to HUD. This agreement constituted a valid, binding oral
contract between HUD and Plaintiffs son (“North Carolina Contract”).
92. Plaintiffs son was ready, willing and able to re-deed the North Carolina Project to
HUD in return for the refunding of the purchase price of the North Carolina Project and the
return of the North Carolina Escrow, Plaintiff has also been ready, willing and able to re-deed
the North Carolina Project to HUD in return for the refunding of the purchase price of the North
Carolina Project and the return of the North Carolina Escrow since Plaintiffs son conveyed the
North Carolina Project to Plaintiff. However, HUD has refused to refund the purchase price of
the North Carolina Project and to return the North Carolina Escrow to either Plaintiffs son or
Plaintiff.
93. HUD has breached the North Carolina Contract by failing to refund the purchase
price ofthe North Carolina Project and to return the North Carolina Escrow to either Plaintiffs
son or Plaintiff.
94. HU D's breach of the North Carolina Contract has damaged Plaintiff in the amount of
$1,346,567.
Count VIII —Breach of the North Carolina Use Agreement
95. Plaintiff re-al leges paragraphs 1-94.
96. Henderson demolished the North Carolina Project in 2011.
97. The cost of the demolition of the North Carolina Project was $399,900.
98. HUD paid for the demolition ofthe North Carolina Project with funds from the
North Carolina Escrow.

13

Appx54
140a

Case: 19-1478

Document: 35

Page: 66

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 14 of 17

99. Plaintiff s son. the owner of the North Carolina Project at the time the North Carolina
Project was demolished, did not agree to the demolition of the North Carolina Project by
Henderson.
100. HUD breached the North Carolina Use Agreement by agreeing to the demolition of
the North Carolina Project by Henderson and by paying for the demolition with funds from the
North Carolina Escrow.
101. MUD’s breach ofthe North Carolina Use Agreement has damaged Plaintiff in the
amount of at least $399,900.
Count IX - Rescission of the Alabama Use Agreement (Misrepresentation of Facts)
102. Plaintiff re-alleges paragraphs 1-101.

103. HUD knew, or should have known, that the Alabama Project had been gutted and
the tenants of the Alabama Project had moved out in the few months between the first and
second foreclosure sales of the Alabama Project.
104. HUDs failure to notify Plaintiff that between the first and second foreclosure sales
of the Alabama Project the Alabama Project had been gutted, and that die tenants at the Alabama
Project had m oved out, was a m isrepresentation of material facts by HUD.
.105. HUD’s misrepresentation of these material facts induced Plaintiff to submit a bid at
the second foreclosure sale of the Alabama Project and to execute the Alabama Use Agreement
after Plaintiff s bid was accepted. Plaintiff would not have submitted a bid at the second
foreclosure sale of the Alabama Project if HUD had informed Plaintiff that the Alabama Project
had been gutted and the tenants of the Alabama Project had moved out between the first and
second foreclosure sales of the Alabama Project.

14

Appx55
141a

Case: 19-1478

Document: 35

Page: 67

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 15 of 17

106. Plaintiff s reliance on HUD’s misrepresentation of these material facts was
reasonable and justified.
107. HUD's m isrepresentation of the material facts regarding the condition and
occupancy level of the Alabama Project at the time of the second foreclosure sale of the Alabama
Project entitles Plaintif f to rescind the Alabama Use Agreement and, in accordance with such a
rescission, the return of the Alabama Escrow.
Count X - Rescission of the Alabama Use Agreement (Unilateral Mistake of Facts)
108. Plaintiffre-alleges paragraphs 1-107.
109. Plaintiff made a unilateral mistake regarding the condition and occupancy level of
the Alabama Project when Plaintiff submitted a bid at the second foreclosure sale- of the Alabama
Project and executed the Alabama Use Agreement.
110. Based on Plaintiffs inspection of the Alabama Project before the first foreclosure
sale of the Project, Plaintiff reasonably believed that when HUD solicited bids for the second
foreclosure sale of the Alabama Project the condition and occupancy level of the Alabama
Project was comparable to the condition and occupancy level of the Alabama Project at the time
of the first foreclosure sale. This belief was a fundamental and basic assumption underlying the
Alabama Use Agreement.
111. The gutting of the Alabama Project and the move-out of the tenants at the Alabama
Project between the first and second foreclosure sales of the A labama Project had an adverse
material effect on Plaintiffs performance under the Alabama Use Agreement.
112. HUD knew, or should have known, that the Alabama Project bad been gutted and
that the tenants had moved Out between the first and second foreclosure sales of the Alabama
Project.

15

Appx56
142a

Case: 19-1478

Document: 35

Page: 68

Filed: 12/11/2019

Case l:12-cv-00005-EDK Document 38 Filed 01/09/15 Page 16 of 17

J13. Because of Plaintiffs unilateral mistake of facts regarding the condition and
occupancy level of the Alabama Project at the time of the second foreclosure sale of the Alabama
Project, Plaintiff is entitled to rescind the Alabama Use Agreement and, i n accordance with such
a rescission, to the return of the Alabama Escrow.
Count XI - Rescission of the Alabama Use Agreement (Mutual Mistake of Facts)
114. Plaintiffre-alleges paragraphs 1-113.
115. Plaintiff and HUD each made mistakes of fact regarding the condition and
occupancy level of the Alabama Project when the Alabama Use Agreement was executed.
i 16. Both Plaintiff and HUD mistakenly believed that when HUD solicited bids for the
second foreclosure sale of the A labama Proj ect the condition and occupancy leve l of the
Alabama Project was comparable to the condition and occupancy level of the Alabama Project at
the time of the first foreclosure sale. This belief by Plaintiff and HUD was a fundamental and
basic assumption underlying the Alabama Use Agreement.
117. The gutting of the Alabama Project and the move-out of the tenants at the Alabama
Project between the First and second foreclosure sales of the Alabama Project had a material
adverse effect on the bargain to which Plaintiff and HUD agreed under the Alabama Use
Agreement.

16

Appx57
143a

